<html>
<title> - NATIONAL PARK SERVICE'S DRAFT MANAGEMENT POLICIES</title>
<body><pre>[Senate Hearing 109-313]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-313
 
           NATIONAL PARK SERVICE'S DRAFT MANAGEMENT POLICIES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

   RECEIVE TESTIMONY ON THE NATIONAL PARK SERVICE'S DRAFT MANAGEMENT 
     POLICIES, INCLUDING POTENTIAL IMPACT OF THE POLICIES ON PARK 
 OPERATIONS, PARK RESOURCES, INTERACTION WITH GATEWAY COMMUNITIES, AND 
                SOLICITATION AND COLLECTION OF DONATIONS

                               __________

                            NOVEMBER 1, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources




                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-508                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     2
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Castleberry, Don H., Member, Executive Council, Coalition of 
  National Park Service Retirees, Former Director, Midwest 
  Regional, National Park Service................................    24
Galvin, Denis, Former Deputy Director, National Park Service 
  (Retired), on behalf of Board of Trustees, National Parks 
  Conservation Association.......................................    10
Horn, William P., Former Assistant Secretary for Fish and 
  Wildlife and Parks, Department of the Interior.................    18
Martin, Stephen P., Deputy Director, National Park Service.......     5
Salazar, Hon. Ken, U.S. Senator from Colorado....................     3
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                                APPENDIX

Responses to additional questions................................    47


           NATIONAL PARK SERVICE'S DRAFT MANAGEMENT POLICIES

                              ----------                              


                       TUESDAY, NOVEMBER 1, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

   OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM 
                            WYOMING

    Senator Thomas. I will call the meeting of the National 
Parks Subcommittee to order.
    This is an oversight hearing of National Park Service 
management policies.
    Thank you all for being here. I am particularly pleased to 
have some regional directors here from the Park Service, and I 
want to welcome our witnesses for today's subcommittee hearing.
    The purpose of our hearing, of course, is to review the 
National Park Service's proposed management policies, including 
the potential impact of the policies on park operations and 
park resources, interaction with gateway communities, 
solicitation and collection of donations, and revised manager 
hiring policies.
    National parks, of course, are special places that 
symbolize the American spirit. Each park was established by the 
Congress for a specific purpose and, of course, must be managed 
to sustain that purpose. The management policies we are here to 
discuss are intended to guide employees as they seek to 
maintain the resources for the current and future public 
enjoyment.
    We were all reminded of the public interest in national 
parks when people were made aware of the plans to revise the 
management policies. Some overreacted by concluding that the 
internal working document was destined for implementation. We 
know now that it is a work in progress.
    I would like to commend Steve Martin and the members of the 
National Park Service policy development team for being 
responsive to public concerns. The purpose of this hearing is 
to continue to obtain public input and to ensure the National 
Park Service is well informed as they complete the document.
    Again, I would like to thank all of you for being here. 
Certainly we have been involved in this process for a very long 
time. I personally believe the purpose of the parks, of course, 
is to maintain the resources and, at the same time, allow the 
public to enjoy those resources. We, of course, have had a good 
deal of experience with that in some of our parks in Wyoming 
and so on.
    So in any event, thank you all for being here.
    Senator Akaka.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. Of 
course, thank you for scheduling this timely hearing to review 
the National Park's draft management policies.
    While I appreciate the effort that has been made to improve 
this proposal from the earlier drafts, I question the need for 
such a sweeping revision so soon after the current policies 
were approved. I am concerned about the process for developing 
the proposed policies and also whether the new policies will 
provide park managers with clear guidance on the significance 
of protecting park resources, both natural and cultural.
    In addition to the proposed management policies, I would 
like to raise another Park Service management issue that I 
believe is very problematic. A few weeks ago, the Director 
issued new requirements for the hiring of park superintendents, 
assistant superintendents, and deputy superintendents at the 
GS-13 grade and above, all career Civil Service positions. The 
new policy also covers program managers at the GS-15 level.
    Under the new policy, prospective candidates for any of 
these jobs must be vetted by the Park Service leadership in 
Washington, D.C. In addition to providing a statement of the 
job candidate's experience, competencies, and potential for 
management excellence, the regional offices will also be 
required to provide the Park Service leadership with a 
statement of the candidate's ability to lead employees in 
achieving the Park Service's Legacy goals, Secretary Norton 
four C's agenda, and the President's management agenda.
    I am very concerned that this new requirement will add a 
political element to the hiring and promotion process for 
career employees that is inconsistent with the Federal Civil 
Service laws. I look forward to exploring the new requirements 
in my capacity as the ranking member of the Senate's Federal 
Workforce Subcommittee. We need to ensure that the hiring and 
promotion of all Federal employees is carried out in a manner 
consistent with the Government's merit principles and free from 
political interference.
    Mr. Chairman, I would like to welcome our distinguished 
panel of witnesses this morning, and I look forward to hearing 
more about these issues. Thank you very much.
    Senator Thomas. Thank you, sir.
    Senator Alexander.

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Mr. Chairman, I have got a lot to say, 
but I think I will wait until I hear the witnesses. I want to 
thank you for calling the hearing.
    I am deeply concerned about the first revisions, and the 
second revisions I am trying to read and understand. I wrote 
the Secretary of the Interior, along with five other Republican 
Senators, to make it clear that there were a number of us who 
were concerned, and the number is larger than that. I guess 
what I want to find out is why we are doing this and whether it 
really is consistent with or undermines the Organic Act, which 
has existed since the parks were created, that creates a strong 
bias toward preservation and conservation in our National Park 
System.
    So I look forward to hearing the testimony, and I thank you 
for calling it.
    Senator Thomas. Thank you for postponing your statement.
    Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Mr. Chairman, I will take the opportunity 
to give a short statement too, rather than totally postponing 
it.
    I agree with what Senators Akaka and Alexander have said 
about the real question being what is wrong with the current 
policies that were updated, as I understand it, as recently as 
2001. Why are we doing a major revision of those? Is there some 
restriction on the public's right to access to the parks that I 
am not aware of? That is, I guess, a question.
    Another issue that I wanted to just mention that obviously 
I am going to ask some questions about is this whole move, as I 
see it--and maybe I am misinterpreting it, but it seems to be a 
move toward authorizing the Park Service employees to solicit 
donations, to allow donor recognition in national parks, to 
allow for the first time, the naming of rooms in park 
facilities after corporate sponsors, after private sponsors. I 
have real concerns about this whole commercializing of our 
national parks which I fear might be an outcome from this. So I 
will have questions about that as well.
    Thank you.
    Senator Thomas. Thank you, sir.
    Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Mr. Chairman, thank you very much for 
holding this hearing on a very important issue. I associate 
myself with the introductory comments that have been made by my 
colleagues. I have an opening statement that I will submit for 
the record.
    Let me just say that I too am very troubled by the proposed 
changes, and I hope that what this hearing does is provide the 
witnesses an opportunity to provide an explanation to this 
committee as to what the reasons for these changes are and, 
second, what will be the results on our National Park System if 
in fact these proposed changes are implemented.
    It seems to me that there is also a significant question 
that we all ought to have on our minds, and that is why this 
process came about in the way that it did, in contrast to the 
prior processes where the National Park Service's rules have 
been changed in the Reagan administration, as well as during 
the Clinton administration, where it seemed that there was the 
kind of consultation over a long period of time that resulted 
in changes to these rules. I do not see that that has occurred 
here from what I have been able to tell and from what I have 
heard from people who are on the ground. So I too bring 
concerns and have a number of questions that we will get to 
during the question and answer period.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you Mr. Chairman. I appreciate you holding this hearing today 
and giving me and the rest of the Subcommittee members an opportunity 
to discuss these Draft Management Policies. As the Chairman is well 
aware, National Parks represent the crown jewels of our natural 
heritage. These special places have been set aside to be preserved for 
the enjoyment of our generation as well as for the enjoyment of future 
generations. The only way to accomplish this is to consistently manage 
our National Parks so that the resources are not harmed, period.
    To help set the tone for this hearing, I would like to read a 
quote:

          There can be nothing in the world more beautiful than the 
        Yosemite, the groves of giant sequoias and redwoods, the Canyon 
        of the Colorado, the Canyon of the Yellowstone, the Three 
        Tetons; and our people should see to it that they are preserved 
        for their children and their children's children forever, with 
        their majestic beauty all unmarred.

That was President Theodore Roosevelt.\1\
---------------------------------------------------------------------------
    \1\ Theodore Roosevelt, Outdoor Pastimes of an American Hunter, 
1905.
---------------------------------------------------------------------------
    Mr. Chairman, in light of the overwhelming popular support our 
National Parks enjoy, the relatively short time period since the last 
management policy revision, and the simple guiding principle for the 
management of our National Parks set forth in the 1916 Organic Act; I 
ask: shouldn't we continue to manage our National Parks as Theodore 
Roosevelt so eloquently laid out, in a way that preserves these 
national treasures not only for current generations, but for future 
generations as well?
    I am deeply troubled by the sweeping and fundamental nature of 
these proposed changes to the Park Service's Management Policies, which 
have stood the test of time. Mr. Chairman, I am not convinced that 
there is a compelling reason for these changes. According to the 
National Park Service, visitor satisfaction has not been below 95% 
since 2001.\2\
---------------------------------------------------------------------------
    \2\ NPS began collecting statistics on visitor satisfaction 
beginning in 1998, in conformance with the Government Performance and 
Results Act passed by Congress and the Clinton Administration in 1993. 
Since those statistics have been collected, the level of visitor 
satisfaction has consistently scored at or above 94 percent. For years 
1998 to 2004 the ratings were 95%, 94%, 95%, 95%, 95%, 96%, and 96% 
respectively. Margin for error cited by the Park Service is 6%, with a 
confidence level of 95%.
---------------------------------------------------------------------------
    I look forward to getting a candid assessment of these proposed 
changes from Steve Martin, who has served for 30 years with the 
National Park Service, and from Denny Galvin, who served as Deputy 
Director of the National Park Service under three Presidents--Ronald 
Reagan from 1985 to 1989; Bill Clinton, from 1998 to 2001; and George 
W. Bush, from 2001 until his retirement in 2002.
    Thank you Mr. Chairman.

    Senator Thomas. Thank you, sir.
    Let me again welcome the witnesses. The Honorable Steve 
Martin is Deputy Director of the National Park Service. Mr. 
Denis Galvin, former Deputy Director of the National Park 
Service, is retired. Is Mr. Horn here? Would you care to take 
your seat, Mr. Horn? We will have you all at the same time. 
Bill Horn, former Assistant Secretary Fish and Wildlife and 
Parks of the Department of the Interior; and Mr. Don 
Castleberry, former Midwest Regional Director of the Park 
Service, also retired.
    I thank all of you for being here. We look forward to your 
comments, and obviously there will be some questions. Your 
total statements will be made a part of the record. Kind of 
capsulize them a little. Then we will get on to the discussion 
with the members. So again, thank you.
    Mr. Martin, would you like to begin please?

STATEMENT OF STEPHEN P. MARTIN, DEPUTY DIRECTOR, NATIONAL PARK 
                            SERVICE

    Mr. Martin. Yes, and Mr. Chairman, thanks for providing 
this opportunity to appear before your subcommittee. We look 
forward to having the dialog and a chance to discuss these 
issues.
    I am a 30-year veteran of the NPS, having served as a 
ranger, resource manager, superintendent of three parks, 
regional director, and deputy director for the NPS. With me 
today are also, as you mentioned, some of our members of the 
leadership council, and at the end we could certainly introduce 
them. They are willing to respond to questions if you have that 
interest, or we can certainly come meet with any of you at any 
time.
    The NPS management policies provide guidance for managing 
the National Park System and offer the public an understanding 
of our management practices and goals. These policies are based 
on laws, executive orders, proclamations, and regulations that 
govern the NPS, as well as departmental policies and 
longstanding NPS practices. This document, like the management 
policies that have preceded it, pursue the highest standard of 
conservation and enjoyment of our parks, the 388 units, that 
welcomed over 287 million visitors last year.
    We feel the current draft document, if read as a whole, 
strengthens the guidance to park managers to ensure that there 
is a commitment to the fundamental purpose of the National Park 
System as set out in the NPS Organic Act of 1916.
    The overarching message of this draft document is to 
continue improving how we manage parks. You may hear about what 
has been taken out of the current policies, but you need to 
take some time to think about what has been put in as well. To 
quote from the draft: ``to protect park resources and values to 
ensure that these resources and values are maintained in as 
good or better condition for the enjoyment of present and 
future generations.'' This is the first time we discuss passing 
on to future generations parks in better condition. We also try 
to communicate that. We welcome people to use their parks and 
to help us to protect the parks. If something in this draft 
document seems inconsistent with these goals, we must reiterate 
that it is a draft and we will resolve that inconsistency as we 
continue to improve it based on public and our employee input.
    The policies embrace the fundamental concept that when 
there is a conflict between use and conservation, conservation 
of the resources will be predominant. For example, the draft 
states that ``when there are concerns as to whether an activity 
or action will cause impairment, the Service will protect the 
resources,'' and it also states that ``when proposed park uses 
and the protection of park resources come in conflict, park 
managers are obligated to ensure that the purposes for which 
the park was created are not diminished.'' The term 
``diminished'' was used because we do not want to wait for 
impairment, but to step in to protect resources as the problem 
arises. This is logical because inspiration and enjoyment 
cannot occur without the preservation of the resources.
    In revising the 2001 policies, we also tried to change the 
perception some had that our message may have become strident. 
We must be open to working cooperatively with others in the 
practice of park management. This does not change what we do, 
but how we conduct ourselves as park managers.
    The revision defines appropriate use and establishes a 
clear process for managers to use professional judgment in 
determining what uses are appropriate. It defines unacceptable 
impacts, a proactive concept not found in the 2001 document 
that is designed to prevent impairment. We have been asked why 
are you revising the policies now, and we admit that some of 
what occured during the document's rollout was unfortunate and 
caused a lot of uncertainty and suspicion.
    But the answer is simple. It is about excellence. The world 
is changing and we continue to strive for excellence. 
Excellence means improving our guidance on not only preventing 
impairment, but on preventing unacceptable impacts. Excellence 
means increasing the understanding of appropriate use and 
making sure that this part of the mission is not overlooked. 
Excellence means keeping the key management decisions in the 
hands of the managers defining professional judgment. 
Excellence means not managing our parks in isolation, but 
working with others and engaging them in conservation.
    The existing policies do not clearly address management 
excellence, and the business practices personal management 
sections were weak. As we all know, the climate that we are 
doing business in now is very different than it was 5 years 
ago. Improved policies are also needed because we face 
continuing challenges in managing an array of wonderfully 
diverse areas. Parks range from Langston Golf Course in 
Washington, D.C. to the 8.5 million acres of Gates of the 
Arctic National Park and Preserve in Alaska. Every day without 
fail, we are tested when we make decisions on what to do or 
what not to do, what to build, what not to build, what to 
allow, and what not to allow. To make these decisions, we need 
a detailed formula that works for managing the birthplace of 
Martin Luther King, Jr., as well as managing the bison herd at 
Yellowstone National Park, not a simple litmus test that lacks 
practical efficacy. The many additions to this document attempt 
to accomplish that difficult task.
    The men and women who manage our parks are some of the best 
in government, and we ask a lot of them and they deserve good 
guidance.
    In summary, in 1918, in the very first policy, Secretary 
Lane wrote a statement that is still directly quoted in and is 
a vital part of our policies today. I quote: ``First, that 
national parks must be maintained in absolutely unimpaired form 
for the use of future generations, as well as those of our own 
time; second, that they are set apart for the use, observation, 
health, and pleasure of the people; and third, that the 
national interest must dictate all decisions affecting public 
or private enterprise in the parks.''
    I hope everyone, after all that has gone on, can unite in 
support of the goal to work on these policies--they are a 
draft--and ensure the best possible management for parks in the 
21st century. Let us work together as we continue to improve 
this document.
    That concludes my statement, and I will be happy to answer 
any questions.
    [The prepared statement of Mr. Martin follows:]

       Prepared Statement of Stephen P. Martin, Deputy Director, 
                         National Park Service

    Mr. Chairman, thank you for the opportunity to appear before your 
subcommittee at this oversight hearing on recent draft revisions to the 
National Park Service (NPS) Management Policies.
    The NPS Management Policies provide guidance for managing the 
National Park System and offer the public an understanding of our 
management practices and goals. These policies are based on laws, 
Executive orders, proclamations, and regulations that govern NPS as 
well as departmental policies and longstanding NPS practices. This 
document, like the Management Policies that have preceded it, pursues 
the highest standard of conservation and enjoyment of our 388 park 
units, which now welcome over 287 million visitors a year.
    The current draft document strengthens the guidance to park 
managers in order to ensure that there is an unequivocal commitment to 
the fundamental purpose of the National Park System, as set out in the 
NPS Organic Act of 1916, ``to conserve the scenery and the natural and 
historic objects therein and to provide for the enjoyment of the same 
in such manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.''
    The overarching message of this draft document is to continue 
improving how we manage parks ``to protect park resources and values to 
ensure that these resources and values are maintained in as good or 
better condition for the enjoyment of present and future generations.'' 
Toward this end, we allow and welcome the appropriate use of parks. 
While we may quote particular sentences from the revised Management 
Policies to emphasize certain points, the document is designed to be 
used by managers, as a whole, to implement the mission of the NPS to 
protect, conserve and provide for the enjoyment of this nation's 
incredible cultural and natural heritage. If something in this draft 
document seems inconsistent with that goal, we will certainly address 
it.
    These new draft policies maintain our strong commitment to the 
fundamental mission of the NPS to protect and allow for appropriate 
enjoyment of the parks. The policies clearly underscore that when there 
is a conflict between use and conservation, the protection of the 
resources will be predominant. For example, the draft states that 
``when there are concerns as to whether an activity or action will 
cause impairment the Service will protect the resources,'' and it also 
states that ``when proposed park uses and the protection of park 
resources come into conflict, park managers are obligated to ensure 
that the purposes for which the park was created are not diminished.'' 
This is logical because inspiration and enjoyment cannot occur without 
the preservation of the resources.
    The revision defines and welcomes ``appropriate uses'' and 
establishes a clear process for managers to use to determine what are 
appropriate uses. Appropriate uses are defined as ``a use that is 
suitable, proper or fitting for a particular park, or to a particular 
location within a park.'' This definition rests within the broader park 
system mission mentioned above of conserving park resources and values 
while providing for their enjoyment so as to leave them unimpaired for 
the enjoyment of future generations.
    The question that has been asked about this revision is ``why 
now?'' The answer is simple, yet multi-faceted. The world is changing, 
and we continue to strive for excellence. Excellence means improving 
our guidance on not only preventing impairment but on preventing 
``unacceptable impacts'' to ensure that impairment will not be reached. 
Excellence means increasing the understanding of ``appropriate use'' 
and making certain that this component of the fundamental mission is 
not overlooked. Excellence means keeping the key management decisions 
in the hands of the managers by better defining ``professional 
judgment.''
    Another answer to the ``Why now?'' question is that the existing 
management policies do not address ``management excellence'' and 
``sustainability'' with clarity. We face an evolving context of new 
technologies, new homeland security challenges, and public demands for 
efficient and transparent management practices that affect our 
stewardship responsibilities. The NPS must keep pace with these 
changes. With changing demographics and with the ever increasing 
importance of our NPS stewardship, cooperative conservation, civic 
engagement and 21st century relevance are critical. One final answer to 
the ``why now?'' question is that some members of Congress have also 
expressed an interest in seeing the NPS review its policies.
    Revised and improved policies are also needed because managers face 
continuing challenges as we preserve the parks while striving to serve 
our visitors and partner with our local communities. Every day, without 
fail, we are tested when we make decisions on what to do or what not to 
do; what to build or what not to build; what to allow or what not to 
allow. From these challenges we learn and improve our practices.
    The men and women who manage our parks are some of the best in 
government. We ask a lot of them and they deserve good guidance. The 
courts have recognized that the NPS Organic Act confers on the NPS 
broad discretion to manage the National Park System and have left to 
its expertise the determination of the best approaches to achieving the 
Organic Act's mandate. Within the parameters of the Organic Act's 
``fundamental purpose,'' the courts have recognized that NPS may 
balance resource conservation and visitor enjoyment in determining 
where and when activities are appropriate in park areas.
    The ability of an agency to remain healthy and sustainable over 
time lies with its willingness to honestly examine its own management 
practices and update them periodically to more efficiently and 
effectively fulfill the underlying mission. To this end, the NPS held a 
series of meetings with field professionals and Department of the 
Interior officials over the last few months. More than 100 key 
professional staff have worked on the document, including all of the 
NPS career national leadership team, many field and program managers, 
and the National Wilderness Steering Committee. The revised management 
policies, now available for public review, recognize new challenges 
facing the NPS, such as homeland security and greater accountability 
and transparency, and incorporate advancements in technology with 
management tools such as Facility Condition Index. The revised policies 
also bring existing guidance up to date with new laws such as those 
related to fees; new Executive Orders such as ``Preserve America'' and 
``Facilitating Cooperative Conservation''; new Director's Order #75A: 
Civic Engagement; and new initiatives such as the ``NPS Legacy 
Initiative: Doing Business in the 21st Century''; and the Secretary of 
the Interior's ``4C's of communication, cooperation, and consultation, 
all in the service of conservation.''
    The NPS Management Policies have traditionally served as the 
foundation for day-to-day park management decisions. For that reason, 
it is of paramount importance that the Management Policies provide 
clear and useable guidance that encourages consistency across the 
National Park System while celebrating the unique aspects of individual 
park units. In the draft Management Policies, managers will find 
detailed definitions of key management terms, enabling them to more 
clearly anticipate how resources can best be conserved while providing 
a positive visitor experience. These definitions ensure that park 
managers will always seek ways to avoid or minimize to the greatest 
extent practicable, adverse impacts on park resources and values.
    In this draft, managers are given guidance on the NPS decision-
making procedures. This includes engaging the public and using the best 
scientific information available when parks are planning for facilities 
or activities. This concept is further clarified by setting forth a 
list of criteria that park managers must apply, using their 
professional judgment, to determine what uses are appropriate in a 
particular park. Such criteria include, among others, ensuring that 
uses do not cause unacceptable impacts, create an unsafe or unhealthful 
environment for visitors or employees, or result in significant 
conflict with other appropriate uses. For example, in applying the 
criteria, a park manager may determine initially that a proposed 
activity would ``result in significant conflict with other appropriate 
uses'' and must therefore be disallowed. However, by applying a more 
sophisticated planning process, the manager may conclude that even 
small adjustments in the time or location of activities can avoid or 
adequately mitigate the conflict. The revised policies encourage this 
kind of forward-thinking management.
    Another term of critical importance to park managers is impairment. 
The impairment standard comes from the most important statutory 
directives for the NPS, the NPS Organic Act of 1916 and the General 
Authorities of 1970, as amended. The revised Management Policies 
rectify an apparent inconsistency in the definition of impairment 
between the glossary and chapter one of the 2001 Management Policies. 
The draft Management Policies maintain a firm commitment to not only 
protect park resources and values from impairment but also to leave 
them in as good or better condition then they currently exist. They 
further describe the manager's responsibility to incorporate civic 
engagement, the best available scientific, scholarly, and technical 
information to ensure that parks are managed for appropriate use and to 
prevent impacts from ever reaching the level of impairment.
    The revised policies place a new emphasis on management excellence 
in other areas, as well. One of the most important of our new 
initiatives, the NPS Legacy Initiative, sets goals and objectives for 
management excellence, sustainability, conservation, outdoor 
recreation, and 21st century relevancy. These goals, as incorporated 
into the revised policies, will direct efforts toward areas of vital 
importance to the fulfillment of our mission. The revised policies have 
been updated by taking into account changing demographics, improving 
technology, new ways to enjoy parks, and better science to inform 
decision-making. Better baseline data on resource conditions, an 
improved understanding of the interrelationships within ecosystems, the 
use of best available technology, the application of adaptive 
management, and the practice of cooperative conservation may allow new 
uses and result in greater enjoyment, with reduced visitor use 
conflicts, while maintaining high conservation standards and leaving 
the resources in as good, or better, condition for the enjoyment of 
future generations.
    In addition to improving the internal processes used by park 
managers, the revised policies recognize the benefits of external 
relationships, particularly in regard to partnerships and other 
collaborative activities. The NPS commitment to civic engagement is 
founded on the central principle that preservation of the nation's 
heritage resources relies on continued collaborative relationships 
between the NPS and American society. The revised policies reflect a 
renewed commitment to civic engagement, and collaboration with states, 
communities, and tribes through effective consultation, participation, 
and the use of science in key decision-making processes. The revised 
policies incorporate the guidance published in NPS Director's Order 
#75A: Civic Engagement and strengthen our commitment to effective 
public involvement. For the NPS, true civic engagement is an 
institutional responsibility to actively involve communities in our 
mission. In the revised policies, inclusive and collaborative public 
participation will be emphasized in the planning process, and in 
interpretive and educational programming. By enhancing the NPS focus on 
partnering with communities and neighbors, we intend to ensure that 
sites representing the fullness of the American experience are 
preserved.
    National park units conserve our national treasures, and it is 
these unique settings that draw millions of visitors to enjoy these 
special places. One result of this high demand is that, at times, the 
NPS must make decisions that are not popular with every group and every 
individual. Simply put, the national parks cannot accommodate 
everyone's wants and needs. However, we have nearly 300 million 
satisfied customers each year who tell us that our decisions are most 
often the right ones. The NPS will work hard to maintain this high 
level of customer satisfaction. In addition, our partners at the state, 
local, and private levels also provide a wide array of opportunities 
for the public to enjoy the activities that cannot be accommodated in 
the national parks. The NPS is committed to working closely with these 
partners in a coordinated effort to meet the nation's needs for healthy 
and enjoyable recreational opportunities. The revised policies will 
incorporate forward-thinking, Servicewide initiatives to ensure the 
continued fulfillment of the mission as entrusted to us in the Organic 
Act of 1916.
    In summary, the Organic Act continues to guide virtually all of our 
management actions. It creates a single NPS mission with several 
components, including that future generations will be able to enjoy 
National Park System resources only if we successfully conserve them 
and protect them from impairment. We think this makes good sense. In 
1925, Stephen T. Mather, the first Director of the NPS agreed by 
saying, ``The primary duty of the National Park Service is to protect 
the national parks and national monuments under its jurisdiction and 
keep them as nearly in their natural state as this can be done in view 
of the fact that access to them must be provided in order that they may 
be used and enjoyed.'' By managing park resources wisely, by evolving 
and adapting our policies to keep the parks relevant to the public we 
serve, we ensure that future generations will have the same 
opportunities for enjoyment of park resources that we have today.
    The revised management policies focus on the protection of park 
resources and provide a clear reflection of the agency's longstanding 
commitment to public enjoyment. The proposed areas of change will 
improve the way parks are managed, conserved, and enjoyed for the 
benefit of present and future generations.
    That concludes my statement, and I will be happy to answer any 
questions you or other members of the subcommittee may have.

    Senator Thomas. Thank you very much. It is good to have an 
old friend from Teton Park here.
    Mr. Martin. Yes. Who would have thought it, right?
    [Laughter.]
    Senator Thomas. Whatever that means, yes.
    Mr. Galvin, good to see you, sir.

  STATEMENT OF DENIS GALVIN, FORMER DEPUTY DIRECTOR, NATIONAL 
    PARK SERVICE (RETIRED), ON BEHALF OF BOARD OF TRUSTEES, 
            NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Galvin. Senator Thomas, it is a pleasure to be back 
before the subcommittee again. Today I represent the National 
Parks and Conservation Association, a 300,000-member support 
group for the National Park Service and the National Park 
System.
    I have enjoyed my work with this subcommittee to improve 
and expand our superlative National Park System over the years.
    I have a prepared statement that comments in detail on the 
chapter 1 changes proposed to the current 2001 edition of the 
management policies that ``set the framework and provide 
direction for all management decisions affecting the National 
Park System.''
    In 1988 and 2001 as Deputy Director, I coordinated the 
process that led to the new editions of these policies, to the 
current edition, 2001. I also did that for 1988. It was 
initiated and implemented by the National Park Service.
    This process, by contrast, was initiated outside the 
National Park Service. Its first result was rejected. 
Subsequently, national park professionals, many my former 
colleagues, performed heroically to rescue that effort. 
Regrettably the end result of that effort still falls short.
    Policy has a long history, starting with Secretary Lane's 
letter in 1918. I have examined many subsequent versions. They 
exhibit a remarkable consistency. The 2005 draft does not meet 
the level of protection of its predecessors. The 2001 document 
is better and should be retained. The current process is flawed 
and should be abandoned.
    If a revision is needed, it should begin with a scoping 
process that is clear about the reasons for change. The 
informal reasons for change cited by officials in the media, 
cell towers, base jumping, et cetera, are contradicted in the 
draft currently being reviewed.
    I have several documents referenced in my prepared 
statement that I would like to submit for the record that were 
pulled off the National Park Service web site that go into the 
history of the interpretation of impairment.
    I will mention only two sections that are covered in my 
prepared statement. Subsection 1.4.3 of chapter 1, which is 
called The Foundation, discusses the fundamental purpose of the 
National Park System. That is the title of the subsection, 
``the fundamental purpose of the National Park System.'' The 
existing 2001 language says: ``When there is a conflict between 
conserving resources and values and providing for enjoyment of 
them, conservation is to be predominant.'' The 2005 draft 
eliminates that statement. In the same subsection, ``the 
fundamental purpose of national parks,'' it substitutes: ``The 
Service must balance the sometimes competing obligations of 
conservation and enjoyment in managing the parks.'' That lowers 
the longtime standard for managing national parks. I can find 
no instance in reviewing over 80 years of policy statements 
where the word ``balance'' was used to discuss the fundamental 
purpose of our park system.
    A new subsection, 1.4.3.1, my colleague, Deputy Director 
Martin, mentioned is a new and hopeful attempt to define 
``appropriate use.'' However, in the execution, some of the 
criteria are troubling. My prepared statement mentions the 
removal of concessions facilities and other administrative 
facilities from giant forests in Sequoia National Park. There 
we were cutting the roots of 3,000-year-old trees to prolong 
the existence of substandard 80-year-old facilities. The 
successful completion of this project is a success that can be 
claimed by many, including this subcommittee. It was 
enthusiastically supported by the public. As I read this draft, 
I wonder if we would have undertaken the project. It certainly 
disrupted the operation of park concessions and certainly ended 
a use that occurred historically.
    In my career, I had an informal test for appropriate use. 
It was two simple questions. What is it doing to the resource, 
and what is its affect on current and future enjoyment? If the 
answer to either of those questions raised a red flag, I knew 
the approach should be truly conservative. The standard of the 
Hippocratic Oath applied: ``First, do no harm.''
    One of the pleasures of retirement has been to visit 
national parks. I have hiked the battle lines of Gettysburg, 
enjoyed the tranquility and meaning of Appomattox, seen people 
from New York City on a Sunday afternoon fill the picnic areas 
at Delaware Water Gap, returned to Yosemite National Park and 
Sequoia, the first parks I worked in in the National Park 
System. These experiences affirm that we have a great park 
system enjoyed by hundreds of millions of our citizens. It is 
not locked up. Its quality is a bequest from past generations. 
This generation owes it to the future to maintain the standards 
that have made it great.
    Thank you, Mr. Chairman. I would be glad to answer 
questions.
    [The prepared statement of Mr. Galvin follows:]

 Prepared Statement of Denis Galvin, Former Deputy Director, National 
Park Service (Retired), on Behalf of Board of Trustees, National Parks 
                        Conservation Association

    Mr. Chairman, and other distinguished Members of the Subcommittee; 
it is a pleasure to be back before this Subcommittee again. I recently 
retired from the National Park Service after a 38-year career, during 
which I served as, among other positions, park engineer, manager of the 
professional architecture and design center, associate director, and 
deputy director. I have actively participated, as a career 
professional, in the agency's interpretation and implementation of the 
1916 NPS Organic Act, and all of the other laws given to the NPS to 
carry out, at the field, regional, and headquarters levels on a day-to-
day basis for more than three decades, including development of the 
1988, and 2001 editions of NPS Management Policies, the official manual 
that guides the agency's day-to-day work under these laws.
    As is valid for all public laws and all public agencies, it is 
appropriate for this Subcommittee to exercise its oversight 
responsibilities to periodically assess how the National Park Service 
is doing in carrying out the statutory mandates that it has been given 
by the Congress and Presidents, and NPCA is pleased to play a role in 
supporting that effort on your part. We welcome your oversight, but 
strongly believe that the Administration has shown NO need for the 
broad and comprehensive changes that they propose to make in NPS 
Management Policies.

           NPS IS ON TARGET UNDER THE LAW, BUT LOSING GROUND

    The fundamental re-interpretation of the Organic Act that is being 
proposed in the rewrite of the Management Policies does not make it a 
better document for agency manager's guidance. In fact, the proposed 
changes would remove the clear guidance of the 2001 edition, and 
replace it with muddy, unclear, and too-broad discretion left to NPS 
managers and Administration appointees, to judge what is and is not 
appropriate use of the national parks. A clear service-wide standard 
for day-to-day management decision-making is proposed to be replaced 
with a much broader range of choices.
    There is clearly NO need to amend the NPS Organic Act, or any of 
the other laws governing how our national parks are intended to be 
managed. The Organic Act has endured soundly for 90 years, and will 
probably be good for another 90 years, at least.
    Likewise, there is NO need to re-write Management Policies. For 
those narrow subjects that the Administration has asserted were not 
addressed in the 2001 edition (homeland security, cell towers, 
succession planning, etc,) the issuance of specific Director's Orders 
is the operative process already in place to take care of it.
    What is needed is for the broad constituency of interests that are 
engaged with the National Park Service-- recreation, tourism, gateway 
communities, conservation, preservation, and regular ``good 
citizens''--to step up their support for their national parks as they 
are, and as they are intended to be, preserved unimpaired for future 
generations to enjoy. Special interests must give way to the national 
interest if the national parks are to flourish in the future.
    In 1918, Secretary of Interior Franklin Lane articulated the core 
management policy for the NPS, which endures today, ``First, that the 
national parks must be maintained in absolutely unimpaired form for the 
use of future generations as well as those of our time; second, that 
they are set apart for the use, observation, health, and pleasure of 
the people; and third, that the national interest must dictate all 
decisions affecting public or private enterprise in the parks.''

                         THE THREAT OF GENERICA

    At the White House Tourism Conference here in Washington D.C. 
several weeks ago, attended by invited state delegates and key tourism 
industry leaders from all 50 states, the opening day keynote speaker 
said that the greatest threat to American tourism is the ``Threat of 
Generica''--the homogenization of natural and cultural landscapes 
across the Nation by commercialization. Another major speaker said that 
the counter force to the threat of generica is ``geo-tourism''--more 
than eco- or sustainable-tourism, this new philosophy being adopted and 
embraced by the tourism industry itself, calls for sustaining the real 
places in America, retaining, restoring and sustaining the geographical 
character and integrity of a place. That is what will continue to draw 
tourists--and the units of the National Park System are already the 
very core, the essence, of this geo-tourism. The national parks can, if 
adequately funded and staffed, continue to lead this economic engine 
for America into the future.
    For high quality tourism to be sustained in America, already the 
second or third largest economic driver in the USA, nothing is more 
important that preserving the unique natural and cultural places that 
make up the National Park System, unimpaired.

                         APPROPRIATE RECREATION

    Nearly 300 million people visited the parks last year, and we know 
from surveys that they ``enjoyed'' them. NPS concessionaires grossed 
over $1 Billion in 2004; surrounding gateway communities and businesses 
grossed over another $11 Billion attributable to national park 
visitors. Despite this, there are those who suggest that NPS management 
of the parks it TOO RESTRICTIVE, or that the parks are LOCKED UP, or 
lack ACCESS. Nothing could be further from the truth.
    Nevertheless, some want to engage in thrill-type recreation 
activities, mostly in various types of motorized vehicles, in the 
national parks. Some (but far from all) park gateway communities 
complain that they could draw in more tourists if the NPS were ``less 
restrictive'' of various uses. These types of demands would seek to 
kill the goose that lays the golden egg, and must be rejected or 
ignored.
    The national parks do not have to sustain all recreation; that is 
why we have various other federal, state, local, and private recreation 
providers to share the demand, and to provide for those types of 
recreation that generally do not belong in the national parks, or that 
must be carefully limited. The 1916 NPS Organic Act, emphasizing 
conservation for future generations, is substantially different from 
the organic laws of the Bureau of Land Management, the US Forest 
Service, the US Fish and Wildlife Service, the Army Corps of Engineers, 
or any other federal agency. The NPS mission is also different from 
that of state park agencies, or of county or city park agencies. 
Together, these agencies provide for many forms of public recreation--
but not all forms of recreation are appropriate in national parks.

       BALANCING USE WITH PRESERVATION IN DAY-TO-DAY MANAGEMENT 
                           OF NATIONAL PARKS

    Over the 90 years history of the NPS, there has been much debate 
over whether the NPS is achieving the proper balance between uses of 
the parks for today, and conserving them unimpaired for future 
generations. These conflicts usually erupt over day-to-day management 
of particular parks, and the decisions that the NPS makes as it goes 
through periodic management planning. It is crucial to this discussion, 
however, to note that there is no credible debate over whetherparks 
should be used by the American people, the debate centers on how the 
use occurs, or sometimes when or where.

  <bullet> The snowmobile controversy in Yellowstone would be far less 
        significant if there were no impacts on wintering bison and 
        trumpeter swans;
  <bullet> The off-road vehicle debate at Cape Hatteras would be 
        moderated if there were no impacts on breeding birds, or if 
        more of the beaches were limited to pedestrian use;
  <bullet> Shenandoah National Park staff could be less involved with 
        opposition to adjacent power plants if emission controls under 
        the Clean Air Act were being enforced at a higher standard, and 
        if the scenic vistas from the park's overlooks were as clear as 
        they were 50 years ago;
  <bullet> NPS staff at Mojave National Preserve, where hunting is 
        allowed by law, oppose the artificial wildlife watering holes, 
        known as guzzlers, not because they oppose hunting, but because 
        these devices dry up the natural springs at higher elevations, 
        and concentrate wildlife unnaturally, exposing them as easier 
        targets to both natural and human hunters;
  <bullet> Professional NPS staff at Glacier Bay National Park limit 
        the number of cruise ships allowed in the park at a time, both 
        due to impacts on whales and other wildlife, and to maintain 
        the quality of the visitor experience, both for cruise ship 
        passengers and other park boaters;
  <bullet> The buildings and associated utility lines for the Giant 
        Forest Lodge in Sequoia National Park were killing the big 
        trees, so NPS had them removed, and had its concessions 
        partner, Delaware North, build a brand new lodge in a better 
        location, still serving the visitors, but without impact to the 
        giant Sequoias.

    For the NPS professionals, conserving the parks unimpaired for 
future generations is synonymous with offering park visitors today a 
high quality experience. Scenic vistas should be clear, natural sounds 
should dominate over man-made noises, native wildlife should be 
abundant and visible for visitors, historic sites such as battlefields 
should look like they did when the historic events occurred, park 
visitor facilities should not be located so as to disturb the natural 
scene or the cultural landscape.
    Viable alternatives to expanded use and commercial development in 
parks should be provided outside the parks, on other public lands, or 
in gateway communities. Natural and cultural resources of the units of 
the National Park System must be maintained and in some cases improved. 
Preservation is the key to continued success of the NPS in fulfilling 
its statutory mandate, and also to sustaining the core destinations 
that fuel the tourism industry.

                    INTERPRETING THE NPS ORGANIC ACT

    It is the task of professional NPS managers, through the public 
process, to determine what is appropriate and what is not in the 
National Park System units. The ``litmus'' test for distinguishing 
between the permissible and the impermissible begins with the 1916 NPS 
Organic Act itself, and the key statutory provision that states that:

          (The National Park Service) shall promote and regulate the 
        use of the Federal areas known as national parks, monuments and 
        reservations hereinafter specified . . . by such means and 
        measures as conform to the fundamental purpose of the said 
        parks, monuments and reservations, which purpose is to conserve 
        the scenery and the natural and historic objects and the 
        wildlife therein and to provide for the enjoyment of the same 
        in such manner and by such means as will leave them unimpaired 
        for the enjoyment of future generations.

    Simply put, the NPS Mission is to provide for enjoyment of the 
parks in a manner that leave them unimpaired. Uses that impair the 
parks are illegal. Giving a precise definition to the term 
``impairment'' is the job of the NPS career managers who are charged 
with implementation. In addition, federal courts have also rendered 
opinions that interpret the ``impairment'' provisions, and in every 
case, have agreed with the current interpretation.
    Congress has clarified its intent in statutory use of the term 
``impairment'' only once, in the 1978 amendment to the NPS General 
Authorities Act, which states that

          Congress declares that the national park system, which began 
        with establishment of Yellowstone National Park in 1872, has 
        since grown to include superlative natural, historic, and 
        recreation areas in every major region of the United States, 
        its territories and island possessions; that these areas, 
        though distinct in character, are united through their inter-
        related purposes and resources into one national park system as 
        cumulative expressions of a single national heritage; that, 
        individually and collectively, these areas derive increased 
        national dignity and recognition of their superb environmental 
        quality through their inclusion jointly with each other in one 
        national park system preserved and managed for the benefit and 
        inspiration of all the people of the United States; and that it 
        is the purpose of this Act to include all such areas in the 
        System and to clarify the authorities applicable to the system. 
        Congress further reaffirms, declares, and directs that the 
        promotion and regulation of the various areas of the National 
        Park System, as defined in section 2 of this Act, shall be 
        consistent with and founded in the purpose established by the 
        first section of the Act of August 25, 1916 to the common 
        benefit of all the people of the United States. The 
        authorization of activities shall be construed and the 
        protection, management, and administration of these areas shall 
        be conducted in light of the high public value and integrity of 
        the National Park System and shall not be exercised in 
        derogation of the values and purposes for which these various 
        areas have been established, except as may have been or shall 
        be directly and specifically provided by Congress.

    Current NPS policy is to interpret the 1916 ``non-impairment'' 
standard, and the 1978 ``non-derogation'' standard as having the same 
meaning and intent. That little has changed since the NPS was 
established and given the task of managing the national parks can be 
seen in the similarities between the first NPS policy statement 
interpreting the Organic Act, which stated that:

          Every activity of the Service is subordinate to the duties 
        imposed upon it to faithfully preserve the parks for posterity 
        in essentially their natural state,

and the language from the 1978 Senate Committee Report on the General 
Authorities Act amendment that stated that:

          The Secretary has the absolute duty, which is not to be 
        compromised, to fulfill the mandate of the 1916 Act to take 
        whatever actions and seek whatever relief as will safeguard the 
        units of the national park system.

    In the concluding paragraph to ``The National Park Service Act of 
1916: A Contradictory Mandate?'' the late Dr. Robin Winks, Yale History 
Dean and former Chairman of both the National Park System Advisory 
Board and NPCA Board of Trustees, clearly articulates his conclusion 
that there is no contradiction in the clear intent of Congress in the 
1916 Act, and that resource preservation trumps access and use when the 
two conflict in the determination of the professional managers of the 
parks.

          Arguably the intent of Congress with respect to any single 
        act cannot be perfectly divined or proven. The intent of 
        Congress across a number of related acts, and as adumbrated by 
        other acts that bear upon the related group, may more nearly be 
        understood. The paper has attempted to judge that intent. It 
        has argued that the language contained in the preamble to the 
        National Park Service Act of 1916 is not, in fact, 
        contradictory; and that Congress did not regard it as 
        contradictory. . . . Further, it is argued that subsequent 
        legislation, and numerous interpretations of related 
        legislation by the courts . . . sustain the view that there was 
        and is not inherent contradiction in the preamble to the Act of 
        1916. The national Park Service was enjoined by that act, and 
        the mission placed upon the Service was reinforced by 
        subsequent acts, to conserve the scenic, natural, and historic 
        resources, and the wild life found in conjunction with those 
        resources, in the units of the National Park System in such a 
        way as to leave them unimpaired; this mission had and has 
        precedence over providing means of access, if those means 
        impair the resources, however much access may add to the 
        enjoyment of future generations.

    (Attached to this testimony is a copy of Dr. Winks' paper, ``The 
National Park Service Act of 1916: A Contradictory Mandate?'', 
submitted for the Hearing Record.)* www.nature.nps.gov/Winks/
---------------------------------------------------------------------------
    * Retained in subcommittee files.
---------------------------------------------------------------------------
    Day-to-day management of a national park is complex, as is 
determining whether a particular type or amount of use would cause 
impairment, and thus not be allowed to occur in the park. The sound 
judgment of the career NPS park professional is the best means we have 
to make this determination, coupled with a public process that allows 
the American people to understand the complications and competing 
interests. Putting the national interest, and the long-term benefit to 
the park's resources, ahead of the immediate accommodation of use has 
always been and should continue to be, the primary factor indicating 
the right decision for park managers to make.

   THE ADMINISTRATION HAS NOT MADE A CASE FOR PROPOSED REVISIONS TO 
             MANAGEMENT POLICIES, CHAPTER I, THE FOUNDATION

Overview
    From the first NPS Management Polices, issued in 1918, up until the 
most recent edition, issued in 2001, the process of policy development 
has followed a fairly common routine, with the periodic (every 10 years 
or so) review of existing NPS policies being initiated by the 
professional rank and file employees of the NPS, due to recent changes 
in law, federal court decisions interpreting law, or exposure to new 
scientific information.
    Management Policies are primarily to give clear direction to the 
professional managers of the NPS so that there is consistent adherence 
to policy service-wide, and so that each manager has a clear and 
comprehensive basis for understanding what he/she is to consider when 
making management decisions. On the other hand, regulations are 
promulgated to enable enforcement of laws and policies on park users. 
These two tools, policies and regulations, must be consistent and 
clear, if NPS managers are to be able to do their jobs.
    For purposes of this hearing, we will focus our comments on a 
comparison of Chapter 1: The Foundation from the 2001 edition of 
Management Policies to the changes proposed in the current draft of 
Chapter 1 that are out for public comment. During the public comment 
period, we will develop a thorough and detailed, line-by-line analysis; 
for the present, a review of Chapter 1 will be sufficient.
    The interpretation of the NPS Organic Act that is contained in the 
proposed new version of NPS Management Policies is misguided. It 
misinterprets the intent of Congress, it ignores numerous federal court 
decisions, and it greatly weakens the professional judgment of the NPS 
career mangers that have worked under the various NPS laws for over 90 
years. Our analysis of key sections of Chapter 1 follows:

The Foundation
    Chapter One of the 2001 edition of Management Policies is entitled 
The Foundation and is intended to give additional clarity to the clear 
purpose of the National Park Service as stated in the 1916 NPS Organic 
Act.
    The 2001 edition of Management Policies gave a very detailed and 
clear articulation of how to interpret the 1916 Organic Act's basis 
mandate. In contrast, the new draft significantly muddies the waters, 
and has the effect of letting each manager judge for him/herself 
whether a particular use or form of enjoyment is appropriate or not, 
and will or won't cause impairment, without the clear guidance that the 
2001 edition of Management Policies provide.
    The fundamental purpose of NPS, as set by the 1916 Act, is to 
promote and regulate uses that do not impair parks, and prohibit all 
others. Yes, the NPS mission is about use and enjoyment, but these are 
types, amounts, and even timing of uses that are first judged to be 
compatible with conserving park resources unimpaired.
    By all accounts, including NPS-commissioned visitor surveys, the 
hundreds of millions of people who visit the parks annually enjoy these 
parks. But, due to NPS management, certain uses that certain people 
might also enjoy in the parks are prohibited. It seems that these new 
proposed changes to Management Policies are intended to make it more 
difficult for NPS to prohibit some types of uses that it heretofore has 
done. The changes lower the standard by which appropriate uses are 
judged, by adding a variety of qualifiers, modifiers, and vague, fuzzy 
guidelines to what were previously much more clear guidelines for 
judging appropriateness.

1.4.3 The NPS Obligation to Conserve and Provide for Enjoyment of Park 
        Resources and Values
    The 2001 edition of Management Policies clearly defines the 1916 
Organic Act's ``fundamental'' purpose of the NPS as two-fold:

          1) to affirmatively conserve park resources and values all 
        the time, even where there is no particular threat or risk at 
        the moment; this is a mandate for proactive, not just reactive 
        park natural and cultural resource management. When Congress 
        added the mandate for reliance on scientific research to guide 
        park management in the 1998 Thomas Bill (P.L. 105-391), 
        Congress was essentially directing the NPS to assure that its 
        actions would continue to conserve park resources and values, 
        based on the findings of park-based applied research,\1\ not 
        just in response to user-caused impairments.
---------------------------------------------------------------------------
    \1\ Section 202 of P.L. 105-391 states that ``The Secretary is 
authorized and directed to assure that management of units of the 
National Park System is enhanced by the availability and utilization of 
a broad program of the highest quality science and information.'' 
Section 206 states, in part, ``The Secretary shall take such measures 
as are necessary to assure the full and proper utilization of the 
results of scientific study for partk management decisions.''
---------------------------------------------------------------------------
          2) To provide for enjoyment, but only enjoyment that occurs 
        in a manner or means that leaves the park's resources and 
        values unimpaired.

    The 2001 Edition further states, ``NPS managers must always seek 
ways to avoid, or to minimize to the greatest extent practicable, 
adverse impacts on park resources and values.'' Avoiding adverse 
impacts is necessitated by both the first element of the single 
purpose, as well as the second element.
    The proposed draft significantly revises the interpretation of the 
Organic Act by treating its mandate as a balancing act between 
conservation of resources and values and visitor enjoyment.``The Park 
Service recognises that activities in which park visitors engage can 
cause impacts to park resources and values, and the Service must 
balance the sometimes competing obligations of conservation and 
enjoyment in managing the parks.''
    This interpretation of the Organic Act's fundamental purpose for 
the NPS is not accurate. While there is clearly a difference between 
impacts and impairments--NPS may permit certain impacts to park 
resources and values so long as they are not impairments--the 
professional judgment that is called for to distinguish between impacts 
and impairments is clearly different than one that seeks to balance use 
with conserving . . . unimpaired.
    By eliminating the separate Organic Act requirement to conserve 
park resources and values, the proposed draft relaxes the standards by 
which a park manager would judge the condition of park resources and 
values. The draft replaces the phrase ``adverse impacts'' used in the 
2001 edition with the term'' unacceptable impacts,'' a far more 
indefinite term, that leaves the park manger with little guidance, 
broad discretion, and an expectation that he or she will ``balance'' 
use with conserving . . . unimpaired.
    In fact, the park manager does not have ``broad discretion'' as it 
is defined in the proposed draft. While federal courts have shown 
deference to the federal decision-maker in questions about defining 
impairment, these same courts have universally upheld the paramount 
mandate of the Organic Act to conserve park resources and values 
unimpaired, even to the extent of reducing or eliminating a particular 
form of use.
    The proposed draft adds two new subsections, on ``1.4.3.1 
Appropriate Use,'' and ``1.4.3.2 Unacceptable Impacts,'' both of which 
seek to emphasize that balance is required under the Organic Act. Both 
subsections are comprised of lists of items that would be acceptable or 
unacceptable uses, but this approach is only valid if you assume that 
the NPS park manager's only obligation is to balance use with resource 
conservation.
    Another new subsection ``1.4.3.3 Park Purposes and Legislatively 
Authorized Uses'' in the proposed draft properly distinguishes between 
mandated uses and authorized uses, but fails to note that authorized 
uses are discretionary with the NPS manager and may be prohibited if 
the manager judges the impacts of such use to be unacceptable.
    Curiously, this section fails to note the important fact that 
individual park enabling statutes sometimes have the effect of 
modifying the applicability of the Organic Act to a specific park or 
aspect of management of that park. This was a hallmark feature of the 
1988 edition of Management Policies which was carried forward into the 
2001 edition. The proposed draft seems much more intent on allowing 
maximum manager discretion than in adhering carefully to the intent of 
Congress.

1.5 External Threats and Opportunities
    This section of the 2001 edition of Management Policies has been 
completely eliminated from the proposed draft, apparently in keeping 
with the Administration's policies that the NPS authority and 
responsibility stops at the park boundary. While it is true that NPS' 
direct authority is much reduced outside park boundaries, there are 
numerous other laws, including the Clean Air Act and the Surface Mining 
Act that mandate special protections for national parks, and that 
afford the NPS a measure of responsibility in determining the extent of 
impacts to park resources and values.
    Elimination of this section is a significant deficiency of the 
proposed re-write of Management Policies.
    In substitution, the new draft adds a new section entitled 
``Cooperative Conservation Beyond Park Boundaries.'' While this is a 
good addition as it is proposed, it in no way substitutes for the 2001 
edition's section on External Threats. They address two very different 
things. As noted in numerous previous studies, the majority of external 
threats to national park resources and values are caused by the 
actions, or inactions, of other federal agencies, and need a directed 
and aggressive response from the NPS.
    ``Cooperative Conservation'' as it has been defined by Secretary 
Norton has been primarily focused on actions that can be taken by the 
NPS, and other land managing agencies, to work constructively with 
neighboring landowners, especially private landowners, and adjacent 
gateway communities. This is a good policy as far as it goes, but does 
not address the elimination or mitigation of external threats to park 
resources from other federal agencies. Both sections are needed in 
Management Policies.

1.7 Management Excellence
    This section of the proposed draft is greatly expanded from the 
2001 edition of Management Policies, some of it appropriate, and some 
of it curiously inappropriate, and most of it better placed elsewhere 
in the follow-on Chapters of the document.

1.7.2 Accessibility for Persons with Disabilities
    This subsection, while important overall to NPS facility design, 
belongs in portions of Chapter 8 Use of the Parks, and Chapter 9 Park 
Facilities, rather than in the Foundation Chapter, which should remain 
focused on interpretation of the Organic Act. This subsection will also 
likely be subject to significant re-writing in the near future, when 
the federal Access Board promulgates its long-awaited regulations and 
guidelines on access to recreation facilities, and to outdoor developed 
areas.

1.7.4.4 Facilities Management, 1.7.4.5 Business-like Concession 
        Program,1.7.4.6 Budget Performance and Accountability Programs, 
        1.7.5 Human Capital, 1.7.5.1 Career development, Training and 
        Management, 1.7.5.2 Succession Planning, 1.7.5.3 Workforce 
        Planning, 1.7.5.4 Employee Safety and Health, and 1.7.5.5 
        Workforce Diversity
    These are all new subsections of the proposed draft, and do not 
belong in Chapter 1, some do not belong in Management Policies at all, 
but certainly are misplaced, and seem only to serve to dilute the focus 
of Chapter 1 away from what was heretofore its main purpose, to explain 
and interpret the fundamental law of the NPS, the 1916 Organic Act.

1.9 Partnerships
    While the Partnership section is generally good and parallels the 
2001 edition, a significant addition has been proposed which could 
impact the integrity of the National Park System if it were to be 
implemented as stated.
    The problematic statement reads ``In the spirit of partnership, the 
Service will also seek opportunities for cooperative management 
agreements with state or local agencies that will allow for more 
effective and efficient management of the parks, as authorized by 
section 802 of the National Park Omnibus Management Act of 1998.''
    However, section 802 of the National Park Omnibus Management Act of 
1998 specifically and exclusively authorizes cooperative agreements 
.with adjacent state and local park agencies, not just any state or 
local agency, and was intended to appropriately take advantage of 
opportunities for shared management responsibilities where adjacent 
land managers have similar missions and purposes.
    As proposed, the language of this subsection is much too broad, 
opening the proverbial Pandora's box of opportunities to dilute and 
diminish the resources and values of the national parks.
    Thank you for the opportunity to testify here today, and I would be 
happy to answer any questions.

    Senator Thomas. Thank you, sir.
    Mr. Horn, it is nice to have you back, sir.

 STATEMENT OF WILLIAM P. HORN, FORMER ASSISTANT SECRETARY FOR 
    FISH AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Mr. Horn. A pleasure to be back, Mr. Chairman. Thank you 
for this opportunity to testify on National Park Service 
management policies.
    For background purposes, I had the privilege as serving as 
Assistant Secretary for Fish, Wildlife and Parks from 1985 to 
1988 and, in that capacity, personally oversaw and participated 
directly in the rewrite of the management policies that 
culminated in the 1988 version that stayed in force and effect 
until 2001.
    I think it is safe to say that we are blessed with an 
incomparable National Park System that is used, enjoyed, and 
cherished by millions of our citizens, and maintaining and 
enhancing this public support is the key to assuring the long-
term conservation of this system. To that end, I commend the 
National Park Service and the Department for seeking to amend 
its management policies to be more consistent with the 1916 
National Park Organic Act and correct the deficient features of 
the 2001 version of these same policies.
    Now, the starting point of all of these discussions has got 
to be the mandate set forth by Congress in the 1916 Organic 
Act, which is simply to conserve park resources and to provide 
for use and enjoyment of the same. Sound management policies 
must faithfully track the law, and particular attention needs 
to be paid to the specific language that Congress adopted 
nearly a century ago. The mandate is articulated as a single 
purpose. The language in the statute is ``which purpose is.'' 
It is not two purposes with one primary and the other 
subordinate.
    Congress also prescribed in 1916 that resources be 
conserved, not preserved.
    And last and of critical importance is the express purpose 
of conserving these resources and leaving them unimpaired. To 
quote the statute, that is to assure ``for the enjoyment of 
future generations.'' From a close reading of the statute, it 
is very evident that public use and enjoyment is inextricably 
embedded in the single fundamental purpose of our park system, 
and the 1916 Act, read as a whole, is a mandate for an active 
management program to facilitate such use and enjoyment.
    Now, the only subsequent prescription that arises from the 
1916 Act is to assure that park resources are ``unimpaired.'' 
Now, advocates of public use restrictions invariably define 
impairment so broadly that many traditional activities can be 
deemed to cause impairment and therefore be prohibited. For 
example, the Clinton administration's 2000 rewrite of the NPS 
policies at section 1.4.5 disturbingly singled out three kinds 
of activities as sources for impairment: ``visitor 
activities,'' ``NPS activities in the course of managing a 
park,'' and ``activities undertaken by concessioners, 
contractors, and others operating in the park.''
    The disconnect between the Organic Act and the 2001 
policies is illustrated by the fact that these specific 
activities are expressly authorized in sections 1 and 3 of the 
1916 Act. Nonetheless, despite their express representation and 
provision in the 1916 Act, they were tagged as the sources of 
impairment in the 2001 management policies. In my mind, that is 
a clear element of disconnect that was worthy of correction.
    The Organic Act was enacted with specific contemplation 
that some resource impacts would attend visitor use and 
enjoyment. Imagine today trying to build a fraction of 
Yellowstone's 200-mile loop road system or even one of its 
historic hotels or lodges. It is an absolute certainty that 
alleged impairment would be the basis for objections to this 
form of visitor development. Obviously, Yellowstone's roads and 
visitor service centers have an impact. Yet, it was decided 
years ago, consistent with the Organic Act standard, that such 
impacts were acceptable to facilitate reasonable levels of 
public use and enjoyment. And I think it is clear that the vast 
majority of Americans would still agree that the effects of 
these developments do not constitute an illegal impairment of 
Yellowstone's wonderful resources.
    Accordingly, the term ``impairment'' must be defined 
reasonably and consistently so it does not become a weapon to 
be used against the use and enjoyment mandate from the basic 
Organic Act. The definition proposed in the new management 
policies in my opinion better reflects the law and the need for 
balance, consistent with the single purpose articulated by 
Congress in 1916.
    Now, let me close with a plain observation about the 
political process and the National Park Service's policies. 
Under the Clinton administration, the management policies were 
written, rewritten with strong guidance from then Assistant 
Secretary Bob Herbst. In 1987 and 1988, as Assistant Secretary, 
I directly oversaw and personally and actively participated in 
the rewrite that culminated in the 1988 policies. In the 1999-
2000 period, President Clinton's appointee, then Assistant 
Secretary Don Berry, also personally participated and oversaw 
the process that produced the 2001 management policies. To 
suggest somehow that active participation and guidance from the 
Assistant Secretary's office is unprecedented is frankly utter 
nonsense. Complaints about politics being involved in this 
remind me of the famous line in Casablanca about I am shocked 
there is gambling going on here. There has always been active 
political participation over the last 20 years in all of these 
rewrites because of the issues that are involved. People care 
deeply about these things.
    Let me just say this. If Deputy Assistant Secretary Paul 
Hoffman's participation in this process makes him guilty, then 
I think you better outfit former Assistant Secretaries Herbst, 
Berry, and myself for orange jumpsuits as well.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Horn follows:]

 Prepared Statement of William P. Horn, Former Assistant Secretary for 
        Fish and Wildlife and Parks, Department of the Interior

    Mr. Chairman: My name is William P. Horn and I appreciate the 
invitation to appear before the Subcommittee to discuss National Park 
Service (NPS) Management Policies.

                              INTRODUCTION

    It was my privilege to serve as Assistant Secretary for Fish, 
Wildlife and Parks under President Reagan and work on the development 
and articulation of appropriate NPS management policies consistent with 
the 1916 National Park Organic Act. We are blessed with an incomparable 
National Park System that millions of our citizens use, enjoy and 
cherish. Maintaining and enhancing this broad public support for our 
Park System through sound management is the key to assuring the 
conservation of its resources for future generations.
    Any inquiry into NPS Management Policies must start first with the 
1916 Act. Its basic mandate is to ``conserve the scenery and the 
natural and historic objects and the wild life therein and to provide 
for the enjoyment of the same in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations'' and 
management policies and actions must adhere to and fulfill that 
mandate. Unfortunately, there are interests and advocates who seek to 
effectively rewrite this basic statutory mandate and impose park 
policies that focus on only one half of the original Congressional 
admonition. These same interests often pose the basic policy issue in a 
form overtly hostile to traditional visitor use: ``are we wise enough 
to support'' management that ``preserves natural wonders for our 
children by preserving them from us.'' \1\ Contrary to these interests, 
Congress has never intended that parks be managed as ``biospheres under 
glass'' or managed in an exclusionary manner.
---------------------------------------------------------------------------
    \1\ F. Cheever, 74 Den. U. L. Rev. 625, 1997.
---------------------------------------------------------------------------
    Management policies that genuinely reflect the law must provide an 
appropriate balance that recognizes both elements of this single 
mandate. To achieve this goal, it is critical that the 2001 NPS 
Policies be rewritten in manner consistent with the Organic Act. As 
detailed later in this statement, the 2001 Policies misrepresented the 
1916 Act from the outset and irretrievably set those policies on a 
wrong and illegal course. I commend the leadership at NPS and Interior 
for engaging in the legally necessary rewrite of NPS policies.

                                1916 ACT

    The 1916 Act was the product of four years of intense Congressional 
deliberations involving critical opinion leaders of the day such as 
Frederick Law Olmstead, Jr. (the designer of New York City's Central 
Park) and Stephen Mather (later first Director of the National Park 
Service). Although National Park units had been in existence since 1872 
(i.e., Yellowstone), there was no unified management of these units nor 
any mission statement to govern and direct management. Indeed, there 
was no National Park Service and units like Yellowstone were 
administered by the U.S. Army. A battle was also underway to resolve 
whether parks management should be lodged within the Department of the 
Interior or committed to the U.S. Forest Service, created in 1905, then 
headed by Chief Gifford Pinchot. The 1916 Act was designed to correct 
these deficiencies and resolve this critical bureaucratic dispute.
    In addition, President Teddy Roosevelt's bold actions and 
articulation of conservation policy were already a decade old. The 
National Forest System and the U.S. Forest Service had been created. 
Similarly, Roosevelt had begun the National Wildlife Refuge System in 
1903 dedicated to conserving biological (i.e., fish and wildlife) 
resources. The nascent Park System had just suffered the bruising Raker 
Act battle that authorized the construction of Hetch Hetchy Dam within 
Yosemite National Park. Park proponents wanted to maintain the impetus 
from the Roosevelt years and protect against other Hetch Hetchy's.
    Two of the primary interests supporting the 1916 Act were the 
railroad and automobile industries. The Act was seen as a means of 
facilitating opportunities to enjoy scenic vistas and encourage 
tourism. Only the year before, Yellowstone's road system, built by the 
U.S. Army, had been opened to auto traffic with much fanfare.
    It is reported that Olmstead authored the basic mandate included in 
the Act: ``. . . the fundamental purpose of the said parks, monuments, 
and reservations, which purpose is to conserve the scenery and the 
natural and historic objects and the wild life therein and to provide 
for the enjoyment of the same in such manner and by such means as will 
them unimpaired for the enjoyment of future generations. ``16 U.S.C.  
1, Aug. 25, 1916. Particular attention must be paid to the specific 
language adopted by Congress. Note first that it is articulated as a 
SINGLE PURPOSE (i.e., ``which purpose is''); it is not two purposes 
with one primary and the other subordinate. Congress also prescribed 
that resources be ``conserved'' rather than ``preserved.'' The term 
``conservation,'' as articulated in that era by the likes of Teddy 
Roosevelt, included elements of use in contrast to the more 
preservation-oriented rhetoric of John Muir, founder of the Sierra 
Club. Note too that the resources singled out for conservation are 
tangible matters: scenery, natural and historic objects, and wild life. 
Of critical importance is the express purpose of conserving resources 
and leaving them unimpaired: to leave them in that state ``for the 
enjoyment of future generations.''
    Public use and enjoyment is inextricably embedded in the single 
fundamental purpose of our Park System. Moreover, ensuring future use 
is the underlying purpose of the non-impairment standard. To argue that 
``resource preservation'' is the single, dominant overarching purpose 
of the 1916 Act, to the detriment of visitor use and enjoyment, is 
simply wrong and not borne out by a close reading the actual statutory 
language.
    The debate over section 1 always focuses on its famous last phrase. 
Additional meaning, however, can be gleaned from earlier parts of the 
provision. The beginning of the sentence gives the charge to the then 
new National Park Service: ``The service thus established shall PROMOTE 
AND REGULATE THE USE of the Federal areas known as national parks.'' 
(Emphasis added.) A statute that expressly admonishes NPS to promote 
use and assure visitor use and enjoyment can hardly be read to 
authorize exclusionary preservation policies.
    A close reading of section 3 of the Act further demonstrates 
``preservation'' per se was far from the minds of the 1916 Congress. 
Section 3, still part of the U.S. Code (16 U.S.C.  3), expressly 
authorizes forest management when needed to ``control the attacks of 
insects of diseases or otherwise conserve the scenery or the natural or 
historic objects'' in any park. Similarly, it provides authority for 
the ``destruction of such animals and of such plant life as may be 
detrimental to THE USE OF any said parks.'' (Emphasis added.) In 
addition, the section provides the original authorization for the 
concessions program to facilitate public use and allows grazing within 
parks, except Yellowstone, when deemed ``not detrimental'' to the 
primary purpose for which a park is created. Overall this is a mandate 
for an active management program to facilitate public use and enjoyment 
of the Park system. No intellectually honest reading of this Act can 
support the notion of treating large ``natural'' units of the Park 
System as unmanaged, untouched biological preserves with visitors to be 
kept on the other side of the glass or fence.

                                1978 ACT

    Congress supplemented the 1916 mandate with 1978 amendments to the 
Organic Act by enacting a key sentence in a new section: ``The 
authorization of activities shall be construed and the protection, 
management; and administration of these areas shall be conducted in 
light of the high public value and integrity of the National Park 
System and shall not be exercised in derogation of the values and 
purposes for these areas have been established. . . .'' 16 U.S.C.  la-
1. Federal courts have essentially deferred, pursuant to the Chevron 
standard, to a permissible agency interpretation that this language 
provides more emphasis on resource conservation. I would note though 
that Congress did not amend the original section 1 language and added 
this supplemental provision in a separate section of the law. It 
creates no conflict with the original mandate other than to add a new 
term, ``derogation'', which many construe as a synonym for 
``impairment.'' The proposed Management Policies appropriately, and 
permissibly, treat these terms as one standard. (See 1.4.2).

                          MANAGEMENT POLICIES

    It is critical the NPS Management Policies 2001 be rewritten 
consistent with the 1916 Act. Those policies got the law wrong from the 
very outset: the opening ``Foundation'' of the policies states ``The 
National Park Service must manage park resources and values in such a 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.'' It is intellectually dishonest, and 
contrary to law, to deliberately delete from this paraphrase of the 
Organic Act the express references to the ``enjoyment of the same.'' 
The 2001 Policies distort the law from the very beginning and never 
recover. In contrast, the proposed Policies accurately reflect the 
actual law and Congressional intent. (See 1.1). By getting it right 
from the start, the proposed Policies do not veer off from the course 
charted by Congress nearly a century ago.

                               IMPAIRMENT

    The only substantive prescription in the 1916 Act is to assure that 
park resources are ``unimpaired'' and definition of this term has 
become key. Those seeking to restrict public use and enjoyment 
invariably define ``impairment'' so broadly that a vast array of 
traditional park visitor activities can be deemed to cause impairment 
and, therefore, be prohibited. For example, the Clinton 
Administration's rewrite of NPS Management Policies stated ``AN IMPACT 
TO ANDY PARK RESOURCE OR VALUE may constitute impairment.'' (Emphasis 
added.) NPS Management Policies 2001, 1.4.5.
    The same policies go on to provide that an ``impact'' that simply 
``affects'' a resource or value can also constitute impairment. Id. 
Lastly, any impact that ``would harm the integrity of park resource or 
values'' is proscribed although ``integrity'' is never defined. Id. The 
2001 Policies disturbingly note only three kinds of activities that 
might cause impairment: ``visitor activities''; ``NPS activities in the 
course of managing a park''; and ``activities undertaken by 
concessioners, contractors, and others operating in the park.'' These 
are the specific activities expressly authorized in sections 1 and 3 of 
the 1916 Act (public use and enjoyment, park management to facilitate 
use, and concessions). Policies that contradict specific Congressional 
directives are clearly illegal and a rewrite of these misdirected 
provisions is needed.
    As previously noted, the purpose of the non-impairment standard is 
to conserve resources for future visitor enjoyment. Clearly, the 
Organic Act was enacted with specific contemplation of active programs 
to facilitate use and enjoyment and with the clear understanding that 
some levels of impact or effects on resources would be fully acceptable 
in pursuit of this objective. It is noteworthy that Yellowstone's road 
system was upgraded and opened to automobiles in 1915. At the same 
time, that Park included a number of grand Victorian hotels to 
accommodate the public. Demonstrably this kind and level of development 
was deemed fully acceptable by the drafters of the non-impairment 
standard especially since Stephen Mather went on to press successfully 
for similar development in other parks during his post-1916 tenure as 
NPS Director. One legal historian has written ```enjoyment reasonably 
required access and at the time roads, trails, hotels, campgrounds and 
administrative facilities did not seem unduly invasive. The act cannot 
have meant that `unimpaired' was to be taken in its strictest sense, 
particularly since the act included specific approval for certain 
inevitably compromising actions: leasing for tourist accommodation was 
the most obvious example.'' \2\
---------------------------------------------------------------------------
    \2\ R. Winks, ``The National Park Service Act of 1916: A Contrary 
Mandat''; 74 Den. U. L. Rev. 575, 1997.
---------------------------------------------------------------------------
    In contrast, imagine today trying to build a fraction of 
Yellowstone's road system or even one of its historic hotels or lodges. 
It is an absolute certainty that ``impairment'', especially the very 
low impact threshold in the Clinton-era policies, would be THE basis 
for objections. Obviously the 233 miles of pavement associated with the 
famous ``Loop'' road system and six major visitor services centers 
(Mammoth, Roosevelt, Canyon, Lake, Grant Village, and Old Faithful) 
have an ``impact'' on Yellowstone's resources. Undoubtedly, the roads, 
parking lots, boardwalks to thermal features, bridges, cabins, hotels, 
restaurants, visitor centers, support facilities, employee housing, 
ranger stations, and headquarters offices have some adverse impact on 
the natural environment and compromise in some fashion the 
``integrity'' of the same environment. Yet it was decided years ago, 
fully consistent with the 1916 Act, that such impacts were acceptable 
to facilitate public use and enjoyment of our first National Park. I 
would submit that the vast majority of American citizens would still 
agree that the effects and consequences of these developments do not 
constitute an illegal impairment of Yellowstone's wonderful resources.
    The 1916 Act clearly contemplates a professional balancing exercise 
to achieve both parts of its mandate and NPS Management Policies must 
reflect the same. To that end, the term ``impairment'' must be defined 
reasonably and consistently so it does not become a weapon to be used 
against traditional use and enjoyment. Most Americans find satisfactory 
the present on-the-ground state of affairs in our Parks regarding 
visitation and use and would be aghast if they realized that the 2001 
NPS management policies effectively define many of these uses as 
illegal. I would suggest that an appropriate definition of impairment 
would recognize that some adverse effects are acceptable to facilitate 
use and enjoyment so long as those effects do not materially or 
significantly alter ecological processes or have appreciable adverse 
impacts on scenery, wildlife, and other natural resources. This would 
be consistent with the ``material'' impact standard used to define 
permissible activities on units of the National Wildlife Refuge System 
(that standard was first adopted by the U.S. Fish and Wildlife Service 
in the mid-1980's and affirmed by Congress in 1997).
    Fortunately, the definition of ``impairment'' in the proposed 
Policies (see  1.4.5) is consistent with the 1916 Act, its obvious 
intent, and practical experience derived from a century of park 
operations. The proposed definition ensures that use and enjoyment will 
be managed to assure that what we see and enjoy today in our Park 
System can be seen and enjoyed by our children and grandchildren.

                          RESOURCES AND VALUES

    The 1916 Act references the conservation of tangible resources: 
scenery, natural and historic objects, and wild life. In 1978, Congress 
added that NPS management ``shall not be exercised in derogation of the 
values and purposes'' for which Park System units were created. 16 
U.S.C.  1a-1. The same provision makes references to the ``high public 
value'' of the System. Id. Since then it has become common for some to 
refer to ``resources and values'' as if the two are synonymous. See NPS 
Management Policies 2001; 1.4.6. Advocates have similarly seized on 
this language to press for more social management by NPS. For example, 
one commentator writing about ``loving them to death'' (i.e., Parks) 
argued that ``NPS must refuse the whims and desires of popular demand 
and instead exert a strong hand . . . to create an [visitor] EXPERIENCE 
worthy of this [1916] mandate.''(Emphasis added.) \3\ This and other 
references to ``experiences'' are illustrative of an efforts to insist 
on more and more social management in the name of resource 
preservation.
---------------------------------------------------------------------------
    \3\ D. Herman, 11 Stan. Envtl. L. J. 3 (1992).
---------------------------------------------------------------------------
    A greater measure of intellectual rigor is needed to ensure that 
policy decisions regarding public use and enjoyment distinguish 
properly between tangible resources and more subjective, intangible 
values including the subjective personal ``experiences'' of different 
park users. For example, clean water is a tangible resource. A healthy 
elk herd is a tangible asset as is a stand of red mangrove trees. In 
contrast, subjective aesthetic appreciation falls into the category of 
values.. A mountain climber on Denali gets dropped off by ski plane and 
relishes the silence when the plane departs; he later is disturbed and 
upset when another plane carrying flightseers passes by prompting him 
to write NPS demanding restoration of ``natural quiet''. In my 
experience, many of the most contentious Park System management battles 
involve ``values''--disputes among and between user groups over the 
most appropriate way to enjoy our parks.
    Unfortunately, there is a trend toward treating the personal 
aesthetic values of some users as a resource. By the alchemy 
ofpolitics, those values get transmuted into ``resources'' and become 
the basis for management actions detrimental to other traditional user 
groups. It is fully appropriate, and necessary, to conserve genuine 
resources to fulfill the mandate of the Organic Act. That Act should 
not, however, be misconstrued and be the basis for giving one user 
group preferred status and prohibiting the activity of another because 
the former raises aesthetic objections. A public institution such as 
NPS has an obligation to all of our citizens and should strive to 
accommodate a variety of park uses and users as long as they do not 
impair bona fide resources. The authors of the Policy rewrite should be 
applauded for making clearer distinctions between uses (and users) and 
resources and values. Both the Natural Resource Management sections 
(Chapter 4) and the ``unacceptable impact'' provisions distinguish 
between resources and values and ``appropriate uses.'' (See 8.1.1; 
8.1.2). The improved intellectual clarity that arises from the new 
language is overdue.

                           MANAGEMENT OF USES

    The proposed NPS Management Policies also do an excellent job in 
curbing the tendency for managers to opt first for ``lock the gate'' 
decisions. A disturbing trend in recent years has been the inclination 
of park managers to almost immediately select closures or prohibitions 
in dealing with use management issues. Instead of seeking to manage 
uses to conserve resources or to accommodate different users, it has 
been too easy to simply post a ``closed'' sign. The proposed rewrite 
takes a far more professional, and refreshing, approach. It prescribes 
intermediate steps to manage, mitigate or avoid resource impacts or 
user conflicts. Only when management cannot correct a problem are 
closures or prohibitions prescribed. (See 8.1.2). This is such 
elemental common sense that it is sure to become controversial.
    Thank you again for the opportunity to appear today and present 
this overview of NPS Management Policies and the 1916 National Park 
Service Organic Act.

    Senator Thomas. Thank you, sir. I appreciate it.
    Mr. Castleberry.

  STATEMENT OF DON H. CASTLEBERRY, MEMBER, EXECUTIVE COUNCIL, 
 COALITION OF NATIONAL PARK SERVICE RETIREES, FORMER DIRECTOR, 
            MIDWEST REGIONAL, NATIONAL PARK SERVICE

    Mr. Castleberry. Thank you, sir. I appreciate your holding 
these hearings, Senator, and allowing me to appear before you.
    My name is Don Castleberry. I live in Arkansas. I had the 
privilege of a 32-year career with the National Park Service. I 
was a park ranger, a park manager of five different parks, 
deputy director of the Mid-Atlantic Region, director of the 
Midwest Region, and I also acted as associate director for 
operations in my last year of employment.
    Since retirement, I have served on a number of boards, 
including NPCA, and am now on the executive council of the 
Coalition of National Park Service Retirees. This organization 
is made up of 430-plus now former employees of the National 
Park Service. These are all people who committed their working 
lives to the things we are talking about here today, the 
national treasures. We came from a broad spectrum of political 
orientations and affiliations. We would all be happier home 
fishing and writing our books and tending our gardens and 
playing with our grandchildren, but we do care about these 
resources and we are making the effort to let these concerns be 
known. We are convinced that this is a critical time in the 
life of our national treasures and we could not stand by and 
allow them to be compromised by narrow, short-term private 
interests.
    The development of these new policies, as you have heard, 
took place under the guidance of Mr. Hoffman, who was 
mentioned. One of the advantages of speaking last is you get to 
hear what the others said. I was around during some of those 
times too, like Mr. Horn and Mr. Galvin, and I would say, from 
what I have heard, there was a considerable difference between 
the involvement of Mr. Hoffman and the involvement of the 
political appointees in past efforts. This seemed as though it 
was a sort of secret thing that took place in a smoke-filled 
room somewhere with the Park Service employees being selected 
and pledged to secrecy and threatened almost.
    We have heard about the August draft and how it was 
disavowed really by the Department as being not what they 
wanted to put their name to. When it reemerged in its new form, 
it had been revised and I would say softened. Some of the 
wording had changed. But we have looked at it very carefully, 
and we have studied side by side the original version, the 
Hoffman version, and the current version. And our assessment is 
that the current draft is simply the Hoffman draft 
uncomfortably dressed in a rumpled, ill-fitting ranger uniform.
    This is the first time such policies have been started that 
the superintendents out in the field, the very people who are 
going to be using these policies, were not brought in and made 
a part of the effort. One would wonder why they are only going 
to get to comment on it after it is a document that is out for 
public comment instead of being a party to it from the 
beginning.
    All these National Park Service people that are here, 
virtually all of them, are friends of mine, people I have 
worked with, people I respect highly. This is not their 
product. I doubt if any of them would stand behind them if they 
were allowed to speak out without fear of retaliation.
    Mr. Akaka mentioned the new personnel policies that we have 
learned of, and they frighten us too because we can see the 
sort of pushing down of a litmus test loyalty to this 
administration's political slogans being taken down right to 
the grade 13 and mid-level managers, limiting their frank input 
from knowledgeable people who are going to actually be living 
with these policies and increasing the intimidation factor.
    Our assessment, the assessment of all 430 of us who have 
lived with these things before and helped to write them in the 
past, is that in not one single instance does the proposed 
change increase the likelihood of park resources being 
preserved unimpaired. Former Director Roger Kennedy described 
this strategy as the August draft being a threat to take off a 
leg, the October draft as being an offer to take off a foot and 
hoping that we will be relieved at the somewhat diminished 
harm.
    Mr. Chairman, the harm has only been diminished or masked, 
not eliminated. The members of our commission, whose jobs are 
not at risk, know these issues, and we can say what the current 
employees cannot say. There is no need for any amputation at 
all and no amputation is acceptable. We challenge the 
Department to explain why these revisions are needed, who 
initiated them, whether they are better or worse than the 
current policies. We have been there. We know the answers. They 
are not needed, and they are not only worse, but if they are 
adopted, they will place the integrity of our national park 
system in jeopardy.
    Thank you for hearing my testimony, sir.
    [The prepared statement of Mr. Castleberry follows:]

 Statement of Don H. Castleberry, Member, Executive Council, Coalition 
  of National Park Service Retirees, Former Director, Midwest Region, 
                         National Park Service

    Mr. Chairman and members of the Subcommittee, my name is Don 
Castleberry. Thank you for holding this hearing on a subject so vital 
to our nation, and thank you for allowing me to express these views. I 
had the privilege of a 32-year career in the National Park Service, 
during which I held such positions as Park Ranger, Park Manager (of 
five different parks), Deputy Director, Mid-Atlantic Region, Director, 
Midwest Region and (acting) Associate Director-Operations, in 
Washington. I served six years as member, Board of Trustees, National 
Parks Conservation Association and am now a member of the Executive 
Council, Coalition of National Park Service Retirees.
    The Coalition of National Park Service Retirees is over 430 
individuals, all former employees of the National Park Service, with 
more joining us almost daily. Together we bring to this hearing more 
than 12,000 years of experience. Many of us were senior leaders and 
many received awards for stewardship of our country's natural and 
cultural resources. As rangers, executives, park managers, biologists, 
historians, interpreters, planners and specialists in other 
disciplines, we devoted our professional lives to maintaining and 
protecting the National Parks for the benefit of all Americans-those 
now living and those yet to be born. In our personal lives we come from 
a broad spectrum of political affiliations and we count among our 
members, five former Directors or Deputy Directors of the National Park 
Service, twenty-three former Regional Directors, or Deputy Regional 
Directors, twenty-seven former Associate or Assistant Directors and one 
hundred and eight former Park Superintendents or Assistant 
Superintendents.
    The proposed changes to National Park Management Policies provide 
one of the clearest examples of why this coalition, which never seemed 
necessary until two and a half years ago, has come together. Believe 
me, there are few among us who would not prefer to be writing our 
books, tending our roses, enjoying grandchildren, or volunteering at a 
National Park. We have coalesced because this is a critical time for 
the treasures to which we devoted our careers. It is a time when this 
nation may decide whether to retain the benefits of victories painfully 
won over 130 years of National Park history or to risk losing them to 
narrow, short-term, and private interests.
    The parks are often called national treasures--the crown jewels of 
our republic--but they are far more than that. They are repositories of 
information against which human progress--or its opposite--can be 
gauged. They are touchstones of who we are as a people and even as 
members of the human race. They are the best hope for preserving the 
cultural record that defines American civilization and the biological 
diversity upon which life itself depends. For evidence that the people 
of the United States know this, simply recall the times a few years 
back when the Federal government was shut down due to budget disputes. 
Network news explained the meaning of that crisis to ordinary citizens 
by answering just four fundamental questions:

  <bullet> will the nation be defended
  <bullet> will the Social Security checks be issued
  <bullet> will the mail be delivered, and
  <bullet> will the National Parks be open?

    Congress, in its Act of August 25, 1916 created the National Park 
Service and charged it with a duty to provide for enjoyment of the 
parks ``in such manner and by such means as will leave them unimpaired 
for the enjoyment of future generations.'' If that left doubt of 
Congressional intent; the Redwoods Act Amendments of 1978 clarified 
that when use conflicts with preservation for future generations, 
preservation must prevail. Since 1916 nine Republican and seven 
Democratic administrations have followed these directions in reasonably 
consistent and evenhanded ways. Management Policies of the National 
Park Service, through which law is applied in detailed and specific 
ways to what actually happens in the parks, have been revised 
occasionally, although not frequently, the last two times in 1988 and 
2001.
    The draft of proposed Management Policies of the National Park 
Service that was released for comment on October 19, like its earlier 
version--Deputy Assistant Secretary Paul Hoffman's rewrite that became 
public information in August--is a drastic and dangerous departure from 
a longstanding national consensus. It is driven neither by law, by any 
conservation need, or by any failure of practical application. Little 
has changed since the present Policies became effective only four years 
ago.
    The Department of Interior has suggested that the present policies 
need improvement, but section 5.3.5.1 provides abundant evidence that 
improvement is not the goal of these proposed revisions. That section, 
dealing with access to and use of cultural resources, in both the 
present policies and the proposed revision, contains the statement: 
``These regulations are currently under review, and NPS policy is 
evolving in this area.'' If improvement of policy were really the goal, 
this nearly four-year-old statement surely would by now have been 
supplanted by some actual new policy.
    If improvement cannot be demonstrated as the goal, one must 
conclude that the motivation stems from the personal agendas of a few 
nearly anonymous appointees in the Department of Interior who know that 
they could not achieve the same goals by asking the Congress to change 
the laws.
    This is the first time since Assistant Director Tolson started 
writing administrative policies back in the 1940's that superintendents 
and their staffs have not been included in any proposed re-writes of 
such policy documents. Under the new process the vast majority of 
superintendents and staff members only input into the proposed 
revisions would be to comment, as members of the general public, after 
the policies have been developed.
    During this past summer, Deputy Assistant Secretary Paul Hoffman 
labored quietly to create a draft of Management Policy revisions, 
carefully limiting knowledge of his work to a small number of others 
and forbidding them to share it broadly.
    Since the need for a revised policy did not originate from NPS 
career employees, nor from the visiting public, a reasonable question 
emerges, as to its origin. When asked, the political employee, Mr. 
Hoffman declined to identify anyone who had urged the changes.
    After Hoffman's disastrous proposals were exposed in August, public 
reaction was so powerful that the Department of the Interior quickly 
disavowed them, calling the draft ``devil's advocacy,'' and ``intended 
to promote discussion.''
    Aside from noting that the national parks are more in need of the 
advocacy of an angel than of a devil, one can only wonder how much real 
discussion might be generated by a draft passed hand to hand among a 
gagged and silent few.
    In a chilling parallel action, new personnel policies, instituted 
by the NPS director, subject career employees to a ``litmus test'' of 
loyalty to this administration's political objectives, as a condition 
for promotion, further limiting candid input from knowledgeable 
professionals.
    One also might ask ``what is the rush?'' Why a 90 day process when 
in the past, such efforts could take years, and involve a wide range of 
NPS employees, in an open, participatory process. With rushing can come 
mistakes. In matters of such overriding importance, should not the 
guiding principle be ``first do no harm?''
    The next step of an appointee who had been embarrassed by exposure 
but who remained determined to have his way was entirely predictable, 
he would assemble a group of National Park Service professionals, 
dictate the goals of changes to be made, direct them to find language 
that the public would accept but that would still achieve the goals, 
and require them to come back and negotiate even the palliative 
language with him. That, Mr. Chairman, is what we are reviewing today. 
Although the October draft is being attributed to 100 National Park 
Service employees, it is in fact the Hoffman draft, forcibly and 
uncomfortably dressed in a rumpled and ill-fitting Ranger uniform.
    Although entire sections, such as the ones dealing with wilderness 
and grazing, still look much like the Hoffman draft, for the most part 
the October draft simply uses softer language to make the same changes.
    Examples follow:

          1. The Hoffman policies deleted from section 1.4.3 include 
        two critically important policy directives from congress that 
        are included in the existing 2001 policies:

    Present Park Service policies deleted by Hoffman: ``Congress, 
recognizing that the enjoyment by future generations of the national 
parks can be ensured only if the superb quality of park resources and 
values is left unimpaired, has provided that when there is a conflict 
between conserving resources and values and providing for enjoyment of 
them, conservation is to be predominant.''
    (This mandate)--``is independent of the separate prohibition on 
impairment, and so applies all the time, with respect to all park 
resources and values, even when there is no risk that any parks 
resources and values may be impaired.''
    From the 1916 Organic Act of Congress creating the National Park 
Service: ``The--National Park Service--shall promote and regulate the 
use--of national parks--as provided by law, by such means and measures 
as conform to the fundamental purpose to conserve the scenery and the 
natural and historic objects and the wildlife therein and to provide 
for the enjoyment for the same in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations.''
    A 1978 act of congress further emphasized preservation in the 
Redwoods Amendment ``Congress further reaffirms, declares and directs 
the promotion and regulation of various areas of the National Park 
System--shall be consistent with and founded in the purpose established 
by the first section of the Act of August 25, 1916, to the common 
benefit of all the people of the United States. The authorization of 
activities shall be construed and the protection, management, and 
administration of these area shall be conducted in light of the high 
public value and integrity of the National Park System and shall not be 
exercised in derogation of the values and purposes for which these 
various areas have been established, except as may have been or shall 
be directly and specifically provided by congress.''
    The effect of the Hoffman deletion of these two paragraphs deletes 
the clear mandate of congress in the management of national parks that 
the primary purpose of managing parks is preservation of the resources.

          2. A specific application of the Hoffman changes that weaken 
        the Park Service mandate to preserve resources includes this 
        change to planning for cultural resources.

    Present Park Service management policies direct park planners to 
``always seek to avoid harm to cultural resources.'' The Hoffman 
rewrite directs park planners to ``always seek to avoid `unacceptable' 
harm to cultural resources.''
    The effect of this Hoffman rewrite is to direct that there is 
acceptable harm to cultural resources, in direct conflict with current 
policies that direct planners to always seek to avoid harm.

          3. A Hoffman deletion allows visitor activities to degrade 
        the experience of other visitors to the park.

    Present Park Service management policy deleted by Hoffman: ``the 
Service will not allow visitors to conduct activities that unreasonably 
interfere with--the atmosphere of peace and tranquility, or the natural 
soundscape maintained in wilderness and natural, historic or 
commemorative locations within the park.''
    The effect of the Hoffman deletion allows uses by some visitors to 
unreasonably interfere with the experience of the park by other 
visitors.

          4. The Hoffman rewrite weakens the protection of natural 
        soundscapes in a park:

    Present Park Service management policy deleted by Hoffman: ``The 
National Park Service will preserve to the greatest extent possible, 
the natural soundscapes of parks.''
    The Hoffman rewrite adds: ``The National Park Service will restore 
degraded soundscapes wherever practicable and will protect natural 
soundscapes from degradation due to unacceptable noise.''
    The effect of the Hoffman deletion and change requires the park to 
determine what is unacceptable noise, and practicable restoration, 
rather than a simple directive to preserve the natural landscape.

          5. The Hoffman rewrite deleted a clear direction on use of 
        equipment, vehicles and transportation systems.

    Present Park Service policies deleted by the Hoffman rewrite: ``Use 
of motorized equipment: where such use is necessary and appropriate, 
the least impacting equipment, vehicles, and transportation systems 
should be used.''
    The effect of this Hoffman deletion removes the direction to use 
the least impacting equipment in a park including all vehicles and 
transportation systems.

          6. Strong words that require ``preservation'' of resources 
        have either been adjoined to or supplanted by weaker words like 
        ``conservation,'' or diluted by adding ``as appropriate.''
          7. Previously clear sentences have been replaced by vague 
        language that will be more subject to error or challenge in 
        court.
          8. Present Management Policies provide examples that help a 
        park manager identify ``traditionally associated peoples'' such 
        as tribal groups. The proposed draft replaces the examples with 
        fuzzy guidance that might place a gateway city's chamber of 
        commerce on an equal footing with native peoples who have 
        occupied a park's lands since time immemorial.
          9. New requirements to ``cooperate'' with outside groups, in 
        lieu of present requirement to ``collaborate,'' threaten a park 
        manager's ability to protect park resources on behalf of all 
        the people of the United States when a small number of park 
        neighbors have different ideas.

    In not one single instance does a proposed change increase the 
likelihood of park natural or cultural resources being preserved 
unimpaired, but they do significantly decrease THAT likelihood.
    Former Director Roger Kennedy has accurately identified the Hoffman 
strategy. The August draft threatened to take off a leg. The October 
draft says ``no, no, we will only take off a foot,'' and hopes we will 
be relieved and grateful at the somewhat diminished harm. It was the 
bitter duty of the career National Park Service employees to whom the 
Department of Interior is now attributing this draft to diminish the 
severity of the amputation. They did the best they could, but harm has 
only been diminished or masked, not eliminated. Fortunately, there are 
over 430 National Park Service retirees whose jobs are not at risk, and 
we can say what the career employees cannot--that there is NO need for 
any amputation at all, and any amputation is unacceptable.
    Mr. Chairman, the Coalition of National Park Service Retirees 
challenges the Department of the Interior to explain why this revision 
is needed. The public certainly did not ask for it--95percent of 
American park visitors rate their visits good to excellent. Perhaps the 
Department, instead of telling us that 100 National Park Service 
employees worked on the draft could tell us what percentage of National 
Park Service career professionals believes the October proposal is 
actually needed--specifically whether it is better or worse than the 
policies now in effect. We have been there and we know the answers--
they are not needed and they are not only worse than the present 
policies but if adopted they will place the heritage of all Americans 
in extreme jeopardy.
    Thank you for allowing this testimony, thank you for your continued 
vigilance on behalf of the national parks, and thank you for the 
actions you will take to assure that they can continue to be enjoyed by 
this and all future generations in unimpaired condition.
    I will be happy to answer any questions.

    Senator Thomas. All right, sir. Thank you very much. We 
appreciate all of your testimony.
    Now we will go to questions and responses. I hope we can, 
on both sides, cut through and get right to the issues so we 
can have fairly concise questions and fairly concise answers so 
we can come away from here with some ideas.
    Just again to sort of summarize, Director Martin, what 
would you say are the reasons for updating the policy?
    Mr. Martin. I think that the first thing I want to say is 
that the current policies that we are operating under are good. 
I think, though, that we felt that--and again, setting aside 
the draft that Paul Hoffman did--there were a number of things 
under the policies that perhaps from the perspective of 
Washington I think could have further clarity to the field, and 
that is how you describe impacts to a community, how you 
describe them to users, and how you encourage them to join you 
in preventing impacts.
    As an example--and Mr. Galvin mentioned it, but the 
existing policies, and the ones that were in prior to that I 
think were good, and they have all been committed to conserving 
resources. But in 2001, a cell tower did go in at Old Faithful, 
and that cell tower probably did not impair Yellowstone 
National Park, but we would have termed that an unacceptable 
impact in the current draft. And we had to go back in and take 
that tower down, lower it, and make it so it just did not 
impair the resources, but prevented unacceptable impacts. And 
that is just one example of how we can always strive for doing 
a better job, and I think that is what we are trying to do, and 
to communicate it to the field, to the people who have to 
implement those policies not just for here in Washington.
    Senator Thomas. Thank you.
    Just very briefly, would you agree that this is the Hoffman 
proposal in a different uniform?
    Mr. Martin. No. And I also must say that I think debate is 
good. There were a number of superintendents that helped with 
this. And it is now out for very, very, very extensive review. 
But I do not believe that that is the case, and I think that we 
are striving to do a good job in these circumstances as we look 
into the 21st century.
    Senator Thomas. Thank you.
    Mr. Galvin, you indicated that when there is a different 
position, it is very clear how it ought to be taken. Of course, 
as you know, there are different views and you have to balance. 
Do you not have to have some balance between conflicts, in this 
case between preservation and use? Are there not decisions that 
have to be balanced?
    Mr. Galvin. Yes. I have no problem with the concept of 
balance. My testimony says it really is not a fundamental 
purpose of national parks, which is where it is placed in the 
current draft of the policies. We have got something around 
here that goes back to 1918. My statement I believe is 
historically accurate. That word ``balance'' never appears when 
you are talking about the fundamental purpose. Certainly you 
have to balance use and impacts as a manager of a park. There 
is no question about that.
    But the historical interpretation of the Organic Act is 
not, as my good friend, colleague, and former boss, Bill Horn, 
outlines it today. He quotes Robin Wenks in his prepared 
statement. Robin Wenks researched the history of that act more 
than anybody I know, and his conclusion was that the 
conservation purpose was predominant, and this draft eliminates 
that statement.
    Senator Thomas. Thank you.
    Mr. Horn, you questioned the need for any sort of a change. 
Was there a need for a change when you were involved, and if 
so, why did you do it?
    Mr. Horn. Well, I think the perceived need in the mid-
1980's was that our review of the policies that had been put 
together in the 1970's did not faithfully and accurately 
reflect the direction provided by Congress in the 1916 Organic 
Act and that the policies could do a better job. I would submit 
that my review of the 2001 policies is that they are deficient 
and they do not track the 1916 Organic Act as faithfully as 
they ought to.
    I can give you one other example, just sitting here, 
talking about how you manage a variety of uses and how do you 
deal with the questions of impairment and uses and resource 
conservation. Section 8.2 of the 2001 policies says that when 
you have got some problems dealing with uses, basically the 
first step is you temporarily or permanently close the area. 
The second step is you prohibit the particular use, and the 
third step is you otherwise place limitations on the use to 
ensure that impairment does not occur.
    It strikes me that that is totally backward, because 
visitor use and enjoyment is an inextricable part of the basic 
statutory mandate, that the proper order would be step one, you 
establish limitations on use to ensure that impairment does not 
occur, and if sound management cannot eliminate the impairment, 
then you go to closure, then you go to prohibition. That is the 
exact order that is now reflected in the rewrite. It is dead 
opposite in 2001, and I just do not see that as being fully 
consistent with Congress' nearly century-old admonition.
    Senator Thomas. Thank you very much, sir.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Martin, I have three questions concerning the recent 
revision to the hiring process for GS-13 grades and above, 
including park superintendents and deputy superintendents. The 
October 11 memo from the Director establishes a process that is 
deeply disturbing to me as a senior member of the Subcommittee 
on Oversight of Government Management, as well as the Federal 
Workforce and the District of Columbia, which has jurisdiction 
over Government employees' issues.
    My first question is whether other bureaus in the 
Department of the Interior have similar policies reaching into 
the career managerial levels of the Civil Service to determine 
their adherence to the President's management agenda, such as 
the Fish and Wildlife Service, the Bureau of Reclamation. And 
also, what about other Federal agencies?
    Mr. Martin. I can speak only to our bureau just because 
that is what I am familiar with. They have not let me dig into 
Fish and Wildlife Service and some of the other bureaus, so I 
am not familiar with those, but I am sure we could provide that 
information.
    I think the Director's interests were--and we as career 
people spend a lot of time and have throughout my career in 
working with the administration, to implement things, again, 
like the President's management agenda, which is for better 
business practices, which is a big factor in what we do now. I 
would say that it is consistent with policies that have been in 
place in one way, shape, or form for a long time. I talked to 
George Hartzog on that a week or so ago, and he said he used to 
approve everybody to the GS-9 level in Washington.
    I have a memo here from Don Berry saying GS-15's, career 
people, should be cleared with him. I think you can find that 
that has been an interest because these positions are so 
important.
    I will tell you I think it was not Fran's intention to do 
anything but be aware of what is going on within the work 
force, to make sure managers were aware of her goals, of our 
goals, and of the President's goals. We have heard about a 
litmus test, and that is absolutely not true. The Regional 
Directors propose and make the selections, but it is totally 
appropriate for the Director to know who those folks are.
    When I was hired in 1994 to be a GS-14 superintendent at 
Denali, I had to wait a couple of months while my name was 
circulated in Washington to make sure that I was okay. I guess 
I am one of those that somehow got through, so they do not 
catch everything. But I do not see that as different than the 
current policies in place.
    Senator Akaka. But, Mr. Martin, I am troubled by what could 
be seen as a move to politicize Civil Service promotions. Would 
you please explain how promotion reviews for about 1,000 
positions, which are to be reviewed solely by the Director, 
will be carried out in a manner consistent with the 
Government's merit principles and free from political 
interference?
    Mr. Martin. We adhere to those. Regional Directors make the 
selections and then they let the Director know what is going 
on. If we have broader issues--and I think this was the case 
under Bob Stanton as well in trying to diversify the work 
force--we move people from position to position as they have 
personal needs or the agency has needs. But it is not about, I 
think, any unreasonable political involvement. But again, GS-
15's, which are the subject of the current policy that Fran 
just sent out, have gone down to the Assistant Secretary's 
office for review for as long as I can recall. So that is not 
something that has changed.
    Senator Akaka. I have been very concerned, as I continue to 
mention, about what is happening on these levels. What evidence 
would you require to assess how an individual is able to lead 
employees in achieving the Secretary's four C's and the 
President's management agenda?
    Mr. Martin. Having been a superintendent for a long time--I 
have just recently stepped into the central office--I would say 
that more now than ever before it is important that we learn 
how to engage others in conservation. I think if we are going 
to be successful for the long term, it is going to be not by 
giving anything away, not by impairing resources, but by 
working with others to better communicate; to strengthen how, 
for the long haul, we make these parks sustainable and we 
continue to protect them in an ever-growing complexity of 
times. And I think that that is the commitment that we have in 
our hiring; we are looking for managers who can do it all.
    Business practices is an example. There were times when the 
Park Service virtually ignored those. When I went to Tetons as 
superintendent, there was no one responsible for management of 
the business that had been trained in that particular field. 
Look at the Denver service center. We just did not think about 
business in the same way that we must now, you know, building 
outhouses that were extremely expensive. They were really nice, 
though.
    But now we have to own up to the citizenry and say how we 
are spending their money, and I think that it is important that 
we realize how those changes are taking place, that we step up. 
That is what we are looking for managers to do, the whole 
package, and it is a huge job we ask of them. And that is all 
that we are about.
    Senator Thomas. Thank you very much.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing. I think it is very important and 
I appreciate the chance to ask the questions. I think the 
testimony has been terrific.
    Mr. Horn, I think you were very straightforward because I 
think basically what I heard you say was that there was an 
election after 2000 and the 2001 documents were a holdover from 
the last administration and needed to be changed and these are 
some changes that are better.
    There has been some talk of politics, and I want to spend 
just 60 seconds on that. I come from one of the most Republican 
areas in the country. We have never elected a Democrat to 
Congress since Lincoln was President, and our primary interest 
in the area, as conservative Republicans, is the Great Smoky 
Mountains. And we do not want more big towers with red flashing 
lights in them. We do not want more low-flying airplanes, and 
we want cleaner air.
    That is why I was deeply concerned by this first draft that 
came out. It may be that this redraft that is coming in 
corrects all that. But it is a big burden to carry now. It 
would be like sending out a warm-up singer to the Grand Ole 
Opry that was so off key that it ruined the rest of the night. 
So I am very skeptical even about this redraft.
    I see, for example, in the documents that I am going 
through, stricken out words that say that where there is a 
conflict between conserving resources and values and providing 
for enjoyment, conservation is to be predominant. Those who 
have read it say that it demotes clear skies to an associated 
characteristic, deletes scenic views as a highly valued natural 
resource, removes the overarching guiding principle that has to 
do with sound. I think noise pollution and visual pollution and 
clean air over next 25 years is going to be massively important 
in our parks, as they become more sanctuaries in an age which 
is more and more technological.
    Mr. Martin, let me ask you. Let us just take one park. I 
know there are 288. They are all different. They should be 
managed differently. Let us take the one I know the most about. 
We have 10 million people who come to the Great Smoky Mountains 
every year. A lot of them are from east Tennessee and North 
Carolina. How will this redraft make the air cleaner? How will 
it make it less likely we will have noise? How will it make it 
less likely that we will have big, tall towers with red 
flashing lights called cell towers that we can see?
    Mr. Martin. Well, we certainly share all of those concerns 
with you. I would like to go back to the first statement that 
had been taken out of section 1.4.3. There is a lot added back 
in, several key sentences, that talk about the very things that 
you have concerns about. Again, it is a draft, and if somehow 
that remains unclear, as we move through the public process, we 
will certainly correct that concern.
    Two, in the air quality section--we actually put in, before 
chapter 1, some key definitions that are absolutely important. 
One is to understand what an unacceptable impact is and what 
appropriate use means. And if you use that test of unacceptable 
impact, we would not allow any increasing impacts. And I think 
we share a concern in this document about increasing impacts--
and we share the concerns that you just mentioned, and that is 
why this document talks about passing parks on better to future 
generations in a better condition. That is our goal.
    In the specific air quality section--I have seen some of 
the information that has been circulated, but what this draft 
says--and again, I recognize and I accept the scrutiny and 
skepticism based on some of the concerns about a draft that was 
never meant to have public review that got out. It did.
    Senator Alexander. In a way that almost makes it worse.
    Mr. Martin. It makes our job certainly difficult.
    But the National Park Service has the responsibility to 
protect air quality under both the 1916 Act and the Clean Air 
Act, and the Service will assume an aggressive role in 
promoting and pursuing measures to protect park resources from 
the adverse impacts of air pollution. In the case of doubt as 
to the impacts of existing or potential air pollution on park 
resources, the Service will err on the side of protecting air 
quality and related values, which are those values of clear 
skies. They are the values of the experience the visitor gets, 
and they are the values in this document of the viewshed that 
you see when you stand in those mountains and look out. And we 
encourage people to work cooperatively with others on it.
    So we share your concerns and understand your skepticism.
    Senator Alexander. Mr. Chairman, I would like to ask to 
include in the record a letter from six Republican Senators to 
the Secretary of the Interior, October 27, expressing our 
appreciation for the redraft and our concern about some aspects 
of it.
    Senator Thomas. It will be included.
    [The letter follows:]

                                               U.S. Senate,
                                  Washington, DC, October 27, 2005.
Hon. Gale Norton,
Secretary of the Interior, 1849 C Street, N.W., Washington, DC.
    Dear Madam Secretary: We are writing to express our concerns about 
ongoing efforts in the Department of the Interior to modify the 
management policies of the National Park Service.
    We had deep reservations with the preliminary draft that initiated 
this process, particularly suggestions to de-emphasize the Park 
Service's preeminent park protection role and weaken the Park Service's 
role in protecting against reductions in air quality. We were also 
extremely concerned about changes to the definition of ``impairment.''
    We are encouraged that the new draft, which was published for 
public comment on October 19th, includes many improvements from the 
prior draft. Our preliminary review, however, has turned up some 
substantive changes of concern and we urge you to give these special 
attention.
    First, we are concerned that despite improvements, the primary 
mandate of the National Park Service to err on the side of preservation 
appears to be deemphasized in the draft. At best, this change appears 
to blur, not clarify, the Park Service's primary responsibility to keep 
the parks protected for the future. We also are concerned that some 
changes with the potential for weakening the Park Service's role in 
protecting park air quality and increasing the potential for 
inappropriate motorized use in the national parks appear to be 
retained. We look forward to discussing our concerns with you during 
the comment period and are pleased that Chairman Thomas will be holding 
a hearing on this matter in the National Parks Subcommittee.
    The national parks are cherished by the American people and revered 
around the world. They are America's cathedrals--living repositories of 
our history and culture, and places for personal and spiritual 
reflection. Current management policies, which were last modified only 
four years ago, provide enormously important guidance to national park 
managers. Throughout their visits and comments, the American people 
have let it be known, year after year and by overwhelming margins, that 
vigorous protection of park resources has enhanced, not encumbered, 
their enjoyment.
    We acknowledge and thank you for the positive changes made in 
relation to the preliminary draft. We still question, however, the need 
for requiring the Park Service to change its policies so quickly after 
publication of the last revision in 2001. The Department's first 
principle in rewriting Park Service policies should be to do no harm. 
The test should not be whether these changes improve on the preliminary 
draft, but whether they protect our national legacy better than the 
2001 edition.
    The quick process that is unfolding at this time appears 
inconsistent with that principle and with the need for careful 
deliberation about possible policy changes. A matter of this importance 
deserves substantial public dialogue, not merely a brief opportunity 
for written comments. Over the past 25 years, the Park Service 
Management Policies have been revised twice--in 1988 during the Reagan 
Administration, and in 2001 during the Clinton Administration. Both 
versions underwent much more extensive professional review than the 
current draft, both were made available to the public for comment for 
long periods of time, and both were virtually identical in their 
interpretation of the meaning of the key language of the National Park 
Service Organic Act.
    We request that you move forward with this review in the most open, 
careful, and deliberate process possible, and allow for broad public 
input and vetting of these and any other changes. We believe the 
policies should be crystal clear that the national parks are to be 
enjoyed only ``in such manner and by such means as will leave them 
unimpaired for the enjoyment of future generations.''
            Sincerely,

                    Lamar Alexander, Mel Martinez, Susan M. Collins, 
                            John Warner, Olympia Snowe, Lincoln Chafee, 
                            U.S. Senators.

    Senator Thomas. Thank you, Senator.
    Senator Bingaman.
    Senator Bingaman. Thank you, Mr. Chairman.
    Mr. Martin, in your testimony, you make it very clear 
that--you say--and I think this is an exact quote from your 
testimony--``when there is a conflict between use and 
conservation, the protection of the resource will be 
predominant.'' Now, that language is also in the current 
manual, as I understand it. Why do we not just leave it there?
    Mr. Martin. I think that maybe we should have done that 
from the amount of interest that single sentence has had. But 
we clarified it in several different ways. Again, this is 
looking at a field manager who is on the front line. What does 
that statement really mean? I think what we tried to do is 
clarify for them that it is not just about reconciling that 
particular instance, but it is about understanding those 
impacts. It is about preventing impairment. So we have that 
language, and it is spread in 9 or 10 or 11 times throughout.
    Again, recognizing now--and that is why we are having this 
public comment period--that that statement is important. That 
is why it is in my testimony, and I feel like that is something 
that we need to evaluate as we go through public comment.
    Senator Bingaman. Well, I would hope you would. It strikes 
me that deleting that language is an odd way to clarify it. I 
would think the more obvious way to clarify it would be to 
state it again and underscore it or elaborate on it, if you 
thought that was necessary.
    Let me also ask about another issue that you really did not 
address and none of the other witnesses did, but it concerns me 
particularly about this draft proposal that we have got or 
draft provision on fund raising and donations, Director's Order 
number 21 on donations and fund raising. This seems to me to go 
substantially further than the Park Service ever has in setting 
out and contemplating essentially corporate or other 
sponsorships of different features in the national parks, which 
concerns me. I have always thought of the national parks as 
sort of a commercial-free zone where I did not have people 
selling me Pepsis and things when I went in there. I mean, I 
have got nothing against Pepsi, or anything. I did not have 
people flacking some particular consumer product.
    But this talks about donor recognition through benches, 
bricks, or paving materials, plaques, or other features may be 
allowed as part of a donor recognition program. The naming of 
rooms in a park facility is allowed as part of an approved 
donor recognition program. Corporate logos and name scripts on 
event facilities and signs and literature at all such special 
events, provided that the size and scale and scope and location 
of the corporate logos and name script does not dominate the 
event. And distribution of free products if they are related to 
the event. For example, you could have an Anheuser-Busch 
plastic bag if it related to a cleanup day, presumably, or some 
corporation, or anything that is consumable is okay, I mean, 
even if it is promoting a corporation.
    It strikes me this is a slippery slope and a very major 
change, particularly since, as I understand this order, it 
contemplates for the first time permanent designation of some 
of these aspects. That has never been done before. There has 
always been some possibility of having an event at a national 
park but never sort of permanently designating. I do not know 
how far you could go with this, but the language seems to me to 
contemplate a lot of things that would be of concern to me.
    Do you have a point of view on this? Are you prepared to 
testify on it today?
    Mr. Martin. Sure. I can speak to it and we can certainly 
provide you any additional information as well.
    It is something that is of great importance and great 
concern and where we definitely need significant clarification. 
In the 1990's, we began to get more and more into partnerships, 
and in fact, something that was done in the 1990's is a donor 
recognition, as you walk up to Old Faithful, that talks about 
donation of those boardwalks.
    So I think that there was a need for clarity to the field 
and in the parks as we work with businesses. I will tell you, 
those of us like myself who were rangers and resource managers 
and suddenly are thrown into superintendency ranks and have to 
deal with partners, we needed that kind of clarification. We 
were all over the board on what we were allowing.
    I think what this document does--and, again, it is out for 
public review, and if there is a lack of clarity, we have got 
to fix it. But it recognizes that this is going on. It went on 
at Mount Rushmore, Ellis Island, Yellowstone Park, all of those 
places. The Ranger Museum at Yellowstone, I think, had 
recognition of Conoco who helped donate to make that possible. 
And so it is to clarify that, and what this stresses is the 
importance of every single one of these having a plan in place 
before you go about it and do it.
    Also, we have tried to professionalize our business ranks, 
and this is something that we have worked with Senator Thomas 
and others on through concessions and are now having spill-over 
into this to where we have more professional business staff 
that are working with these businesses. I think we are 
searching because we need those partnerships. I think we have 
right now 150 friends groups serving 160 parks that donate $17 
million annually, and we need guidance for that.
    So we certainly need the criticism. We will review it. If 
we have gone too far, we will change it, but it is the goal to 
provide that balance out there.
    Senator Thomas. Thank you.
    Senator Salazar.
    Senator Salazar. Thank you very much, Mr. Chairman.
    First, let me say, Mr. Martin, I respect you and I respect 
the Parks Director, Fran Mainella, and so I hope you do not 
take my comments as disrespectful to the jobs that the two of 
you have to carry out.
    Second of all, my questions have to do with the 
appreciation I think that a Republican President, President 
Roosevelt, put out for his wish and his dream for a national 
park system. Obviously, we have lots of quotes from him. I am 
just going to use one and that is where he said in 1916--I 
quote--``Our duty to the whole, including the unborn 
generation, bids us to restrain an unprincipled present-day 
minority from wasting the heritage of these unborn 
generations.'' And he continues on. But I think at the end of 
the day, what he was really talking about there was the concept 
of impairment of these national crown jewels that we have.
    I have a couple of questions for you with that preface. 
First, when the early rules were released, there were a number 
of employees who came out and were critical of the early draft 
that had been released, I think by Mr. Hoffman. Are the 
employees who have been critical of the drafts that have been 
released, including perhaps this current draft, in jeopardy at 
all in terms of their employment for having been critical of 
the articulated proposed policies and rules of the Park 
Service?
    Mr. Martin. The answer is no, and if they were, I guess my 
job might be in jeopardy too because I think I too was critical 
of that first draft, and yet I am allowed to be here today. I 
think that draft was never intended to represent the view of 
the Secretary or the director or myself. It was really put 
forward as something to spark some debate, and it certainly did 
that. But when we started our revision, we started with how we 
make 2001 better, and we had that other draft set aside over 
here.
    Senator Salazar. Let me just say, Mr. Martin, I think as 
this process goes forward, that the opportunity for the 
National Park Service's employees and their superintendents to 
be able to comment on this draft is something that I will do 
everything as one Senator to try to make sure that they have 
whatever protection is needed. I think the protection is 
already provided under the law.
    Let me ask you the second question that I have with respect 
to this process, and that is that I think that part of the 
reason we are having this committee hearing today is, frankly, 
we do not understand what it was that was the true motivation 
of what you were trying to accomplish. I think all of us here 
can recognize that from time to time it is important to revise 
rules and to make them better. It is part of the life of an 
organism.
    But it seems that there was something hidden, something 
done in the dark of night, something done in the back door 
closets to try to come up with a new set of rules to accomplish 
some purpose that we are trying to define here. For that very 
bad set of proposed rules to come out in August, for people in 
the Park Service to come out and say it is totally turning the 
direction the parks have taken for the last nearly 100 years in 
the wrong direction, and then for all of us that were here 
already in November, just a few months later, looking at a 
whole new set of revised policies, I guess my question to you 
is if you could sum it up in a sentence or two what is it that 
is the purpose behind the revisions of these rules?
    Mr. Martin. I think it is to continue to improve how we 
manage the Service for the 21st century. Again, I would also 
add, in one more sentence, I think it is very complex and there 
are lots of different reasons. I would love to sit down with 
you and talk more about it because there are many different 
forces at play, and it is our job as the career civil servants 
to buffer those forces and to listen if there is legitimate 
criticism----
    Senator Salazar. What were some of those forces that were 
most at play that led to the impetus, if you will, of the 
National Park Service to rewrite the rules? Give me the top two 
forces.
    Senator Martin. Yes. There were interests by the members in 
the House committee that led the Director a couple of years ago 
to say that she would take a look at revising the policies. So 
that is certainly one.
    I think that there was some lack of clarity in the field, 
and some of us felt that it is always good to take a look at 
how we do business and especially the business aspects of that. 
This 2001 draft really does not talk about how we do the 
business of stewardship, how we support our employees, how we 
train them, and so I think those were a couple of the key 
reasons. But I think that there are many, many others.
    Senator Salazar. I see my time has run out. Mr. Chairman, 
will we have an opportunity to go through another round of 
questions?
    Senator Thomas. We will have another round, yes, sir.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
your calling this hearing.
    Alaska is the beneficiary, if you will, of, I guess it is, 
in excess of two-thirds of the national parks that are in this 
country. So, of course, we take a very keen interest in what is 
going on with its policies and its management.
    Mr. Martin, the Alaska National Interest Lands Conservation 
Act, ANILCA, does require that the National Park Service manage 
its lands in Alaska differently than it does in other places. 
Just a very brief summary from you, if you will, as to what 
those differences are and explain how the management policies 
will take account of these differences.
    Mr. Martin. Well, we addressed that, and in fact, Marsha 
Blaszak, who is here with us, helped us on this revision that 
is on the table now. She pointed that out to us a lot, that 
Alaska was different, and having worked there, I understand 
some of that myself.
    There are areas in Alaska that have been around since 1917, 
1918, and some of those are managed very closely to the way 
parks in the lower 48 are managed. But then, as you know, we 
have the 1980 Lands Act that gave us many areas. How wilderness 
is managed up there is different, and access to inholdings, and 
subsistence. So there are many, many areas where there are 
these differences, some of them very pronounced and others I 
think are very subtle. I think we have worked very hard in 
Alaska and very hard on the national level to make sure that 
that understanding by our managers is key, and I think that we 
have been pretty successful in that over the last few years. 
And certainly that has evolved as well.
    Senator Murkowski. Let me ask you about the inholder 
situation. As you know, these are one of the stakeholder groups 
in Alaska that, wrong or right, for better or worse, create 
some controversy within the National Park Service. We hear from 
them on a regular basis. And there are many of my constituents 
who believe that it is the policy of the National Park Service 
to manage that relationship with pretty much a heavy hand. And 
there are some that believe that it is the policy of the 
National Park Service to essentially coerce these inholders 
into moving out, selling out to the National Park Service at a 
favorable price. And I guess I would ask you what the policy is 
as it relates to the inholders. Is this accurate?
    Mr. Martin. We respect existing rights and it is our goal 
to treat people professionally. And there are cases where we do 
have interest in private lands, but there certainly should be 
no coercion or anything less. We respect that while they have 
it and we work----
    Senator Murkowski. Do you have any specific policies or 
anything written that indicates that respect of those 
individual rights?
    Mr. Martin. We actually tried to write some of that into 
this document to talk about that, and it is not just inholder 
rights, but we have other things that have been, by 
legislation, by Congress, given to us where we have grazing in 
some parks or mining in some parks or those things that are all 
provided for by legislation. We talk about how we need to work 
with those folks so that they understand the importance of the 
parks. But we have to give full respect to the rights that they 
have under the law, and I believe we are doing that. And I 
think we tried to clarify some of that in this document.
    Senator Murkowski. Let me ask you, Mr. Horn. You have been 
a long-term observer of the National Park Service and the role 
in Alaska. Do you think that the National Park Service is 
living up to the requirements of ANILCA in the management of 
the Alaska units?
    Mr. Horn. I think in general the answer is yes. I think we 
disagree periodically on points here and there but I think the 
relationship with the agency and many of the traditional user 
groups has improved dramatically over the last couple years.
    I would say in the context of this immediate management 
policy, another one of the deficiencies in the 2001 document 
was--I thought it was inadequate in its cross references to the 
variety of very, very important ANILCA-driven exceptions. From 
my review of the 2005 draft that is now out, the current 
document does a much better job of addressing the ANILCA-
related issues Mr. Martin just referred to, compared to the 
2001 document.
    Senator Murkowski. You say it is better.
    Mr. Horn. Yes.
    Senator Murkowski. Is it good?
    Mr. Horn. We will be working on some comments for some 
folks. I believe that they could do a better job in tightening 
up some of those cross references in a variety of areas. It is 
not optimal, but it is certainly superior to the 2001 document.
    Senator Murkowski. We will look forward to those coming.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    We will have a second round. I am just going to ask you 
some short questions and hope you can give us a short answer to 
them.
    Mr. Martin. I will try my best.
    Senator Thomas. Mr. Castleberry, you were concerned about 
the management direction given by the administration. Do you 
believe the administration from the highest levels should have 
an opportunity to set its direction, not talking about 
politics. I am talking about direction. Do you not think that 
is appropriate?
    Mr. Castleberry. Indeed, I do. In fact, throughout the last 
half of my 32 years, I spent either working here in Washington 
or in senior regional position in which I interacted with 
Members of Congress and the administration in office, both 
parties, all the time. There was never any question about those 
roles. It does disturb us at times when there appears to be, as 
I believe Mr. Akaka mentioned, a sort of driving of the 
partisan politics deeply down into the----
    Senator Thomas. Well, most everybody agrees with that, and 
that is not really what is being done here. But there ought to 
be a policy, and frankly, I am disturbed sometimes that the 
higher level management in the park does not take more interest 
in the policy. Now, the details need to be left on the ground, 
but there are policies to the region and so on that need to be 
implemented, it seems to me.
    Mr. Martin, what do you think is the most significant 
change that has taken place between the 2001 and what is being 
proposed?
    Mr. Martin. I think it is hard to boil it down into a 
single thing, but in the shortness, I think it is clarity to 
the field professional, and I think it is beginning to talk 
about the concept of passing on parks improved to future 
generations because we have that task at hand as well.
    Senator Thomas. Thank you.
    Mr. Galvin, you have talked, of course, about not needing 
this change. Would you have made any change? What would be the 
single most important change you might have made in the 2001 
policy?
    Mr. Galvin. You mean if I were updating the 2001 policies?
    Senator Thomas. Would you have updated it or would you have 
just left it as it was?
    Mr. Galvin. Well, I would not feel an urgent need to update 
them, but there would be a couple of areas I would look at if I 
were given the task of updating them.
    One is particularly the resource management sections. As 
scientific research comes in, we learn more about, for 
instance, the impact of unnatural noise, sounds in parks. We 
learn more about the impact of natural light on things like the 
Ridley turtles on the barrier islands.
    I think I would look at how strong the cultural resource 
management sections are in promoting parks for educational 
purposes.
    Those would be the areas I would look at I think.
    Senator Thomas. Thank you.
    Mr. Horn, what would be your top recommendation to the Park 
Service to improve the current proposal?
    Mr. Horn. As I indicated to Senator Murkowski, I think the 
cross references to ANILCA probably needs to be made a little 
bit more dramatic and with some greater detail. But I think 
overall maybe some additional clarity in terms of the whole 
exercise of how do you deal with uses and how do you manage 
them. I do commend the agency because I think that the 
hierarchy that they have built into the present document in 
terms of when you are dealing with uses, you try to manage them 
first. If you cannot manage them and you cannot deal with 
impacts, then you go to closures. I just think that that one 
fundamental change in the present proposal is sort of worth its 
weight in gold, and I commend them for it.
    Senator Thomas. Thank you.
    Mr. Castleberry, times change. There are now more parks. 
There is more pressure to do other things, whether it be 
historic sites or whatever, to extend the responsibility of the 
park. More people are visiting. What would you think would be a 
change that might be necessary? What would be your high 
priority if you were asked to make any policy change?
    Mr. Castleberry. Well, first let me say that I sympathize 
with any of you who tried to read all of these and understand 
them, as complicated as it was. I am familiar with all these 
and I still could not make sense out of a lot of the changes.
    We, our coalition and myself speaking for myself, cannot 
see why we would have done anything different.
    Senator Thomas. You would have made no changes at all. 
Okay, thank you.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Martin, talking about cultural resources, throughout 
the cultural resources section, the word ``conserving'' has 
been continuously inserted, along with ``preserving'' cultural 
resources. With respect to cultural resources, can you please 
explain the differences between the terms?
    My concern stems from the fact that conservation with 
respect to harvestable resources means sustainable use, but you 
cannot do that with cultural resources. If we lower the 
standard and expectations for cultural resources, they will be 
lost forever. So my question is, with respect to cultural 
resources, can you explain the differences between the terms 
``conserving'' and ``preserving''?
    Mr. Martin. Yes, and if I can--again, this is before the 
first chapter. So I guess we need to clarify this because even 
as we start to use this document, there is a section on the 
terms, ``conserve,'' ``preserve,'' and ``protect.'' This is on 
page 4 of this draft, right up front before the foundation 
document. Basically what it says is that it is clear from 
legislative history of these statutes, from case law, and 
direction from Congress that the choice of these phrases is 
interchangeable. And we make it clear that the choice of any 
one of these words within these policies is not intended to, 
should not be construed to imply a greater or lesser 
restriction on opportunities for visitors or the level of care 
of park resources and values.
    And so because we have laws that say ``conserve,'' and we 
have laws that say ``protect,'' basically what we said is there 
is a lot of debate about this, so let us just say that 
Congress, the public, all of us expect us to take care of these 
resources with the highest value. Let us not get caught up in a 
single-word argument. Again, they are up front in this document 
that that high level of care, whether we say ``conserve,'' 
``preserve,'' or ``protect,'' is the same, except in the 
document where the law says ``protect.'' We try to balance that 
as much as possible. But we meant one definition and we have 
that in here.
    Senator Akaka. There seems to be, Mr. Martin, a weakening 
of the commitment to avoid harm to cultural resources. As 
proposed, the Park Service will only seek to avoid unacceptable 
harm rather than all harm to natural resources. If this 
interpretation is correct, could damage, deterioration, or 
misinterpretation of cultural resources occur under the 
proposed guidelines?
    Mr. Martin. I would say no. And I believe we are 
strengthening our commitment to that. It is something that I 
have a personal interest in. I have worked in parks that have 
had very significant natural and cultural resources. And I 
really feel the document does everything it possibly can to 
strengthen that language. Again, if inadvertently, in some of 
the things we have tried to do, that is the case, we will 
certainly take a look at it, but that was in no way, shape, or 
form the intent. So we will work with you and would be glad to 
sit down and discuss any concerns that you have in that regard 
because that is a very, very, very important part of what we 
do.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, Senator.
    Senator Alexander.
    Senator Alexander. Thank you.
    Following up the chairman's suggestion of short questions, 
I have got two short ones.
    Mr. Martin, do you think, given the amount of interest in 
this, it might be wise to extend the comment period from 90 to 
120 days?
    Mr. Martin. Again, I cannot make that commitment, but I 
certainly think that is something that we need to address. I 
believe that we do not want to----
    Senator Alexander. Well, let me just ask you. Short answers 
too, please.
    Mr. Martin. Yes, I am sorry. I care a lot----
    Senator Alexander. So would you consider that with the 
Secretary?
    Mr. Martin. Yes, absolutely.
    Senator Alexander. Thank you.
    Second, I will ask one question for each of the four of 
you. Do you believe that this latest draft of the park 
management policies would make it easier or harder to introduce 
into the national parks uses that would add noise, add visual 
impacts or clean the air? Will it make it easier or harder to 
add noise, visual impacts, or to clean the air?
    Mr. Martin. They are three very different things, but I 
would say that this will protect all of those, and I think it 
will make it easier for managers to make sure that we start to 
pass on parks in a better condition to future generations. So I 
guess I would say that it will provide the guidance when it is 
done. It is only a draft. It would actually make it better for 
that and also better for users.
    Senator Alexander. Well, that is not a good answer because 
if I am a park manager, am I more likely to put up a big cell 
tower, more likely to allow an overflight, and more likely to 
have cleaner air or less likely? Which are stricter?
    Mr. Martin. I would say that this document would make it 
more likely that you would not put up that cell tower as was 
done at Old Faithful. I think it would make it more likely that 
you would have cleaner air because you would work cooperatively 
with people outside the park boundaries, and I would say that 
this strengthens our ability to work with the air tours and 
others to make sure that we diminish those effects on park 
resources.
    Senator Alexander. Mr. Galvin?
    Mr. Galvin. I sort of have different answers for different 
categories. I think, generally, this is a lowering of the 
standards.
    I would like to talk about cell towers a little bit because 
it is very interesting to me. Not a word in this document on 
cell towers has been changed. The 2005 draft is exactly the 
same as the 2001 draft. Not a word of it has been changed. I 
was personally involved with the House in trying to get the 
1996 Telecommunications Act changed to acknowledge wilderness 
areas, parks, et cetera. We were unsuccessful in getting that 
changed, so the Telecommunications Act simply says cell towers 
are okay on public lands, all public lands. And the policies 
reflect that direction of Congress. They say park 
superintendents will accept applications from FCC licensees for 
cell towers. It then says you have got to do NEPA, you have got 
to stick with the National Historic Preservation Act, you have 
got to protect park values.
    But not one line of that policy has been changed here. So I 
cannot see how you are more protected from cell towers than you 
were in 2001. I think the act should have been changed, but we 
were unsuccessful in getting that changed.
    Senator Alexander. Is there time for Mr. Horn to answer?
    Senator Thomas. Yes, sir.
    Mr. Horn. Mr. Chairman, I do not think it fundamentally 
changes or makes it easier for cell phone towers, noise, et 
cetera. I think the fundamental change is it provides for more 
rational management of visitor use. I think that is the better 
change in the change in the document.
    Mr. Castleberry. It fuzzes up the picture and makes it more 
difficult to be sure when you are facing an individual question 
at the park level. The change does. It makes it easier for the 
undesirable things to happen.
    Senator Alexander. Thank you.
    Senator Thomas. You have got 45 seconds left.
    Senator Alexander. I will give them back.
    Senator Thomas. Senator Salazar.
    Senator Salazar. Thank you very much.
    Let me go back to this question of impairment of our 
national parks. Mr. Martin and Mr. Galvin, the question is to 
both of you. I have heard Mr. Martin testify that these 
proposed rules would help with excellence in the field in the 
management of our parks, that they were prompted, in part, 
because of a congressional interest in the House of 
Representatives. But at the end of the day, I think why there 
is so much concern about this issue here before all of us is 
whether or not this is really lessening the standards that we 
have had historically for national parks.
    I go back to the existing policy that we have, subsection 
1.4.3 of the management policy, which says that ``Congress, 
recognizing that enjoyment by future generations of the 
national parks can be ensured only if the superb quality of 
park resources is left unimpaired, has provided that when there 
is a conflict between conserving resources and values and 
providing for the enjoyment of them, conservation is 
predominant.'' Fran Mainella in testimony in front of this 
committee several years ago reaffirmed that same principle, and 
yet that language was deleted from this policy.
    So I ask both of you to respond to me, in terms of what the 
impact will be from the deletion of this language on the 
nonimpairment provision that was previously in the policies. 
Mr. Galvin.
    Mr. Galvin. Well, they substitute the concept of balancing 
between resource protection and use, and I think that is a 
flawed concept. I do not think it has been in policy ever.
    And I might say I am perfectly happy with the 1988 chapter 
on this. I think the 2005 chapter is a diminishment from that. 
The difference between the 2001 version and the 1988 version 
came about because there were two court cases in which judges 
told the Park Service even you cannot impair park values, one 
at Canyon Lands and one at Glacier.
    Senator Salazar. So, Mr. Galvin, what you would say is that 
the concept of balancing is actually a retreat from the 
nonimpairment standard that is currently in the policy.
    Mr. Galvin. As stated in subsection 1.4.3 of the 
fundamental purpose of parks, yes, Senator.
    Senator Salazar. Mr. Martin, how would you respond to Mr. 
Galvin on that point?
    Mr. Martin. I would say that if you read the whole document 
and did not hinge it all on one statement, you would find that 
his concerns were completely met. I think we are also saying 
that this is a draft, and if inadvertently we have dropped a 
sentence that is that significant and important, we should add 
it in.
    But we also would challenge people to read the document as 
you would if you were a manager charged with this incredible 
responsibility in the field answering to the public, answering 
to everyone. And I think you would find that as you look at 
what an unacceptable impact is--take the cell tower--yes, we 
have that obligation that Mr. Galvin talks about, but if you 
are going to put one in, you want to make sure that it has no 
harmful impact. But again, so the cell tower still exists at 
Old Faithful. We just did it differently to make sure that 
there were no unacceptable impacts. And I think that is what 
this document does as a whole.
    But it is a draft and if we have inadvertently dropped a 
sentence, then I would say let us have a strong discussion 
and----
    Senator Salazar. Let me just say, Mr. Martin, I want to 
associate myself with the letter that my Republican colleagues 
and Senator Alexander drafted on October 27, which has been 
inserted into the record today, because I think my colleagues 
are accurate in their description of the need to be very 
careful and very thoughtful.
    I will still walk away today after this hearing with this 
impression that this rewrite of the policy was somehow done in 
darkness and without the understanding of a lot of people who 
should have been involved, including this committee, 
recognizing that there was a need from the point of view of 
parks to revise policies. I think that his very modest request 
of another 30 days for public comment is one that the National 
Park Service should very much adhere to.
    Mr. Martin. Absolutely.
    Senator Salazar. Let me ask one other quick question, and 
it has to do with respect to snowmobiles. Under the current 
policy, it basically says that a variety of motorized equipment 
has the potential to adversely impact park resources, et 
cetera. And then that has been deleted and in its place it 
says, ``There are many forms of motorized equipment and 
mechanized modes of travel. Improved technology has increased 
the frequency of their use. In some areas and under certain 
conditions, the use of mechanized equipment and mechanized 
modes of travel may be determined to be an appropriate use.''
    In your estimation, Mr. Martin, does this mean that we are 
going to have more motorized vehicle travel on our national 
parks than we currently have today?
    Mr. Martin. No. I think that it will allow us to consider 
some new technologies like Segways and other things where 
appropriate. But you have to read up front the definition of 
appropriate use, which does not diminish values and other 
things.
    But as it pertains to snowmobiles--and I know that has been 
out there a lot--the executive orders, the regulations, 
everything are the same, and our commitment to managing them 
appropriately, like I think we are trying to do now, is going 
to remain the same.
    Senator Salazar. I will just conclude, Mr. Chairman, by 
thanking you again for the hearing and also suggesting to the 
Park Service that this is such an important issue for all of us 
that it might we worthwhile to go back to the drawing board and 
take a look at revisions where you try to bring not only the 
parks' employees but also the constituencies for parks, as well 
as this committee, along with you as you move forward with 
those revisions.
    Senator Thomas. Thank you very much.
    Any closing comments from any of the members?
    Senator Akaka. Mr. Chairman, yes. A concern I have, Mr. 
Martin and to all of you, is the last time the Park Service 
undertook revision of its management policies was in 1996, 
culminating in a new document in 2001. Senator Alexander raised 
this concern too. That amounts to 5 years for review and input, 
and the input from career professionals was extensive at that 
time. It set a course for the Park Service that has been met 
with wide public acceptance in that time and growth in national 
park units that reflect diversity in U.S. history. This time it 
will take less than a year and a half to set in place 
management guidelines that will affect the Nation's most 
popular visited destinations, and that is a concern and 
something for us to think about. Have the professionals been 
included in the rewrite? It just seems to me that it is being 
pushed and rushed so fast without getting the wisdom of those 
who have served in this area.
    Thank you very much.
    Senator Thomas. Thank you very much.
    Well, gentlemen, thank you. We appreciate it. We would like 
to have the opportunity to give you some written questions 
after this hearing, if we may, and ask you to respond to those.
    Obviously, it is clearly an important issue. There are 
differing views. I think most everybody agrees on the 
priorities of maintaining the resource. On the other hand, if 
you are going to have a resource, then the people who own the 
resource ought to have an opportunity to visit it. We have been 
through a lot of this in terms of snow machines in Yellowstone 
Park as a matter of fact, and I think it determines that you 
can have both. You can maintain the resource and have some 
regulations which allow people to be able to utilize it.
    By the way, I believe the Park Service has done a good job 
over the last several years. They have dealt a lot with the 
concession issue. They have done a lot with the management part 
of the entire park, and as the parks grow bigger, that becomes 
an important item. They dealt with the financing and the 
business aspects. So we want to thank you for that.
    And thank you for being here. Thank you for your opinions, 
and we will look forward to working with you.
    The committee is adjourned.
    [Whereupon, at 11:39 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of Don Castleberry to Questions From Senator Thomas
    Question 1. How did the Department of the Interior involve Regional 
Directors and senior executives in the review process for the 
Management Policy revisions during your career?
    Answer. In my experience, the need for revisions would be discussed 
and decided during routine meetings of ``the Directorate'' (generally 
made up of the Director/Deputy Director, Associate Directors and 
Regional Directors). This would typically be done as a result of some 
change in the law, or to respond to some need for guidance/direction, 
perceived by the group, in response to new issues or conflicts. 
Subject-matter professionals from within NPS would then be used to 
draft various sections and chapters, with opportunity for full field 
review(often multiple times) BEFORE going out for public review.
    Question 2. The NPS is now seeking public comment on the Draft 
Management Policies. Do you agree with the process or could you 
recommend a better way to go about changing management policies?
    Answer. I do NOT agree with the currently proposed process. It 
would, be my opinion that NPS should halt the current, flawed, process 
and begin a focused, amendment approach, using the 2001 policies as the 
base, making only essential amendments to these existing policies, 
based on clearly articulated needs.
    Question 3. How important were management policies to day-to-day 
operations when you served at unit level and later as Regional Director 
of the National Park Service?
    Answer. They are critical tools in maintaining consistency of 
management decisions throughout the Service. They were a ready desk 
reference, guiding most day-to-day decisions. Generally speaking, NPS 
is a ``decentralized organization'' with wide latitude being delegated 
to individual park managers. As a park Superintendent, usually located 
far from my supervisors (Regional Director, Director), I studied these 
policies, used them to guide my decisions in order to assure that I was 
operating within the law, and consistent with NPS authority. As 
Regional Director, I used them to guide planning for newly-authorized 
park units, and for development of General Management Plans, as well as 
to develop my response to issues, conflicts, and, essentially, all 
decisions involving the parks--including such matters as Concession 
management, land acquisition, human resource management, and perhaps 
most important, resource management and protection.
    Question 4. The Draft Management Policies addressed during the 
hearing is a draft subject to revision in the near future. What would 
be your top recommendation for the National Park Service to use to 
improve the Draft Management Policies?
    Answer. As indicated in my reply to question 2 above, I believe the 
appropriate way to improve the policies is (as specified in the 2001 
policy document)--``NPS policy is usually developed through a concerted 
workgroup and consensus-building team effort involving extensive field 
review, consultation with NPS senior managers, and review and comment 
by affected parties and the general public. All policy must be 
articulated in writing and must be approved by an NPS official who has 
been delegated authority to issue the policy. Policy must be published 
or otherwise made available to the public--particularly those whom it 
affects and those who must implement it in the Washington office, 
regional offices and parks''. This process was ignored with the current 
revision. At the least with a proposed revision of this magnitude, the 
beginning should have been a public scoping process that explained WHY 
certain changes were deemed necessary. That question, in my opinion, 
has not yet been answered fully to the public, nor to the NPS employees 
who will use the policies to carry out their duties.
    Question 5. On October 11, 2005, the NPS Director distributed a 
memo to the National Leadership Council entitled Revised Procedures for 
GS-13, GS-14, and GS-15 Selections.
    a. Are you aware of the memo?
    b. Did any such policy exist while you were an NPS employee?
    c. How does such a policy affect the morale of career employees?
    Answer. (a) Yes, I have read the referenced memo. (b) I do not 
recall a formal policy on this subject in my experience. From time to 
time, there were directives requiring higher-level review or approval 
for selection of either certain designated positions, or positions, at 
or above certain grade levels (often with the stated purpose of 
assisting in the placement of personnel in special circumstances). I do 
not recall ANY directive outlining an expectation that certain 
conditions (other than the knowledge, skills and abilities for the 
position, contained in the vacancy announcement) would be used to 
evaluate or approve selections. Certainly, in my experience, there was 
NEVER even a hint that political loyalty would be a factor. (c) I am 
certain that this policy is having a significant dampening effect among 
the employees of NPS (along with the already widespread fears of 
reprisal and retaliation) on the willingness of mid- and senior-level 
employees to be candid in expressing their professional judgments about 
the way the Service is being managed and how their parks are being 
affected. For example, I am in contact with numerous former co-workers 
who are still employed in NPS, several have indicated they are 
unwilling to comment on the proposed management policy revisions, out 
of fear that their comments could be viewed as ``not supporting the 
Secretary's 4-Cs and the President's management agenda''.
                                 ______
                                 
                         Birch, Horton, Bittner and Cherot,
                                 Washington, DC, December 27, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on Parks, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: The following are my responses to the written 
questions submitted to me following the November 1, 2005 hearing on 
National Park Service Management Policies.

    Question 1. You mention in your testimony that the 2001 management 
policies are inconsistent with the 1916 Organic Act. Could you 
summarize the most egregious deviation form the law and what legal risk 
does the Park Service face if the policy remains unchanged?
    Answer. The 2001 version of National Park Service (NPS) Management 
Policies, adopted in the final days of the Clinton Administration, 
include a number of provisions inconsistent with the letter and spirit 
of the 1916 National Park Service Organic Act. For example, an express 
part of the fundamental purpose of all NPS units is to ``provide for 
the enjoyment'' of port units. 16 U.S.C.  1. In the 2001 Policies, 
this key phrase is deleted from the ``foundation'' statement that 
introduces the Policies. This deliberate deletion of the visitor 
``enjoyment'' reference means that Policies misrepresent the law from 
the very start and set the Policies on a course inconsistent with the 
Organic Act.
    The single ``fundamental purpose'' of the Park System, as 
articulated in the 1916 Act, ``IS to conserve the scenery and the 
natural and historic objects and the wild life therein AND to provide 
for the enjoyment of the same in such a manner and by such means as 
will leave them unimpaired for the ENJOYMENT of future generations'' 
(emphasis added). The 2001 Policies focus too heavily on the 
``conserve'' portion of the single purpose and systematically diminish 
the emphasis on visitor enjoyment. For example, section 8.1 of the 2001 
Policies concludes a review of the Organic Act by stating that the law 
``impose[s] on NPS managers a STRICT MANDATE TO PROTECT park resources 
and values, and a responsibility to actively manage all park uses and 
when necessary, to regulate their amount, kind, time, and place'' 
(emphasis added). This narrow and strict focus on only one half of the 
1916 directive is inconsistent with that Act.
    Similarly, the Organic Act expressly directs NPS to (1) provide for 
visitor use and enjoyment, (2) actively manage Park units for this 
purposes, and (3) enter into operating concessions agreements to 
facilitate visitation. 16 U.S.C.  1, 3. Contrary to these statutory 
directives, the 2001 Polices specifically identify each of these 
activities as a source of illegal ``impairment''. See Sec. 1.4.5. 
Congress could not have established the ``no impairment'' standard in 
section 1 of the Organic Act and then directed NPS to engage in 
activities in section 3 that would violate this standard. Accordingly, 
the identification of these statutorily authorized activities as 
sources of impairment is inconsistent with the 1916 Act.
    The anti-visitor enjoyment bias that permeates the 2001 Policies is 
further demonstrated by language in section 8.2. When confronted with a 
visitor activity that may cause problems, Park managers are directed to 
close the area to the use, prohibit the use, or, to limit the use--in 
that specific order. To be consistent with Organic Act and its emphasis 
on visitor enjoyment, this order must be reversed so that initial 
efforts are aimed at managing a visitor use to eliminate or avoid 
problems (and allowing the use and ``enjoyment'' to continue) and only 
if good management cannot fix or ameliorate a problem should the 
options of closure or prohibition be employed.
    Question 2. Was there ever a need to revise the management policies 
while you were serving as Assistant Secretary? If not, why not? If so, 
what were the circumstances and why were the policies changed?
    Answer. During my tenure as Assistant Secretary of the Interior for 
Fish, Wildlife and Parks, senior policy makers concluded that NPS 
Management Policies adopted in the late 1970's did not appropriately 
reflect the purpose of the Park System outlined in the 1916 Act. In 
addition, the Policies did not provide the clarity of direction we 
thought was necessary for effective management and conservation of Park 
resources. Efforts commenced in 1987, directed by my office, to rewrite 
those Policies. The rewrite was completed shortly thereafter resulting 
in the 1988 NPS Management Policies which remained in force and effect 
until January, 2001.
    Question 3. The Draft Management Policies addressed during the 
hearing is a draft subject to revision in the near future. What would 
be your top recommendation for the National Park Service to use to 
improve the Draft Management Policies?
    Answer. At this point, I have no top recommendation for amendments 
to the proposed new Policies. However, I do expect to be submitting 
comments to the agency including recommendations for alterations before 
the close of the public comment period.
    Question 4. On October 11, 2005, the NPS Director distributed a 
memo to the National Leadership Council entitled Revised Procedures for 
GS-13, GS-14, and GS-15 Selections. As a former Assistant Secretary of 
DOI, do you think it is necessary to have written procedures for 
selecting applicants for GS-13, GS-14, and GS-15 positions and is it 
appropriate to require employees to support the ``President's 
Management Agenda''?
    Answer. It is completely appropriate for the Assistant Secretary's 
office to issue guidance for and participate in the selection of senior 
personnel within NPS at grades 13 and higher. Similar guidance and 
review procedures were in place during my tenure as Assistant Secretary 
from 1985 to 1988. During my confirmation by the U.S. Senate, it was 
stressed repeatedly that I would be held accountable and responsible, 
by the Congress, for the activities and conduct of the agencies under 
my supervision (i.e., NPS and U.S. Fish and Wildlife Service). If 
Congress insists on such accountability, it must ensure that confirmed 
personnel have the authority and responsibility to effectively oversee 
the agencies, and agency personnel, under their purview. In contrast, 
if the Assistant Secretary is stripped of such authority, Congress and 
its committees must not then seek to hold that office and individual 
accountable.
    In addition, it is appropriate to require senior career personnel 
to support the ``President's Management Agenda.'' He is after all the 
head of the Executive Branch, is provided with Constitutional authority 
to direct the activities of all Executive Branch employees, and is held 
accountable by Congress for management of the federal agencies 
including NPS.
    Question 5. Do you believe that intangible park values such as 
natural sounds, night skies, etc. are ``park resources'' and should be 
protected?
    Answer. Conservation of intangible values has a role in park unit 
management. It is critical, however, to distinguish between those 
values that are tantamount to resources as compared to the subjective 
aesthetic values of individual users or groups of users. Solitude is a 
prime example of a value that is highly dependent, and variable, 
depending on personal aesthetics. A summer beach visitor to New York's 
Gateway National Recreation Area, considers solitude as 100 feet 
between his beach towel and that of another beach goer. A backpacker in 
Alaska's Gates of the Arctic National Park, considers solitude being 
the only visitor in a 100 square mile area. ``Natural quiet'' is 
another value that can be highly subjective. Visitors seeking to climb 
Mt. McKinley in Denali National Park are almost always dropped off by 
ski planes. NPS has received complaints from climbers that their 
enjoyment of ``natural quiet'' is being impaired by other visitors 
taking flightseeing tours of Denali from small airplanes (usually flown 
by the same company that dropped off the mountain climbers). Obviously, 
``natural quiet'' here is almost totally in the ear of the beholder.
    Management policies must clearly distinguish between these values 
as a resource and these values as aesthetics. Where the former is 
clearly identified, actions to conserve the resource is fully 
appropriate and necessary. Where the latter is at issue, NPS must not 
try to transmute aesthetic values into resources. Moreover, management 
for subjective aesthetic values must be considered openly and honestly 
and decisions made with regard to the 1916 Act, the purposes for which 
individual units were established, and the obligation of a public 
agency to treat all citizens fairly.
    Thank you again for the opportunity to testify on November 1 and 
provide these additional answers for the record.
    Sincerely,
                                                   William P. Horn.
                                 ______
                                 
       Responses of Denis Galvin to Questions From Senator Thomas
    Question 1. Mr. Galvin, you were Deputy Director when the 2001 
management policies were adopted.
    a. What was the impetus for preparing the 2001 management policies 
and what type of public involvement was there in the process?
    Answer. It actually came from the OMB directive to cut regulations 
(the Paperwork Reduction Act). The directive was to completely revise 
the directives system: Management Policies--Special Directives--
Operating ``How to'' Manuals. As in 1988, it was entirely an NPS 
decision to revise the policies, it was not dictated by the Department 
of Interior. I was deeply involved in the 2001 rewrite. There was 
extensive, internal review and the draft was sent out for public 
comment twice. Some of the chapters went through two or three 
iterations before being finalized.
    Question 1b. What do you consider the most significant change 
brought about by the 2001 policies?
    Answer. It was most certainly the expansion of Chapter 1, The 
Foundation. (Actually, Ch. 1 in the 1988 policies is called the 
introduction). So, the introduction took on what is now (2001) the 
Foundation. This chapter increased in size from 4 pages to 15 pages, 
greatly expanding because of judicial findings questioning NPS' ability 
to define impairment. There is more talk in the 2001 policies about the 
Organic Act, impairment, and mitigation. This resulted in 
superintendents having less discretion in defining what is impairment. 
A court finding even stated that not even the NPS could impair 
resources. Additionally, the 2001 policies added information about 
soundscape and lightscape management due to important biological 
research that became available. In 1988 these subjects were treated as 
visitor use rather than ecological issues.
    Question 2. What do you see as the most significant change in the 
current draft policies when compared with the 2001 document and what 
impact will it have on the day-to-day operation of individual units?
    Answer. That would be the shift in Sec. 1.4.3 to balance use with 
preservation in day-to-day management of national parks. Chapter 1 of 
the 2001 edition of Management Policies is entitled The Foundation, and 
is intended to give additional clarity to the clear purpose of the 
National Park Service as stated in the 1916 NPS Organic Act. The 2001 
edition of Management Policies gave a very detailed and clear 
articulation of how to interpret the 1916 Organic Act's basic mandate. 
In contrast, the new draft significantly muddies the water, and has the 
effect of letting each manager judge for him/herself whether a 
particular use or form of enjoyment is appropriate or not, and will or 
won't cause impairment, without the clear guidance that the 2001 
edition of Management Policies provides.
    Question 3. How important were management policies to day-to-day 
operations when you served as Deputy Director of the National Park 
Service?
    Answer. Management Policies are primarily to give clear direction 
to the professional managers of the NPS so that there is consistent 
adherence to policy service-wide, and so that each manager has a clear 
and comprehensive basis for understanding what he/she is to consider 
when making management decisions. I trained literally thousands of park 
managers on Management Policies, and would instruct them to pull them 
out at least once a year and read them. In training classes at Albright 
Training Center, I would offer case studies and instruct participants 
to go back to the policies to craft management decisions; this produced 
consistency. It is absolutely required for a park manager to know the 
Management Policies when faced with a possible court decision.
    Question 4. The Draft Management Policies addressed during the 
hearing is a draft subject to revision in the near future. What would 
be your top recommendation for the National Park Service to use to 
improve the Draft Management Policies?
    Answer. I feel that in every respect, the 2001 Management Policies 
are superior to this current draft, and would urge NPS to abandon this 
flawed rewrite. If they insist on moving ahead, I strongly recommend 
that they move forward in the most open, careful, and deliberate 
process possible, beginning with a scoping process.
    Question 5. On October 11, 2005, the NPS Director distributed a 
memo to the National Leadership Council entitled Revised Procedures for 
GS-13, GS-14, and GS-15 Selections.
    a. Are you aware of the memo?
    Answer. Yes.
    Question 5b. Did any such policy exist while you were an NPS 
employee?
    Answer. No. This is absolutely unprecedented, not to mention 
unworkable, bringing that number of candidates to Washington for 
interviews. Getting a job applicant's package through was not an 
expeditious thing. Nobody in headquarters has ever wanted to look at 
GS-13's or GS-14's. Certainly Sr. Executive level (SES) and GS-15's 
would be brought to Washington; but bringing GS-13 and GS-14 candidates 
would be a bureaucratic nightmare and a very costly endeavor.
    Question 5c. How does such a policy affect the morale of career 
employees?
    Answer. In my opinion, adding bureaucratic restrictions on movement 
are never good for morale.
       Responses of Denis Galvin to Questions From Senator Akaka
    Question 1. In your written testimony, you commented that ``Special 
interests must give way to the national interest if the national parks 
are to flourish in the future.'' Is the ``national interest'' you refer 
to the general idea of the standard for non-impairment of national 
parks? What would you identify as the ``national'' interest?
    Answer. Yes, the rub always comes with resource protection over the 
interests of user groups, and that is what NPS is charged with 
defending. Congress sets land management policies with the passage of 
the Organic Act of 1916, the Endangered Species Act, the National 
Historic Preservation Act, etc. thereby giving the National Park 
Service the authority to defend resource protection which is in the 
national interest.
    Question 2. Is it correct to say that in your view, the 
encouragement of too many specialized uses will lead to homogenization 
of the national park experience, and away from the uniqueness of 
experiences in individual parks?
    Answer. Yes. The National Park Service is one of the great 
government products where the citizenry enjoys its history and culture. 
There is great diversity in the National Park System, with 388 units 
celebrating everything from historic battle sites, the homes and lives 
of celebrated Americans, recreation areas, to our nation's most 
magnificent natural scenery in its national parks. Nearly 300 million 
people visited NPS sites last year, and surveys repeatedly show that 
over 95% of respondents say they enjoyed their visit. People who enjoy 
recreating at Disneyworld and watching NASCAR value national parks for 
the special places they are. For high quality tourism to be sustained 
in America, nothing is more important than preserving the unique 
natural and cultural places that make up the National Park System, 
unimpaired.
     Responses of Denis Galvin to Questions From Senator Feinstein
    Question 1. What is the risk that these new management policies, in 
combination with the new rules about fundraising, could lead to 
pressure on park administrators to push the boundaries of what 
constitutes ``acceptable impacts''? For example, there exists the 
possibility that a desire by park managers to raise money from private 
sources, plus potential corporate donors who ask for access in return 
for donations, could lead to activities in the parks that run contrary 
to the long-term conservation goals of NPS. What do the new rules do to 
prevent this type of scenario?
    Answer. In answer to the first part of the question, what is the 
risk that these new management policies, in combination with the new 
rules about fundraising, could lead to pressure on park administrators 
to push the boundaries of what constitutes ``acceptable impacts''? In 
searching through the Management Policies, the subject of donors and 
fundraising appears in four places:

  <bullet> Chapter 7 Interpretation and Education: 7.6.2 Cooperating 
        Associations excerpting, ``Associations may accept donations on 
        behalf of the Service when appropriate, and when conducted 
        through approved fund-raising efforts'' That section, although 
        re-numbered 7.5.2 in the 2005 draft, is not changed.
  <bullet> Chapter 9 Park Facilities: 9.3.5 Advertising excerpting, 
        ``NPS policy does not prohibit `donor recognition' which occurs 
        when the NPS publicly thanks an individual, corporation, or 
        some other entity for their gift or service to the NPS.'' The 
        reader is referred to Directors Order 21. The 2005 draft 
        changes ``does not prohibit'' to ``encourages''. It also refers 
        to Directors Order 21.
  <bullet> Chapter 9 Park Facilities: 9.6.5 Donated Commemorative Works 
        excerpting, ``Names of donors will be discouraged from 
        appearing on commemorative works. If they do appear, donor 
        names will be conspicuously subordinate to the subjects 
        commemorated.'' The 2005 draft does not change this section.
  <bullet> Chapter 10 Commercial Visitor Services: 10.2.5.5 Donations 
        to the NPS excerpting, ``the National Park Service will not 
        solicit or accept donations or gifts from entities that have, 
        or are seeking to obtain a contract, lease, or other business 
        with the Service. . . Further guidance on donations is 
        available in Directors Order 21.'' The 2005 draft does not 
        change this section.

    In summary, the changes in this area do not appear major. It is 
imperative that the changes proposed to Directors Order 21 be 
consistent with this policy direction. The dangers cited in your 
question are very real. National Parks are fundamentally public 
institutions and should remain so. The financial support from the 
general tax base dwarfs the existing and potential amounts to be 
received from any other source. These are NATIONAL parks and should 
remain so.
                                 ______
                                 
Responses of the National Park Service to Questions From Senator Thomas
    Question 1. What are the reasons for updating these policies in the 
first place?
    Answer. The National Park Service (NPS) strives to attain the 
highest possible level of management excellence allowing us to provide 
our managers and staff with the tools they require to best meet our 
mission. As a result, NPS Management Policies have been periodically 
reviewed and updated. In addition the NPS and the Department of the 
Interior received repeated requests from the House Subcommittee on 
National Parks, Recreation, and Public Lands to re-write or at least 
substantively review Management Policies 2001. At an April 25, 2002, 
hearing Congressman Radanovich, who was then chairman of the 
subcommittee, was especially emphatic about this request. He again 
inquired about a review in a June 6, 2002, letter to Director Mainella. 
In a September 24, 2003, letter to Chairman Radanovich, the Director 
stated that the NPS had begun a systematic review of the Management 
Policies to assure they were in alignment with both the Organic and 
General Authorities Acts, and with Secretary Norton's 4 Cs--
``Consultation, Cooperation and Communication, all in the service of 
Conservation.'' In a follow-up question regarding the status of a 
review of Management Policies, asked by Senator Bingaman from a May 10, 
2005, hearing before the Senate Subcommittee on National Parks, the 
Director responded that the NPS Management Policies issued in 2001 were 
under review in the Office of the Assistant Secretary for Fish and 
Wildlife and Parks, and until that review is concluded, we will not 
make any decisions about whether or not we plan to seek any changes in 
the Management Policies. At a December 14, 2005, House Subcommittee on 
National Parks hearing on the NPS Organic Act, Congressman Pearce, 
Chair of the Subcommittee, reaffirmed ``that it was this Subcommittee 
in April 2002--not Deputy Assistant Secretary Paul Hoffman--that 
initiated an evaluation of the 2001 NPS Management Policies when then-
Subcommittee Chairman Radanovich requested Park Service Director 
Mainella to review the 2001 Management Policies . . .''. Congressman 
Pearce also stated, ``I am pleased that the Department of the Interior 
and the National Park Service had the courage--despite a campaign 
against it--to evaluate its management policies and find areas where it 
can improve operations.''
    As a practical matter, the Management Policies are reviewed nearly 
every day, and we always seek ways to make them more helpful to our 
field staff and ensure that they accurately reflect our statutory 
responsibilities. One of the routine elements of this review process is 
to ensure that NPS policies are consistent with Departmental policies. 
An especially noteworthy outcome of the review process and the 2002 
hearing was the development of Director's Order #75A: Civic Engagement 
and Public Involvement. (Director's Orders are a convenient mechanism 
for updating Servicewide policies without the necessity of republishing 
the entire Management Policies document.) The NPS believed that 
Director's Order #75A would address at least some of Congressman 
Radanovich's concerns, as well as complement the Secretary's 4Cs 
initiative. Also, the NPS Wilderness Steering Committee had embarked on 
the task of updating Director's Order #41, which addresses wilderness 
stewardship policy.
    Management of the national park system is always a matter of 
interest to the Department, and the Assistant Secretary adopted a 
fiscal year 2005/2006 goal to ``Improve the NPS Management Policies.''. 
Deputy Assistant Secretary Paul Hoffman, who provides policy guidance 
to the NPS, was tasked with lead responsibility. In June of 2005 
Congressman Pearce, the new chairman of the subcommittee, expressed his 
expectation that the Service's ``systematic review'' would culminate in 
a revised edition of Management Policies. Because the Deputy Assistant 
Secretary's draft was already in progress, the Director informed 
Chairman Pearce that the new draft of Management Policies would be 
completed by September 2005. In July 2005, the Deputy Assistant 
Secretary presented for NPS's review his initial recommendations for 
updates to the policies. This document was intended to be a starting 
point for discussion. NPS career employees were then assigned to review 
and evaluate the 2001 Management Policies. For example, we knew that we 
needed to place more emphasis on civic engagement and public 
involvement; update the planning procedures in Chapter 2; correct some 
aspects of the wilderness stewardship procedures in Chapter 6; and 
discourage construction projects that are excessive in size or cost, or 
too expensive to operate.
    There are new laws, executive orders, and regulations that impact 
park management since the policies were last updated in 2001. NPS now 
has increased responsibilities for homeland security, such as 
protecting national icons against attack. There have also been changes 
in the demographics of visitors, rapid population growth around parks, 
improvements in technology that provide new ways to enjoy parks or 
reduce adverse impacts on resources, and a new focus on civic 
engagement and cooperative conservation. These changes, combined with 
expectations from Members of Congress, prompted the review and update 
of the management policies.
    Question 2. If I'm a visitor to a national park and these new 
Management Policies went into effect, what would be different from my 
eyes?
    Answer. The expected benefit from the revisions relates more to how 
the NPS accomplishes things rather than what it does, that is protect 
parks for future generations and allow their use consistent with that 
goal. In the short term, a visitor to a national park would experience 
no change as a result of implementing the draft management policies; 
the same standard of excellence will apply. Over time the NPS decisions 
should be supported more by communities, result in fmancially viable 
alternatives that could be implemented, and resources would be improved 
resulting in the parks which are better preserved for future 
generations (e.g. improved fire management and control of exotics). 
There should be improvement in natural and cultural resource conditions 
as well as the physical resources (e.g., improvement of buildings 
through improved facility management). The appropriate use of parks 
would also be emphasized resulting in continued enjoyment of parks by 
current and future generations. Despite criticisms to the contrary, the 
draft management policies are intended to, and do, maintain the 
fundamental policies underlying the NPS Organic Act and other 
regulations or laws, but also provide more clarity and improved 
approaches to ensure that the Organic Act's objectives are, in fact, 
achieved. For example, the draft policies direct more clearly than 
earlier versions that ``park resources and values are [to be] 
maintained in as good or better condition for the benefit of future 
generations.'' It is our intent that as a result of these policies, the 
only differences discernible to park visitors over time will be 
improvements (e.g., restoration of park resources, better planning and 
implementation of park projects). The draft management policies' new 
emphasis on cooperative conservation, the legacy goals of the 
Administration, sustainability, and management excellence should also 
support this goal.
    Question 3. What are some of the areas of these Draft Management 
Policies, as you say, make it more beneficial and user-friendly for 
park managers?
    Answer. The proposed revisions to the management policies provide 
more clarity, flexibility and tools for superintendents and park 
managers in determining each park's unique needs. The draft policies 
outline ways to make decisions that are better supported by science and 
the public, thus more effectively accomplishing the goals of managers. 
The document also outlines more professional training for managers 
giving them the tools to better manage the parks. This draft was 
written as a whole by park managers, not segmented like the previous 
document. This better integrates all of the administrative resources 
making managers more effective.
    For the first time, park managers will find clear procedural 
direction for making management decisions because the draft policies 
define important terms such as ``unacceptable impacts,'' ``appropriate 
uses'' of parks, and ``professional judgment''. These often used terms 
can be easily misconstrued and misused. Offering a single agreed upon 
definition for each term will result in greater understanding and ready 
and consistent application by park managers in order to better protect 
park resources and values, and provide for the enjoyment of the same.
    In addition, the draft policies explicitly describe management 
tools that are intended to assist park managers in solving some of the 
complex management problems facing parks today. These tools include the 
use of adaptive management, the use of best available technology, and 
the principle of cooperative conservation.
    Finally, the draft policies focus on management excellence and 
sustainability by prioritizing a comprehensive project review process 
that will ensure that ``projects are essential to the mission, 
achievable, and sustainable as well as practicable and reasonable.''
    Question 4. The public comment period ends February 18, 2006. How 
do you intend to use the public comments?
    a. What are the comment opportunities for employees and how do you 
intend to use their comments?
    b. What is the process for finalizing the management policies?
    c. When do you expect to have the final document available for 
public release?
    Answer. Comments from all sources (internal and external) continue 
to be collected and processed by NPS Office of Policy staff. Comments 
may be submitted through a variety of methods, including email; the 
Planning, Environment and Public Comment (PEPC) web page; and via 
regular mail. Once the comment period closes, all comments will be 
reviewed, analyzed, and organized by subject and content. The NPS 
policy staff together with NPS subject matter experts and field staff 
will make recommendations for revising the draft policies based upon 
the substantive comments received during the comment period. We expect 
many additional career professionals at all levels of the organization 
to be included in preparation of the final. The recommended revisions 
will then be submitted to NPS senior leadership for approval. A final 
draft will then undergo close review and final editing by a broad group 
of NPS professionals including NPS and DOI managers. The Director may 
also consult with other knowledgeable parties such as the NPS Advisory 
Board. The new edition of Management Policies 2006 will be finalized 
upon the Director's signature.
    The NPS will then prepare a document summarizing the content of the 
comments and the NPS response to those comments. The summary will be 
posted on the web and the public will be notified of its availability 
and the availability of the final Management Policies, via Federal 
Register notice, via e-mail notice to anyone who has specifically 
requested to be notified and via a broadly distributed press release. 
While the NPS has not set a publication date for the final document, we 
expect it to be completed in 2006. This depends in part upon the type 
and number of public comments and the time required to respond 
adequately.
    The final document will consider Congressional input as well as 
comments from the public (including the issues raised in these 
questions) before any final decisions are made. Although each answer 
will not repeat that we will consider all comments--both internal and 
external--in adopting a final version of the new management policies, 
that is implied in each such answer.
    Question 5. Do the proposed policies alter or reduce the effects of 
any laws or regulations?
    Answer. No, the proposed policies explicitly recognize that ``NPS 
policy must be consistent with these higher authorities. . . .'' The 
draft management policies are intended to improve the internal 
management of the NPS; they are not promulgated as a rulemaking and are 
not intended to carry the force and effect of law. Where the text of a 
policy relates to a particular statute or regulation, it is the statute 
or regulation that controls, not the text of the policy. As in past 
Management Policies any policy may be waived by the NPS Director if it 
is not in conflict with the law.
    Question 6. Please provide justification for the need to `balance' 
the management policies now given the fact that `balance' has never 
been used as justification in 89 years of park service management, nor 
have you been asked to consider `balance' at the direction of this 
committee.
    Answer. We assume that this question refers to the following 
language in Section 1.4.3 of the draft management policies. The use of 
the word balance is appropriate in light of recent court interpretation 
of the Organic Act and the language in the draft that comes before its 
use and the language that follows it.

          The Park Service recognizes that activities in which park 
        visitors engage can cause impacts to park resources and values, 
        and the Service must balance the sometimes competing 
        obligations of conservation and enjoyment in managing parks.

    This language incorporates the language used by the U.S. Court of 
Appeals for the 10th Circuit in Southern Utah Wilderness Alliance v. 
Dabney, 222 F.3d 819 (10th Cir. 2000) in interpreting the NPS Organic 
Act, as follows:

          Although the Act . . . place[s] an overarching concern on 
        preservation of resources, we read the Act as permitting the 
        NPS to balance the sometimes conflicting policies of resource 
        conservation and visitor enjoyment in determining what 
        activities should be permitted or prohibited. . . . The test 
        for whether the NPS has performed its balancing properly is 
        whether the resulting action leaves the resources ``unimpaired 
        for the enjoyment of future generations.''

    Id. at 827. We read the word ``balance'' in this context to mean 
that NPS should consider and weigh all relevant information in 
determining whether an activity would be an ``appropriate use'' in the 
park unit. Among other things, and as the proposed policies make clear, 
an ``appropriate use'' would not have ``unacceptable impacts.'' In this 
decision-making process, the draft management policies continue to 
embrace the fundamental concept that when there is a conflict between 
enjoyment and conservation, conservation of the resources will prevail, 
as reinforced by the several statements in the draft document cited in 
the answer to Question 7b, below. For example, the following two 
statements appear in the same section of the draft policies as the 
sentence containing the word ``balance,'' as follows:

          . . . Congress established the overarching mission for the 
        national parks, which is to protect park resources and values 
        to ensure that these resources and values are maintained in as 
        good, or better, condition for the enjoyment of present and 
        future generations.
          Because the enjoyment of park resources and values by present 
        and future generations is dependent on their preservation, when 
        there are concerns as to whether an activity or action will 
        cause an impairment, the Service will protect the resources . . 
        .

    This approach to managing parks is entirely consistent with past 
management, firmly rooted in the resource protection goal while 
providing an improved tool for determining appropriate activities.
    Question 7. After the 2001 Management Policies were adopted, Fran 
Mainella testified before the House Subcommittee on National Parks, 
Recreation and Public Lands that ``there can be no outdoor recreation 
without protection of the resource first, and if you are going to err, 
you will err on the side of the resource.''
    a. Does the Park Service still hold to that view?
    b. If so, please explain where in the proposed changes that view is 
reflected?
    Answer. Yes. As a key tenet of the Organic Act of 1916 that is 
reaffirmed by the General Authorities Act of 1970, as amended, the 
draft management policies repeatedly embrace the fundamental concept 
that when there is a conflict between enjoyment and conservation, 
conservation of the resources will prevail. The following statements 
are a few of the many examples from the draft policies that reinforce 
that important and guiding principle.

          Introduction: ``When proposed park uses and the protection of 
        park resources come into conflict, park managers are obligated 
        to ensure that the resources and values for which the park was 
        created are not diminished.''
          Introduction: Conserve, Preserve and Protect: ``The choice of 
        any one of these words, within these policies, is not intended 
        to, and should not be construed to imply a greater or lesser 
        restriction on opportunities for visitor enjoyment or level of 
        care for park resources and values.''
          Section 1.4.3: ``when there are concerns as to whether an 
        activity or action will cause impairment, the Service will 
        protect the resources . . .''
          Section 1.4.3: ``. . . Congress established the overarching 
        mission for national parks, which is to protect park resources 
        and values to ensure that these resources are maintained in as 
        good, or better, condition for the enjoyment of future 
        generations.''
          Section 4.1: ``In cases of uncertainty as to the impacts of 
        activities on park natural resources, the Service will protect 
        the natural resources . . . and strive to reduce uncertainty by 
        facilitating and building a science-based understanding.''
          Section 1.10: Letter from Secretary of the Interior, Franklin 
        K. Lane to the first Director of the National Park Service, 
        Stephen T. Mather, `` `. . . that the national parks must be 
        maintained in absolutely unimpaired form for the use of future 
        generations as well as those of our own time . . .' ''.
          Section 1.4.1: 1978 amendment to the 1970 General Authorities 
        Act, ``Congress further reaffirms, declares, and directs that 
        the promotion and regulation of the various areas of the 
        National Park System, as defined in section 1c of this title, 
        shall be consistent with and founded in the purpose of section 
        1 of this title (the Organic Act) to the common benefit of all 
        the people of the United States. The authorization of 
        activities shall be construed and the protection, management, 
        and administration of these areas shell be conducted in light 
        of the high public value and integrity of the National Park 
        System and shall not be exercised in derogation of the values 
        and purposes for which these various areas have been 
        established, as may have been or shall be directly and 
        specifically provided by Congress.''

    Question 8. Omitted by the Committee.
    Question 9. You have said that the reason for the change from the 
2001 Policies is to provide more clarity, but you propose to remove 
sections which unambiguously place conservation and resource protection 
as the National Park Service's primary purpose. You also propose to 
remove language describing how the courts ``have consistently 
interpreted the Organic Act, in decisions that variously describe it as 
making `resource protection the primary goal' or `resource protection 
the overarching concern' or as establishing a `primary mission of 
resource conservation,' a `conservation mandate,' an `overriding 
preservation mandate,' and `overarching goal of resource protection,' 
or `but a single purpose, namely conservation.' ''
    a. Does the National Park Service still believe that its 
overarching and primary purpose is conservation and resource 
protection?
    b. If so, how does removing this language provide any 
clarification?
    Answer. Yes, as the quotes in the above answer to question 7 make 
clear. Please review the entire introduction to the draft policies and 
all of Chapter one including the many components of Section 1.4 which 
includes significant information relevant to this question. The clarity 
provided in this document cannot be found by taking one quote out of 
context but must be read as a manager would read the document, in its 
entirety. This can be found in Section 1.4 as well as Chapter one as a 
whole. Section 1.4.1 discusses the laws governing park management, 
1.4.2 discusses the terms Derogation and Impairment, 1.4.3 pertains to 
enjoyment of resources without impairment, 1.4.3.1 discusses 
appropriate use, 1.4.3.2 discusses unacceptable impacts and prevention 
of impairment, 1.4.4 discusses the prohibition of impairment, 1.4.5 
discusses what constitutes impairment, 1.4.7 discusses decision-making 
to avoid impairment. The draft management policies at Section 1.4.3., 
state ``Congress established the overarching mission for national 
parks, which is to protect park resources and values to ensure that 
these resources are maintained in as good or better condition for the 
enjoyment of future generations.'' While the NPS continues to assert 
that its overarching mission is the protection of park resources, the 
agency also acknowledges its strong commitment to provide for public 
enjoyment of park resources and values. As the courts have repeatedly 
found in upholding NPS decisions over the years reflecting both 
conservation and use, these obligations are not mutually exclusive. The 
language within the policies is an effort to recognize the commitment 
to resource protection and visitor enjoyment, as expressed in the 1916 
Organic Act. Some of the new and revised language embodies NPS's effort 
to provide better guidance and tools to park managers for these kinds 
of decisions. In addition, NPS staff sought to eliminate redundant and 
inconsistent language and to provide clarifying language where they 
believed it to be appropriate. We will be carefully considering the 
comments submitted from both the public and internal sources to see if 
these changes improved clarity.
    Question 10. To maintain relevance in the 21st century the National 
Park Service must offer sites and programs, such as the proposed 
``Peopling of America'' theme survey, that commemorate the history and 
culture of all peoples who've contributed to the evolution and 
development of this nation.
    a. Will rewrites to management policies that require officials to 
first consider available funding before making new park feasibility 
recommendations (Sec. 1.3.3) undermine ongoing efforts by NPS staff to 
tell the full story of the United States?
    b. And if so, does that then increase the risk of our national 
parks becoming increasingly less relevant to a rapidly growing segment 
of the American public?
    Answer. No. But one key factor is financial. We have to be prudent 
in the selection of new parks. However, both we and Congress, in 
considering the establishment of new parks must take into account how 
doing so will affect the operation of the remainder of the system.
    The NPS is continuing to tell the full story of the United States 
through the development of new historical themes, studies, and 
interpretive programs associated with the existing national parks. For 
example, the Charles Pinckney National Historic Site near Charleston, 
South Carolina, was established to commemorate Charles Pinckney and his 
role in the development of the United States Constitution. Because of 
extensive archeological work undertaken over the past two decades, the 
NPS staff at the Pinckney site now interprets the influences of the 
African Americans in the development of the property.
    In addition, the National Historic Landmarks (NHL) and the National 
Register of Historic Places (NR) programs are increasingly recognizing 
historic places associated with the nation's diverse cultural groups 
through NHL designations and NR listings. The NHL files are digitized 
and available to the public, upon request, and the NR nominations 
associated with diverse ethnic groups are in the process of being 
digitized. Additional NPS programs--the Historic American Buildings 
Survey, the Historic American Engineering Record, and the Historic 
American Landscapes Survey--also are increasingly documenting 
properties associated with the nation's cultural groups. These records 
are maintained by the Library of Congress (LOC) and are available 
electronically through the LOC website.
    Through these and other activities, the NPS is determined to 
maintain and enhance the relevancy of the National Park System to all 
segments of American society. While the addition of new parks 
associated with cultural groups may sometimes be helpful in expanding 
the NPS ability to tell the nation's stories, it is not the only way to 
address this issue. The existing parks and programs continue to offer 
rich opportunities to expand our interpretive opportunities.
    Question 11. I assume that something caused current leadership to 
take a hard look at its 2001 management policies. Please provide two or 
three examples of incidents or management decisions that occurred 
within the national park system in the past four years that make it 
necessary to revise the management policies.
    Answer. Please refer to the answer for question 1. It would be 
inaccurate to attribute a single management decision or incident as the 
driving force for revising the Management Policies.
    Question 12. What changes do you anticipate in park management at 
Grand Teton, Denali, Big Bend, Rocky Mountain, Great Smoky Mountains, 
Olympic and other parks if these policies are implemented?
    Answer. Adoption of the draft polices would result in better 
informed decision making at Grand Teton, Denali, Big Bend, Rocky 
Mountain, Great Smoky Mountains, Olympic and all other National Park 
System units. Many of the proposed revisions made to the 2001 document 
were based on the guiding principle of providing park managers with 
clear, concise, and relevant statements of policy and procedures on 
which to base management decisions. We believe that the final revised 
document will achieve that goal. In the draft policies, managers will 
find detailed definitions of key management terms and descriptions of 
up to date management tools. This draft provides the tools for park 
managers to accurately define ``unacceptable impacts'' to park 
resources, ``appropriate uses'' of parks, and ``professional judgment'' 
to facilitate consistent and quality decision making.
    Other improvements affecting park management include the draft 
policy's emphasis on cooperative conservation and best management 
practices. The draft management policies direct managers to develop and 
utilize an improved understanding of the interrelationships within 
ecosystems and to find solutions to difficult management questions 
through the use of best available technology, the application of 
adaptive management, and the use of better baseline data. Managers will 
also find direction to utilize contemporary business practices and an 
emphasis on cooperative conservation and civic engagement. The draft 
policies will result in better articulated decision making processes 
and cooperative and collaborative relationships with neighboring 
agencies and communities. In turn, these will contribute to better 
public understanding of the NPS mission.
    The draft policies also remove language from the 2001 edition that 
appeared inconsistent or confusing. The tone of the document has been 
improved so that there is no misunderstanding about the NPS's 
commitment to public enjoyment of park resources and values. The draft 
policies also make clear that ``in cases of uncertainty as to the 
impacts of activities on park resources, the Service will protect the 
natural resources and strive to reduce uncertainty by facilitating and 
building science based understanding.'' Ultimately, the clear direction 
provided in the draft policies would enhance the ability of park 
managers to implement sustainable, science based, collaborative 
decisions that, in turn, would achieve the ultimate objective of 
protecting park resources for this and future generations.
    Question 13. Will the proposed policies allow more mining, or oil 
and gas leasing, exploration, or production in NPS units?
    Answer. No. The draft management policies make no substantive 
change in these areas. Oil, gas or mining activities are only allowed 
in accordance with valid existing rights at the time the park unit was 
established and are subject to reasonable regulation to protect park 
resources and values. The establishment of park units eliminates the 
possibility of oil and gas leasing taking place or the ability to 
locate new mining claims in the park unit unless Congress specifies 
otherwise.
    Question 14. Do the proposed policies change wilderness management, 
wilderness studies or the protection of wilderness characteristics in 
areas recommended for wilderness designation?
    Answer. The draft Management Policies would not change wilderness 
studies or the protection of wilderness characteristics in areas 
recommended for wilderness designation. They would change wilderness 
management to the following limited extent, as explained in Section 
6.3.1:

          Lands that were originally deemed eligible [for wilderness 
        designation], but which were not included in the wilderness 
        recommendation sent to Congress, will no longer be managed 
        under the provisions of the [wilderness management] policies. 
        They will, however, be managed in accordance with the same high 
        standards to which all other NPS lands are managed. . . . The 
        National Park Service will take no action that would diminish 
        the wilderness eligibility of an area possessing wilderness 
        characteristics until the legislative process of wilderness 
        designation has been completed. For wilderness eligible and 
        study lands, no actions that would diminish the existing 
        character and values of the area will be taken.

    Question 15. Is it true that the new policies diminish air quality 
standards?
    Answer. No. The draft polices at 4.7.1 continue to state that ``the 
NPS has a responsibility to protect air quality under both the 1916 
Organic Act and the Clean Air Act. . . . The Service will assume an 
aggressive role in promoting and pursuing measures to protect these 
values from adverse impacts of air pollution. In cases of doubt as to 
impacts of existing or potential air pollution on park resources, the 
Service will err on the side of protecting air quality and related 
values for future generations.''
    Question 16. Will the proposed policies expand hunting or 
commercial grazing in park units?
    Answer. No. Hunting and commercial grazing are uses of park 
resources that only occur when authorized or mandated by Congress.
    The only change made to commercial grazing at all was to clarify 
that a number of park units have within their establishing legislation 
or proclamations a specific provision authorizing or directing that 
hunting or commercial grazing be allowed. In most cases, this is 
because those activities were conducted within the area prior to 
establishment as a park unit or were determined to be part of the 
historic character of the park. The policies also clarify the 
distinction between commercial grazing and the grazing of recreational 
trail stock (e.g., stock use for authorized commercial horseback trips.
    The draft policies do clarify that Congressionally authorized uses 
require the NPS to ensure that these activities are appropriate uses 
and the manager may limit or regulate these uses to protect park 
resources consistent with the provisions of the enabling legislation.
    Question 17. Will the proposed policies allow more commercial 
operations inside parks?
    Answer. No. Like the current policies, the draft management 
policies reflect the applicable legal requirements. The development of 
public accommodations, facilities and services in parks is generally 
limited by statute to those services that are necessary and appropriate 
for public use and enjoyment of the park unit in which they are 
located. Various parks are developing commercial services plans with 
public input, using best available science and other information in 
order to determine the appropriate level of visitor services to be 
provided by commercial services.
    Question 18. Do the proposed policies replace evolution with 
creationism?
    Answer. No. The document maintains the long-standing NPS tradition 
of commitment to science. Scholarship continues to serve as the basis 
for decision making, and evolution is acknowledged as a biological 
process present in parks.
    Question 19. Do the proposed policies change the role of 
superintendents in managing parks?
    Answer. The superintendent's role is clarified and strengthened and 
it continues to be the park superintendent's job to make decisions 
about what uses may be allowed that will provide for enjoyment and 
ensure that the resources are kept in as good a condition, or better, 
for the enjoyment of present and future generations. The draft policies 
provide clear guidance about what is entailed in determining 
appropriate uses of parks and provide guidance on what is meant by the 
phrase ``in the professional judgment'' of park managers. The draft 
policies define ``professional judgment'' as a process that includes 
consultation with resource professionals and subject matter experts, 
best available science, civic engagement, public input, and cooperative 
conservation. The draft policies encourage all superintendents to ask 
the same questions, while recognizing that the answers will be unique 
to particular resources.
    Question 20. You stated in your testimony that development of new 
technology has necessitated the need to revise the management policies.
    a. Please explain the ``new technology'' that you claim requires 
proposed changes.
    b. Is any of this same technology utilized by the NPS in managing 
the parks?
    c. If so, provide examples.
    d. Is there a need to expand application of new technologies within 
parks?
    Answer. It would be difficult to imagine that any government agency 
could remain relevant and effective in the 21st century without 
embracing new technologies. This is profoundly true within the NPS. The 
draft management policies do not direct park mangers to utilize certain 
technologies, but they do direct managers to embrace new science and 
technology to resolve management issues and to assist in fulfilling our 
mission. Park managers must also be aware of what new technologies do 
to uses of the parks and both increasing and decreasing impacts on park 
resources. For example, the draft policies encourage the use of 
adaptive management to incorporate new technologies and scientific 
advancements to test their efficacy and applicability in addressing 
issues in areas such as visitor use and wildlife management. The 
policies also direct managers to incorporate the use of best available 
technology (BAT). Currently, park managers use the concept of BAT to 
minimize the effects of certain methods of transportation, notably 
snowmobiles and snowcoaches in Yellowstone National Park. As new 
technologies such as four-stroke motors and quieter airplanes become 
available, it is easy to imagine that park managers would incorporate 
BAT to minimize adverse effects to park resources and values wherever 
practicable and appropriate. The draft polices provide this forward 
thinking guidance. New technologies also make possible richer visitor 
experience; for example, new ski equipment has changed uses in Grand 
Teton, cell phones have affected rescue operations at Denali, bicycles 
have changed the use at Canyonlands, GPS has changed route-finding in 
many parks, and hand-held audio devices have provided historic and 
other narration in various park units. The use of new technologies, as 
appropriate, is also consistent with other provisions in the policies, 
such as Sec. 1.6, which continues to call for NPS to demonstrate 
environmental leadership.
    Question 21. The Organic Act of 1916 is the foundation for 
operating the National Park System. The law is very direct in outlining 
the Park Service's responsibilities and it is enforceable in court. 
Page 6 of the proposed policies states that the policies, ``do not 
create any right or benefit, substantive or procedural, enforceable at 
law. . . .'' Why are the policies needed if they are not enforceable 
and the law clearly states your responsibilities?
    Answer. Management Policies are necessary to set the framework and 
provide direction to NPS employees for making management decisions in 
administration of the National Park System and NPS programs. They often 
go beyond the text of the statutes and regulations on which they are 
based to clarify and provide policy guidance in particular decision-
making situations where the law allows agency discretion. Contrary to 
the premise of the question, the governing laws and regulations 
(including the Organic Act of 1916) do not always provide clear 
direction for a particular management decision. The courts have 
recognized such ambiguities, and have also noted the broad discretion 
afforded NPS in making various management decisions consistent with the 
Organic Act. NPS Management Policies are thus an important tool that 
encourages appropriate Service-wide consistency in administering NPS 
units and programs. They are policy and not law, however, and while 
adherence to Management Policies by NPS employees is generally binding 
for internal management purposes only, the policies themselves address 
a wide variety of situations, allowing waivers and modifications with 
justification.
    Question 22. Two years after the current policies were issued, NPS 
Director Fran Mainella wrote to the House Resources Committee that she 
had ``already begun a systematic review of the NPS Management Policies 
of 2001,'' and that ``there may be some areas fin the 2001 policies) 
that may be inconsistent with the President and the Secretary's 
position regarding access to their National Parks.''
    a. What areas of the 2001 policies are inconsistent with the 
President's and the Secretary's position regarding access to their 
National Parks?
    b. How are they inconsistent?
    c. What has been done in the 2005 document to correct each 
inconsistency?
    Answer. We have found that some who read the 2001 policies may get 
the mistaken impression that the Service considers access for public 
enjoyment a distant and secondary purpose of the parks. We have 
therefore taken steps to make it clearer that the Service fully 
embraces the ``enjoyment'' dimension of the Organic Act. We have also 
rephrased some of the policies in subtle but important ways to replace 
what had been a negative statement with a positive statement. This does 
not mean that the substance of the policy has changed; it means that 
policy is stated in a more positive way so that the reader will be less 
likely to infer that the NPS is hostile toward public use and 
enjoyment.
    Question 23. There are many references to sustainability within 
these policies that seem to equate to financing the NPS mission. Given 
that we, Congress, provide the NPS funding through the appropriations 
process, it could be thought of as usurping congressional powers. 
Obviously this is not the intent. Nevertheless, a clear understanding 
of sustainability needs to be established. Please explain.
    Answer. The concept of sustainability is intended to address the 
capacity of NPS to manage the resources--natural, cultural, human, 
physical, fiscal--entrusted to the agency in a way that can be 
supported over time. This includes better supported decisions that can 
be sustained from a policy, a practice, financial soundness and good 
scientific basis. Our conversations with members of our appropriations 
committees and their staff indicate they expect us to focus on 
sustainability and that NPS cannot make decisions that simply assume 
future funding increases are always available to pay for its 
undertakings. Thus, whether it is the out-year operational implications 
of a newly constructed facility, or the short-term cost implications of 
hiring a permanent rather than temporary employee to accomplish work, 
the draft policies reinforce the need for managers to consider 
sustainability. In other instances, sustainability is deployed in 
facility design that incorporates low energy usage (such as light 
fixtures that turn off after no motion in a room for a specified period 
of time), enhanced use of recycled materials, passive heating, and 
other similar design approaches that cause a facility to be more 
``environmentally friendly''.
    Question 24. On October 18 when the revised draft was released the 
Park Service issued a press release stating that the revision to the 
management policies was being undertaken ``in response to interest from 
Congress,'' and that ``park managers had also urged revisions that 
addressed the changing needs and circumstances of parks.''
    a. What is the ``interest from Congress'' that the NPS is 
responding to by changing the management policies.
    b. What are the ``changing needs and circumstances of parks'' that 
led park managers to urge revision to the policies?
    c. Which specific parks have the most urgent and compelling need to 
change the management policies and why?
    Answer. Please refer to the responses to question 1.
    Question 25. The press release also stated that ``nearly 100 NPS 
career professionals were involved in drafting or reviewing the changes 
over the past few months'': This equates to less than one third of the 
managers responsible for implementing the management policies.
    a. How many people in the NPS have planning and management 
responsibilities?
    Answer. The question appears to reference the number of park 
superintendents and other upper level NPS managers. Although the 
Federal Personnel and Payroll System (FPPS) indicates a total of more 
than 3,000 supervisors, managers, and management officials in the NPS, 
this total includes many people who do not carry out the level of 
planning and management envisioned by the question. The actual number 
would be much lower depending upon how planning and management 
responsibilities are defined. Our practice is to prepare a draft 
document, which is now available, and our intent has always been for 
any interested staff to be able to comment once a draft document was 
produced.
    Question 25b. How many people were involved in the 2001 rewrite?
    Answer. It is impossible to say, because the program managers who 
provided most of the initial input were not asked to record the names 
of all those with whom they consulted or who participated in various 
work groups that were set up to focus on particular topics. Also, to 
promote efficiency, many of the substantive suggestions for improvement 
were consolidated by program managers and regional offices, without a 
specific tally of the number of individuals who contributed. We would 
estimate at least 300.
    Question 25c. Please explain differences in the review processes 
between the 2001 and 2005 management policies.
    Answer. The 2001 process essentially began with publication in June 
1998 of a notice of intent to update the 1988 edition of Management 
Policies. The notice asked the public to review the 1988 document and 
provide information or suggestions that the NPS should consider. NPS 
program managers then produced draft revisions to the 1988 edition 
which were circulated for internal NPS review and comment. NPS program 
managers considered comments received from the internal review, and a 
second draft was released for internal review and comment. Six months 
later a third draft was released, for both internal and public review 
and comment. In April of 2000, comments received were distributed to 
NPS program managers for consideration. During this process, the NPS 
was involved in an important lawsuit pertaining to the Organic Act's 
prohibition of impairment. Personnel within the Assistant Secretary for 
Fish and Wildlife and Parks' office participated extensively in 
drafting the policy section relating to impairment. A final draft was 
then prepared and underwent final review and editing by senior NPS and 
DOI managers. The finished product was approved by the Director in 
December 2000.
    The 2005 process is just beginning. In July 2005, the Deputy 
Assistant Secretary for Fish and Wildlife and Parks presented for NPS's 
review his initial recommendations for updates to the policies. This 
document served as a starting point for discussion. Starting with a 
meeting of the National Leadership Council, consisting of approximately 
20 senior NPS managers, NPS career employees were then assigned to 
review and evaluate the 2001 Management Policies. At the same time, 
they were asked to consider other revisions or additions that would 
improve the policies from the NPS's perspective. For example, NPS staff 
integrated the policy work that was already completed or underway on 
topics such as civic engagement, park planning, and wilderness 
stewardship. This career staff work resulted in the draft document that 
was issued October 19 for review and comment by the public and by all 
NPS employees.
    The draft document that was released is by no means a final 
product. We expect to receive additional input from hundreds of NPS 
career staff who had not participated in the initial stages of this 
process. We also expect to receive substantial input from the public. 
When the comment period closes on February 18, the comments will be 
reviewed, analyzed, and organized by NPS policy staff together with NPS 
subject matter experts and other staff who participated in the initial 
drafting process. Recommendations for how, or whether, the comments 
necessitate refinements to the current draft will then be presented to 
the senior leadership team to determine appropriate action. The final 
draft will also undergo review by the NPS Advisory Board. In addition 
to public review a final draft will undergo close review and final 
editing by senior NPS and DOI managers as has been done with previous 
policies. The new edition of Management Policies 2006 will be finalized 
upon the Director's signature.
    Question 26. The Organic Act states ``provide for'' enjoyment as 
directing the NPS to allow recreation, there is no requirement to 
``provide enjoyment'' the subtle word ``for'' is critically important. 
Please show the Committee where the 1916 Organic Act ``requires'' 
visitor recreation.
    Answer. The 1916 Organic Act does not ``require'' visitor 
recreation as such, but it does state, as this question suggests, that 
part of the fundamental purpose of park areas is ``to provide for the 
enjoyment'' of park resources and values so as to leave these resources 
and values unimpaired ``for the enjoyment'' of future generations. Our 
current and draft Management Policies both note that ``[t]he 
`enjoyment' that is contemplated by the statute is broad . . ., 
includ[ing] enjoyment both by people who visit parks and by those who 
appreciate them from afar . . . [and also including] deriving benefit 
(including scientific knowledge) and inspiration from parks. . . .''
    Of course, recreation is a form of enjoyment, and the NPS has 
welcomed appropriate recreation in the parks from the earliest days. 
Recreation in parks has a long history, dating back to the creation of 
the earliest parks. The Organic Act, written in that context, clearly 
considered enjoyment to encompass, where consistent with protection of 
park resources, various forms of recreation. The 1925 management 
policies, for example, stated that ``[a]ll outdoor sports within the 
safeguards thrown around the national parks by law, should be heartily 
endorsed and aided wherever possible. Mountain climbing, horseback 
riding, walking, motoring, swimming, boating, and fishing will ever be 
the favorite sports.''
    The word ``recreation'' itself has a broad meaning, including 
everything from quiet inspiration to thrill-seeking. Not all forms of 
recreation will be appropriate uses in parks. Management Policies 
provide guidance to managers on how to determine what types, levels, 
and other specifics of visitor recreation are appropriate in the 
various park units.
    Question 27. You talk about ``enjoyment'' of the Parks as one of 
the fundamental purposes of the National Park Service, but is enjoyment 
to include something more than enjoyment of the natural wonders of the 
Parks? In other words, enjoyment could include thrill riding on all-
terrain vehicles. Is that included in your concept of enjoyment which 
is a fundamental purpose of the Park Service?
    Answer. No. The 1916 Organic Act, as amended and supplemented, 
states that part of the fundamental purpose of park areas is ``to 
provide for the enjoyment'' of park resources and values so as to leave 
these resources and values unimpaired ``for the enjoyment'' of future 
generations. The governing park law thus contemplates a connection 
between the enjoyment and the resources and values to be protected.
    People do come to parks for a wide range of enjoyment. To be sure, 
those who have climbed Denali or run the rapids of the Colorado River 
in Grand Canyon have experienced a thrill. Visitors in the wilds of 
Gates of the Arctic have experienced and enjoyed solitude, and those on 
the National Mall or Independence Hall have experienced and enjoyed 
history. To fully understand what is meant by the draft, please read 
the Introduction, Chapter one and Chapter eight.
    ``Thrill-riding'' on all-terrain vehicles (ATV) would not seem to 
have the appropriate connection with park resources and values, 
although using an ATV, where authorized, to seek access to park 
resources might, provided that unacceptable impacts do not occur. To 
help the NPS manager make a decision about any proposed use, the draft 
policies expand upon previous guidance in order to determine what 
constitutes ``appropriate use'' of, and ``unacceptable impacts'' to, 
parks.
    Question 28. In numerous examples throughout the document, the 
words ``The Service will'' have been replaced with ``The Service will 
strive to''. It would seem that this change reduces the goal to making 
an effort, rather than achieving a result. Does this imply that if the 
NPS fails to maintain resource integrity it has not failed to adhere to 
policy because it at least tried? Does this mean the NPS will reduce 
its accountability to the American people because it at least tried?
    Answer. No. This change will in no way reduce our commitment to 
protect park resources or values, to maintain resource integrity, or to 
be accountable to the American people. This choice of words is 
basically a ``reality check,'' acknowledging that the goals that the 
Service has set for itself may not always be totally achievable or 
totally within the control of NPS. The term ``strive to'' is not new to 
the draft policies; it appears 19 times in the 2001 edition and has 
never before been the basis for challenging the Service's commitment to 
fulfill its mission.
    Question 29. In your proposed new definition of impairment, you 
require that an impact be ``significant'' to constitute impairment. 
Previously, impairment was considered to be any impact that in the 
professional judgment of the responsible National Park Service manager 
would harm the integrity of Park resources or values. How do you 
explain the addition of the requirement that the impact be 
``significant'' if it is not intended to reduce protection for 
resources and values?
    Answer. This was an attempt to bring clarity to the definition of 
impairment. We have not, in any way, diminished the standard. The NPS 
still considers any action that would harm the integrity of park 
resources or values to be impairment. An impact that harms the 
integrity of park resources or values would be significant. We will be 
carefully considering the comments submitted from both the public and 
internal sources to see if changes in the proposed definition are 
necessary.
    Question 30. What is the difference between ``significant'' and 
``adverse''? Which is harder to demonstrate? (Significant appears to 
require 2 tests--one to determine if the impact is adverse and one to 
determine if the impact is significant) Why does an impact have to be 
significant if it is adverse? Can you give me examples of adverse 
impacts that would not be significant?
    Answer. ``Adverse'' means unfavorable, undesirable, negative, or 
harmful. ``Significant'' means important or of consequence. As used in 
the context of the Management Policies, adverse impacts are a sometimes 
inevitable result of visitor activities or park management activities. 
For example, creating a trail, clearing a scenic overlook, or allowing 
visitors to consume wild berries would produce adverse impacts on park 
resources. But we often pursue or allow these types of activities 
because they help us achieve our broader goals and, relatively 
speaking, the impacts are not of great consequence. However, given 
different circumstances the impacts could be much greater. For example, 
if the trail were created through highly erodable soils, or if the 
vegetation cleared from the overlook exposed a sensitive archeological 
site, or if the wild berries were an important food source for a 
particular bird species, then the impacts might be significant and we 
would look for ways to avoid or mitigate the impacts, or refrain from 
undertaking the activity. These nuances are sometimes difficult to 
discern and to articulate. That is one reason why the draft revisions 
call for a determination by park managers whether ``unacceptable 
impacts'' will result from an action rather than simply the existence 
of ``adverse impacts''.
    Question 31. The reference sections throughout the draft seem to 
refer back to the 2001 Management Policies. Will these be included to 
add further clarification back to the 2001 Management Policies or will 
they be updated to refer to the current draft?
    Answer. They will be updated to refer to the current draft.
    Question 32. Park managers utilize the ``Superintendent's 
Compendium'' as a very effective means to insure that management 
policies are implemented at each unit throughout the NPS.
    a. How does the compendium relate to the Management Policies and 
fit in to the Law, Policy and Other Guidance section within the preface 
of the document?
    Answer. As authorized by regulation (36 C.F.R. 1.5, 1.7), the 
Superintendent's Compendium is a written compilation of decisions made 
under the Superintendent's discretionary authority affecting operations 
at that park. The decisions contained in the Superintendent's 
Compendium first and foremost must comply with the applicable statutory 
and regulatory provisions involved, and secondarily to the Management 
Policies.
    Question 32b. Why is there no reference to it?
    Answer. The Superintendent's Compendium is a mechanism to implement 
legal and policy decisions. Its use is described in regulation, and NPS 
has not seen a need to discuss it in Management Policies to date.
    Question 33. The 2001 Management Policies included a strong 
statement on how park managers should manage visitor use demands 
regarding resource protection:

          ``Congress, recognizing that the enjoyment by future 
        generations of the national parks can be ensured only if the 
        superb quality of park resources and values is left unimpaired, 
        has provided when there is a conflict between conserving 
        resources and values and providing for enjoyment of them, 
        conservation is to be predominant.'' (2001 NPS Management 
        Policies, at 12.)

    This directive has been removed in the revised draft. New language 
has been added which states:

          ``The impairment of park resources and values may not be 
        allowed by the [Park] Service unless directly and specifically 
        provided for by legislation or by the proclamation establishing 
        the park . . . The impairment that is prohibited by the Organic 
        Act and the General Authorities Act is a significant impact 
        that, in the professional judgment of the responsible NPS 
        manager, would otherwise harm the integrity of park resources 
        and values, including the opportunities that would otherwise be 
        present for the enjoyment of those resources and values.'' 
        (2005 Draft NPS Management Policies, at 1-18.)

    a. What difficulties have park managers encountered in the course 
of managing parks under the 2001 language?
    Answer. The observation noted above is incorrect in that the ``new 
language'' is not new; it is carried forward verbatim (except for the 
insertion of the word ``significant,'' as explained in the answer to 
question 29, above) from Section 1.4.4 of the 2001 edition of 
Management Policies. It is accurate, however, that the previously 
quoted material (from Section 1.4.3) has been removed in the revised 
draft. The wording that was substituted says ``Because the enjoyment of 
park resources and values by present and future generations is 
dependent on their preservation, when there are concerns as to whether 
an activity will cause an impairment, the Service will protect the 
resources while taking appropriate steps, including scientific study 
and public involvement, to resolve the concerns.''
    Superintendents often face difficult decisions about activities in 
parks. The draft policies provide greater explanation of what 
constitutes an ``appropriate use'' of parks and what impacts are 
``unacceptable.'' For the reasons stated in many of the above 
questions, we strongly believe that the tools contained in the draft 
policies will enable managers to make more informed and thus better 
decisions in the future. The draft policies establish a process for 
park managers to apply the conservation principles underlying the 
Organic Act in order to make future decisions that are well reasoned 
and understandable and not considered arbitrary and capricious.
    Question 33b. What activities will be allowed under the 2005 
language that would not have been allowed under the 2001 language?
    Answer. We are not aware of any activities that would be allowed 
under the new language that would not have been allowed under the 2001 
language. However, the intent of some of the edits to the policies is 
to ensure that NPS decision makers (whether at the park, regional, or 
headquarters level) give thoughtful consideration to proposed new 
activities and be prepared to explain why an activity would, or would 
not, be allowed. This change is a reflection of our goal to improve 
what some readers have considered a ``negative tone,'' and to more 
constructively communicate with all those who would find the parks a 
source of enjoyment. By more constructively communicating with visitors 
(or potential visitors), NPS managers will better understand the 
viewpoints of others and have the opportunity to better communicate the 
NPS mission to them. It is possible that improved communication would 
result in new activities being allowed through creative management 
solutions. But any decision to authorize an activity would be subject 
to the stringent criteria for ``appropriate use'' and ``unacceptable 
impacts.''
    Question 34. Do you feel the changes in the key section 1.4.3 (the 
NPS obligation to conserve resources) would in any way compromise our 
parks?
    Answer. No, as stated in several answers above, the changes made to 
Section 1.4.3 of the draft policies were intended to clarify and to 
improve the overall tone of the document and to assist decision-making. 
The NPS remains committed to the protection of park resources and 
values and when there is a conflict between conserving park resources 
and values and providing for the enjoyment of them, conservation of the 
resources will continue to prevail.
    Question 35. Section 2 includes a quote. Why is a quote at the 
beginning of Section 2 and no others? Should the quote be removed to 
improve consistency?
    Answer. Chapter 2 addresses the topic of park planning. Park 
planning is a vitally important activity because it is the mechanism by 
which the NPS, following extensive input from the public, articulates a 
vision for each park's future. Planning is at the crossroads where the 
Service's responsibility to conserve park resources and values must be 
reconciled with the ways and means by which this and future generations 
will be able to enjoy those resources and values. As was stated in the 
1988 edition of Management Policies, ``There will inevitably be some 
tension between conservation of resources on the one hand and public 
enjoyment on the other. The National Park Service is charged with the 
difficult task of achieving both.'' We have found that some who read 
the 2001 policies may get the mistaken impression that the Service 
considers public enjoyment a distant and secondary purpose of the 
parks. We have therefore taken steps to make it clearer that the 
Service fully embraces the ``enjoyment'' provision of the Organic Act. 
One of those steps was to include the quoted material as a reminder to 
not lose sight of the fact that the fundamental purpose of all parks 
includes providing for the enjoyment of park resources and values by 
the people of the United States: Including the quote does not create a 
consistency problem. If we were to come upon equally appropriate quotes 
for other chapters, we would be happy to consider them, as well.
    Question 36. Section 2 includes a time frame for General Management 
Plans. Why are there no time frame references for other plans? Please 
include time frames for all referenced plans.
    Answer. Although Congress has directed the preparation of general 
management plans (GMPs) within a certain timeframe in the establishing 
legislation for some parks, Congress has not generally prescribed a 
specific interval for updating GMPs but has left it to the Service to 
ensure that they are prepared and updated ``in a timely manner.'' 16 
U.S.C. Sec. 1a-7(b). Updates of GMPs are usually needed every 10-15 
years to ensure that they are current, but if conditions around the 
park are changing rapidly, updates may be needed more often. These are 
broad plans that set overall park direction in terms of management 
zoning and desired condition statements. Other park plans tier from the 
park's GMP.
    Program management plans, which provide a bridge between GMP's and 
more specific strategic or implementation plans, are generally reviewed 
every 5-10 years to ensure currency.
    Strategic plans are prepared every three years and their associated 
annual performance plans are prepared every year. These plans provide 5 
year and 1 year performance goals to implement the park's GMP and 
program plans.
    Timeframes for preparing implementation plans vary considerably, 
depending on the nature of the plans and the circumstances relevant to 
the particular park units. Generally, these plans are short-term and 
may be valid for a few years, or until implemented. These are the plans 
that provide the specific actions to implement the GMP desired 
conditions and the strategic plan goals.
    Question 37. In Sec. 4.4.2.2 the Restoration of Native Plant and 
Animal Species, you have added a criterion to read, ``The impacts on 
park management including the opportunities for enjoyment of park 
resources and values have been carefully considered.'' With that new 
proviso, could that have prevented the reintroduction of wolves into 
Yellowstone National Park?
    Answer. No. Given that opportunity for enjoyment of park resources 
and values depends on park natural resources ideally being in an intact 
condition of integrity, restoring an extirpated species moves a park 
closer to integrity and therefore improves the opportunity for 
enjoyment. Therefore, while not necessary for the decision to restore 
the wolf to Yellowstone, assessing the impact of restoration on 
enjoyment, if done objectively, would actually support the decision to 
reintroduce wolves rather than prevent it. The interest of so many 
visitors to Yellowstone in viewing wolves demonstrates the importance 
of this component of ecological integrity to enjoyment of the park.
    Question 38. Section 4 of the current policies describe ``scenic 
views'' as a ``highly valued'' feature of the parks, but the redraft 
deletes the term ``highly valued.'' Congress established that scenic 
views in the parks are highly valued by enacting the 1977 Clean Air 
Act, which establishes the national goal of preventing future, and 
remedying existing, impairment of visibility in national parks and 
wilderness areas by manmade pollution. Unfortunately, many parks remain 
shrouded in haze, and even if current laws are fully enforced, scenic 
views will not be fully restored until 2064.
    a. Given the national goal of eliminating visibility impairment in 
the parks, and given the decades of concerted effort it will take to 
achieve that goal, why has the Department devalued scenic views in the 
policy redraft?
    Answer. The Department has not devalued scenic values. The Air 
Quality section makes it clear that the Service will ``seek to 
perpetuate the best possible air quality in parks to protect: . . . 
scenic vistas. . . .''. Furthermore, we can assure you that we are 
strongly committed to protecting scenic views and will continue to work 
with State, federal and Tribal regulators, as well as the public, to 
achieve the Clean Air Act's visibility goals.
    Question 38b. Shouldn't the Department instead be strengthening the 
policies to provide even greater protection of scenic views in the 
parks?
    Answer. We did not intend the draft policies to cause diminution in 
the ability of visitors to enjoy the parks. Management Policies provide 
appropriate actions for NPS to take to encourage relevant decision-
makers in other organizations to take necessary steps to protect scenic 
views in parks. The draft policies text properly reflects the NPS's 
commitment to protecting scenic views and to continue the NPS's work 
with State, federal, and Tribal regulators, as well as stakeholders, to 
achieve the Clean Air Act's visibility goals.
    Question 39. Section 4 of the current policies includes ``clear 
skies'' among the core physical resources of the parks to be protected, 
but the redraft demotes ``clear skies'' to an ``associated 
characteristic,'' a term that is not defined or used elsewhere in the 
policies.
    a. Why is pollution free air not as essential to the parks as 
unspoiled water, soils, topographic features, geologic features, and 
paleontological resources, all of which remain among the core physical 
resources of the parks?
    Answer. Pollution free air is absolutely essential and as important 
as other park resources and values. The draft policies recognize 
``air'' as a physical resource, and ``clear skies'' as an associated 
characteristic, and both are to be preserved in an unimpaired 
condition. Clean air and clear skies are needed to maintain the 
ecological integrity of parks, reduce impacts to cultural resources of 
parks, and ensure effective enjoyment of parks.
    Question 39b. Does an ``associated characteristic'' get less 
protection than a physical resource?
    Answer. No. The draft policy revisions indicate that the 
``associated characteristics'' will be preserved as part of the natural 
resources, processes, systems, and values of parks. Achieving pollution 
free air, however, requires cooperation among a large number of 
entities. The Management Policies mention both air as a resource and 
clear skies as an associated characteristic. The Clean Air Act refers 
to ``air quality and air quality related values'' (such as visibility).
    Question 40. In the air resource management section of the current 
policies (4.7.1), the Park Service is directed to seek the modification 
or denial of any permit for a facility that would harm park air 
quality. In the redraft, the Service is directed to first work 
cooperatively with permitting authorities to seek ``technological 
solutions'' that would eliminate harmful impacts on park air quality, 
and to seek modification or denial of a permit only if cooperation 
fails to eliminate the impact.
    a. What sort of technological solutions are contemplated by this 
new language?
    Answer. Technological solutions include emission control 
technology, pollution prevention techniques, and operational practices 
which guarantee protection. The Clean Air Act requires new facilities 
to install the ``best available control technology,'' but permit 
applicants and permitting authorities take a number of factors into 
account in determining what is ``best.''
    Question 40b. Does the Park Service have the budget, expertise and 
authority to make and enforce judgments about complex technological 
solutions at various facilities necessary to eliminate adverse impacts 
on park air quality?
    Answer. The National Park Service Air Resources Division has the 
technical expertise to evaluate and suggest viable technological 
solutions and associated emission rates, in large part because the 
office reviews permit applications from all over the country and keeps 
abreast of the state of the art. For years, the NPS Air Resources 
Division has been able to suggest new pollution control technologies 
that may not have been chosen by permit applicants for one reason or 
another. Where there is an emission control technology or less 
polluting fuel that could be practical to implement, we suggest it. 
Another means of reducing pollution near parks is by trading emission 
credits to reduce the pollution impacting parks. However, we have no 
enforcement authority except to ask that the permitting authority 
consider our comments.
    Question 40c. Does the directive that the Park Service ``work 
cooperatively'' with permitting authorities diminish or weaken its role 
in defending the parks?
    Answer. No, it strengthens it. We have always worked cooperatively 
with permitting authorities to secure the best possible protection of 
park air quality and related values (including visibility). We are able 
to resolve our concerns in this way the vast majority of the time. 
Occasionally we have issued ``adverse impact'' findings, which often 
encourage the permitting authorities to enter into a dialog with us to 
resolve concerns.
    Question 40d. Why only permitting authorities, and why not also the 
public at large?
    Answer. Our communications with permitting authorities, as well as 
other data and information about air quality in parks are often of a 
highly technical nature and publicly available through the internet. We 
share information and correspondence, and work closely with the public, 
but we must work closely, often in a technical context, with the 
permitting authorities.
    Question 40e. Why is this ``associated characteristic'' not 
defined?
    Answer. The draft policy revisions indicate that ``associated 
characteristics'' will be preserved as part of the natural resources, 
processes, systems, and values of parks. We will carefully consider 
whether additional definition will make this an important factor more 
clearly understood.
    Question 41. In section 4 of the policy redraft, the term ``natural 
condition'' is redefined to include some human impacts on park 
resources like air quality. The Clean Air Act and EPA regulations 
require that air quality in Class I national parks be returned to 
natural visibility conditions, which according to EPA, means no man-
made air pollution impacts on visibility.
    a. Would the redefinition of ``natural condition'' allow the Park 
Service, EPA or the states to maintain that natural visibility 
condition in the parks including some level of man-made pollution?
    Answer. No. The Clean Air Act establishes the national goal of no 
man-made visibility impairment in Class I areas. Regulations 
promulgated by the Environmental Protection Agency (EPA) define 
``visibility impairment'' and ``natural conditions'' in a way that does 
not allow man-made pollution. States (and Tribes, if they choose) are 
required to develop plans that will make reasonable progress toward the 
national goal. The NPS policies will be interpreted in a manner 
consistent with EPA's definition.
    Question 41b. Would the redefinition of ``natural condition'' mean 
that some level of impairment of air quality by man-made pollution will 
be tolerated by the Department?
    Answer. No. The Department interprets the NPS Management Policies 
as consistent with statutory and regulatory definitions, and in concert 
with the process established by EPA to make reasonable progress toward 
natural conditions.
    Question 42. While the draft revision does note in Chapter 1 that 
the words ``protect, preserve and conserve'' are used interchangeably, 
it appears that selective deletions of the word ``preserve'' did occur. 
This draft still uses ``preserve'' in a number of instances. It notes 
that in Chapter 4, that ``Thermal resources in units of the national 
park system will be protected, preserved, and managed as a critical 
component of the units' natural resource systems. . . .'' And that 
``The Service will actively seek to understand and preserve the soil 
resources of parks, and to prevent, to the extent possible (instead of 
``practicable''), the unnatural erosion . . .'' ``Preserve'' also 
remains in the sections related to geological resources, geological 
hazards, and paleontogical resources. ``Preserve'' and the act of 
preservation connote a proactive stance towards park resources, whereas 
``protect'' and ``restore'' have a more defensive and reactive tone. 
But while the term ``preserve'' appears in those aforementioned 
sections in 2001 and in the draft revision, it's absent now from the 
section on soundscapes. In 2001, the management policies referring to 
park soundscapes (4.9) began with the sentence ``The National Park 
Service will preserve, to the greatest extent possible, the natural 
soundscapes of parks.'' Those policies also stated that the Park 
Service ``will protect the degradation of soundscapes due to noise 
(undesirable human-caused sound).'' That initial sentence which set a 
goal of preservation of natural soundscapes is missing from the new 
draft, and the phrase regarding `protection of degradation of 
soundscapes' now modifies noise with the adjective ``unacceptable.'' 
The natural soundscapes of parks seem to be one of the resources and 
values that genuinely make some of these places unique. And protection 
of park soundscapes underlies some of the most controversial issues 
that the Park Service has dealt with in recent years, such as jet ski 
use and commercial air tour overflights. Why then does this draft 
revision of the management policies omit the goal of preservation with 
regard to natural soundscapes?
    Answer. The draft policies recognize sound as a natural resource 
and natural soundscape as an associated characteristic. Natural sound 
clearly cannot be protected if the soundscape of which it is a part is 
not protected. While the words ``protect,'' ``preserve,'' and 
``conserve'' can have different connotations for different readers, the 
proposed policies state at the outset that these three words have 
``interchangeable'' (by which we meant ``synonymous'' or ``identical'') 
meanings for the purposes of the policies. Therefore, with respect to 
natural sound and the soundscape, the proposed policies call for 
preventing or minimizing unacceptable impacts to this natural resource. 
Although the words ``undesirable'' and ``unacceptable'' have different 
levels of intensity, in both cases with respect to soundscapes, the 
policy direction is to prevent the intrusion of those noises caused by 
humans that either would disrupt the natural processes mediated by the 
natural soundscape or reduce the levels of enjoyment experienced by 
park visitors. The soundscape policy has been modified to better 
reflect the diversity of the NPS system which in addition to many 
natural parks includes sites such as the New Orleans Jazz National 
Historical Park, the George Washington Memorial Parkway, and numerous 
urban sites for which it would be virtually impossible to minimize or 
eliminate human-caused sounds.
    Question 43. These proposed policies claim that they would hold 
individual park managers to be responsible for implementing these 
policies yet the requirement that cultural resource personnel should 
keep current with scholarship and scientific research is deleted. 
Keeping up with current scholarship and research helps to ensure the 
integrity of our parks. Please explain this omission.
    Answer. We agree entirely with the premise of this question but 
highlighting the need for training for only selected personnel was 
construed by some to imply that other career disciplines were less 
important. For that reason we added a new section 1.7.5.1--Career 
Development, Training and Management, to cover training and development 
for all employees.
    Question 44. Why has the Park Service decided to eliminate the 
reference to the Interpretive Competencies and Skills certification 
program that is an important tool in developing the professional 
interpretive skills of park and concessionaire naturalists? (7.4) Is 
this Certification program being phased out?
    Answer. There are no plans to phase out the Interpretive 
Competencies and Skills certification program. However, highlighting 
the need for training for only selected personnel was construed by some 
to imply that other career disciplines were less important. For that 
reason we added a new section 1.7.5.1--Career Development, Training and 
Management, to cover training and development for all employees.
    Question 45. In Sec. 7.4.8, a reference to military battle re-
enactments and the related memorial qualities was removed. The NPS 
maintains world renowned and revered examples of military strategy and 
the tragic events that led to substantial loss of human life. Will this 
omission potentially compromise that reputation?
    Answer. Absolutely not. The policy remains the same. The only 
change is to the explanation for why we have the policy.
    Question 46. In the draft revision of the management policies, a 
new sentence has been added to the section concerning airports and 
landing sites (8.4.8). It says that ``Fully functional, efficient, and 
safe operation of airports is important to providing visitors 
opportunities to use and enjoy their parks.'' That sentence now begins 
that paragraph which still states at its end that ``Whether landing 
sites or airports are situated within or adjacent to parks, the 
objective will be to minimize noise and other impacts, and confine them 
to the smallest and most appropriate portion of the park as possible, 
consistent with safe aircraft operations.'' I understand that there are 
a few airports in parks, such as Cape Cod National Seashore and Grand 
Teton National Park. There are air strips in some parks, like in 
Alaska, and helipads, for search and rescue and fire operations. And, 
the function, efficiency and safety of airports falls mainly to the FAA 
and state transportation agencies. If the Park Service's mission is to 
conserve resources, such as natural soundscapes, unimpaired, for the 
enjoyment of future generations, why would you give park managers 
instructions tying ``fully functional and efficient'' operation of 
airports to visitor enjoyment?
    Answer. The NPS and the FAA have joint responsibilities for 
operations for airports on NPS lands. The FAA is responsible for safe 
air operations in United States airspace. The NPS is responsible for 
protecting the resources of the park according to the Organic Act and 
the specific park enabling legislation. The language change in the 
current draft policies was for clarification and does not alter the 
ongoing relationship or responsibilities of the two parties. The NPS 
will continue to use its designated authorities to ensure that the 
airport and related operations maintain the smallest possible footprint 
in the park and that the flight paths and noise levels do not have 
unacceptable impacts on park resources.
    Question 47. Section 8.6.4.4, refers to gas pipelines. This seems 
out of place given the section is entitled Roads and Highways. Please 
correct.
    Answer. The reference to gas pipelines is the same as the language 
contained in the 2001 Management Policies, and is intended only to 
provide information relating to the absence of statutory requirements 
for right of ways on non-NPS roads and gas pipelines.
    Question 48. In Sec. 8.6.8.3, Management Plans for Agricultural 
Grazing, you have revised the guidance from ``will'' to ``should'' in 
the preparation of livestock management plans. It would seem that 
livestock management plans are essential in order to protect park 
resources; the failure to develop a livestock management plan at 
Dinosaur National Monument resulted in extreme livestock damage to 
sensitive areas of that park. Can you please explain the reasoning 
behind lessening this requirement for action?
    Answer. Planning is essential for agricultural livestock grazing. 
In some parks, that planning may be best accomplished by a stand-alone 
Livestock Management Plan. But in others, the planning may be equally 
well addressed in another park planning document such as a Resource 
Stewardship Plan. This planning may also be done in a combination of 
related plans, such as an Invasive Species Management Plan to address 
weeds and insect pests associated with agricultural grazing, and 
Vegetation Management Plans to address stocking rates and pasture 
rotation schedules.
    The mere existence of a plan, unfortunately, does not guarantee 
protection of the resource. It is unlikely that a livestock management 
plan at Dinosaur would have altered the incident referenced in the 
question. By spreading responsibility for livestock grazing management 
across multiple work disciplines (natural and cultural resource 
management, facilities, visitor use, and resource protection), the 
result should be greater, not lessened, success in agricultural 
livestock grazing management and resource protection.
    Question 49. The glossary does not include definitions for three 
key terms impairment, appropriateness, and unacceptable impact. Given 
that the document is to provide clarity for park managers all three of 
these terms should be included. Please explain.
    Answer. These important terms are defined in the Introduction so 
they would be understood prior to reading the document. However, to 
improve clarity we will also include these definitions in the Glossary.
    Question 50. The NPS Pacific West Regional Director prepared a memo 
in response to the initial policy document
    a. Please provide a copy of the memo.
    b. Indicate how the draft management policies were revised to 
address each of the concerns pointed out in the memo.
    c. Indicate how the draft management policies were revised to 
address each of the concerns pointed out in the memo.
    Answer. The referenced memo was an internal response to an initial 
internal draft document and in some instances may not have accurately 
portrayed the intentions of that internal draft. This was an 
appropriate part of the internal discussions that led to the draft NPS 
policies that are now available for public comment. Each of the 13 
specific concerns in the memo was addressed during this process. The 
Pacific West Regional Director was an active participant in that 
process and in a subsequent communication with park superintendents, he 
indicated his belief that the current version ``is much more consistent 
with the 2001 Management Policies with the updates about wilderness 
stewardship, partnerships and sustainability, and greater emphasis on 
defining `appropriate uses' in parks.'' Copies of the memo and 
subsequent communication are attached.
    Because these documents are important to the United States in 
ongoing matters, we advise you that, although we are making it 
available for Committee staff review, 1) we do not waive any privileges 
or exemptions from disclosure that are attached to it [see Attachments 
1 & 2]; 2) we are making it available pursuant to the Committee's 
request; and 3) we are making it available at this time only to the 
Committee for use by the Committee for its legitimate legislative 
functions. We expect that Committee staff will treat information 
derived from the review as confidential and take all reasonable steps 
to ensure preservation of the government's privileges.
    Question 51. Management Policies have been in place throughout the 
history of the NPS dating to 1918, and in their current incarnation 
since 1975, with three subsequent revisions in 1988, 2001 and the 
current draft. With this in mind;
    a. What type of disciplinary or corrective action does the NPS take 
when employees fail to follow the Management Policies?
    b. Is it noted in their personnel file?
    c. What impact does it have on the employee's career?
    Answer. The appropriate corrective action would be taken depending 
on the circumstances.
    Question 52. It is anticipated that some sort of training or 
briefings will be needed to fully inform National Park Service 
employees of the new policies.
    a. What is the implementation strategy for the new management 
policies?
    Answer. As is the case with all NPS policy, managers and 
supervisors are responsible for being aware of Management Policies and 
ensuring that their employees are, as well. Information contained in 
the Management Policies will continue to be distributed through ongoing 
training and normal information distribution practices.
    Question 52b. What type and how many workshops or other events do 
you intend to conduct to train Park Service personnel on the 
interpretation and implementation of the proposed policies?
    Answer. Teaching the policies will be and has been an important 
aspect of our strategy. We would expect to integrate policy awareness 
into the ongoing, routine activities of the Service (such as regional 
superintendents' conferences, in-park meetings, and the Servicewide 
employee development program). Also, the NPS Fundamentals II class 
schedule is already underway for FY 06, with a dozen or more classes 
planned. Additional classes, meetings, etc. that have already been 
planned will include training on Management Policies, as appropriate. 
This type of training is ongoing within the NPS, and entails no new 
procedures or requirements. Those who are familiar with the 2001 
policies will see that there are few substantive changes, and those who 
would be most affected by them will have participated in the review and 
comment process on the current draft policies. Otherwise, the 
substantive differences can easily be addressed in summary documents, 
and training can occur at any level that is appropriate in the 
organization. The best source of training for employees will be for 
them to read the document. For the most part, the document is self-
explanatory.
    Question 52c. How will this impact your current budget for training 
and travel?
    Answer. No additional travel expenditures are anticipated for 
training, as the training (materials, subjects, information) will be 
modified, as needed, to cover the new policies within previously 
planned training programs. Relatively minor additional expenditures may 
be necessary for printing the new document or producing it on CD-Rom 
when finalized and approved after the comment and review process has 
been completed, but those costs are not expected to impact other 
programs.
    Question 53. On October 11, 2005, the NPS Director distributed a 
memo to the National Leadership Council entitled Revised Procedures for 
GS-13, GS-14, and GS-15 Selections for review and comment.
    a. What led to the development of this memo?
    b. For the record, please provide a list of ``Key Leadership 
Positions'' for which the Director intends to apply the proposed 
procedures?
    c. As described in the memo, will the 4-Cs and the President's 
management agenda be incorporated into position descriptions for those 
``Key Leadership Positions''?
    Answer. The memo was developed to provide guidance considering the 
hiring review process for key leadership positions in the NPS. As all 
of the Regional Directors have been appointed since the last similar 
guidance was distributed, the timing of such a memo was appropriate. 
Upon review, we believed that the memo could have been more clearly 
written. A new memo, prepared in consultation with the National 
Leadership Council, has been distributed. A copy of the new memo is 
attached which reflects the types of positions that are covered and the 
expectations that are necessary for those in leadership positions. [See 
Attachment 3]
    Question 54. Draft Director's Order 21 was released for public 
comment on October 5, 2005.
    a. What type of fund-raising activities does the proposed DO-21 
allow Regional Directors and Superintendents to perform that they 
cannot engage in at this time?
    Answer. Currently, Regional Directors and Superintendents do not 
have the authority to be involved in raising funds with our partners 
yet many of them attend fundraising functions with partners and provide 
input relative to projects and related fundraising being proposed. Some 
of this activity could be viewed as bordering on fundraising. The draft 
Director's Order #21 makes it clear that ``it is the policy of the NPS 
to work primarily through its partners for fundraising.'' NPS employees 
are expected to develop and maintain professional relationships with 
these partners based on mutual understanding of the goals and functions 
of both parties.
    It is not the intent of the draft Director's Order #21 to imply 
that senior managers should or would be authorized to regularly solicit 
donations as part of their job: ``NPS will authorize direct 
solicitations by NPS employees to such third parties only in limited 
circumstances.'' The policy is intended to provide authorized officials 
the latitude to work in partnership with our friends' organizations 
when and if the need arises, much as they have been doing without 
explicit provisions addressing such activities. The authority to 
actually solicit donations is intended to be granted only sparingly, 
and then only after review and approval by not only the Regional 
Director but also the Associate Director for partnership activities and 
the Office of the Solicitor.
    We intend that fundraising agreements between the Service and its 
non-profit partners will make clear all aspects of the superintendent's 
role in any fundraising effort. Generally, such agreement language 
would most likely state that the superintendent is to support the 
effort of the partner, express the park's desire to see the project 
funded, and in certain instances may accompany a board member or 
volunteer campaign committee member on major gift solicitations or to 
fundraising events. The agreement would also indicate when or establish 
a process if it is anticipated that a superintendent would co-sign an 
appeal letter or otherwise promote the non-profit partner's fundraising 
campaign.
    Question 54b. How much has the National Park Service collected from 
donors during each of the past 5 years?
    Answer. The General Accounting (now Accountability) Office, in July 
2003, reported that the NPS had 150 Friends Groups (not including the 
National Park Foundation or our Cooperating Associations) serving 160 
parks, donating $17 million annually. Under the existing version of 
Director's Order #21, the NPS did not impose a standardized reporting 
system for tracking contributions to the NPS. The revised Director's 
Order #21 requires that such a tracking system be established and the 
Friends Groups are aware that such a system is both desired and needed 
by the Service.
    Donations to the NPS come in many forms and have therefore been 
difficult to track on a consistent basis. The NPS has just developed an 
annual, uniform reporting system that will track donations by 
cooperating associations to the bureau. It is likely that a similar 
type of system will be instituted with Friends Groups.
    Utilizing the existing NPS financial systems, the annual total 
contributions received in NPS donation accounts over the past five 
years were as follows:

                FY 2001: $27,536,965
                FY 2002: $15,239,199
                FY 2003: $28,966,193
                FY 2004: $19,409,761
                FY 2005: $27,605,055

    Question 54c. Do you expect to increase the NPS fund raising 
capability as a result of the new Director's Order?
    Answer. The NPS's philanthropic partners have complained since 
Director's Order #21 was first written that its language was largely 
negative and not conducive to creating an environment in which they 
could optimally fundraise on behalf of the National Park Service. The 
revised Director's Order was written with many of their concerns in 
mind and in the hope that the provisions of the new Director's Order 
will enhance their activities. The improved tone of the document, the 
clarification of roles of both the NPS and our partners and the degree 
to which expectations between the bureau and our partners are 
delineated are expected to help our partners to solidify their highly 
valued role in supporting the mission of the NPS. Although the public 
comment period is still under way, based on their previous comments to 
us over the past several years we believe that the revised Director's 
Order #21 will create a more positive environment for attracting 
potential donors.
    Question 54d. If so, what percentage increase do you anticipate 
annually?
    Answer. We do not at this time have a sense of whether there will 
be an immediate increase in donations to the NPS or to NPS fundraising 
partners. We have been told by our fundraising partners that an 
improved Director's Order #21 has the potential to make their job a 
great deal easier in fundraising on behalf of the National Park 
Service.
    Question 54e. Within the past fiscal year how much time has the NPS 
Directorate dedicated to pursuing solicitations?
    Answer. Under the Department's previous interpretation of NPS 
donation authority, solicitation by Departmental officials for NPS was 
limited to that incidental fundraising on behalf of the National Park 
Foundation (NPF). By Congressional mandate, the Director serves as 
Secretary of the NPF Board of Directors and assists the Foundation in 
their fundraising efforts by providing policy guidance, technical 
assistance and occasionally contact information. Within the past year, 
the NPF has entered into its first formal fundraising agreement with 
the NPS to help raise $10 million for the Junior Ranger Program. The 
Director has participated in planning meetings and social events 
leading up to requests for funding by the Board of Directors and staff.
    To our best knowledge, the Deputy Directors have not participated 
in solicitation of any type in the last fiscal year.

       Responses of the National Park Service to Questions From 
                            Senator Bingaman

    Question 1. Can you please provide me with specific examples 
(including affected park units) where you think visitor access to 
national parks or recreational activities have been improperly denied 
or restricted as a result of the current management policies?
    Answer. We have no specific examples of where visitor access has 
been improperly denied because of the Management Policies. However, it 
is important that the policies more clearly reflect our intention that 
requests for use of the parks be given full and thoughtful 
consideration before a decision is made to deny them. There will be 
some proposed uses that are inappropriate and should be denied. But the 
decision to do so should be carefully thought out and explained. One of 
the purposes of the draft policies is to ensure that new activities, 
that do not cause impairment, will be considered as appropriate uses.
    Question 2. Along with Director Mainella, you sent out a memo to 
all Park Service employees on September 1, 2005 which began, ``in 
response to a request by Congress, we are currently reviewing the NPS 
Management Policies.'' Can you please tell me what is the 
``Congressional request'' you are referring to? Is there legislative 
language or committee report language directing such a review? Is the 
``request by Congress'' the primary reason the policies are being 
revised?
    Answer. Please see response to question 1 on page 1.
    Question 3. Specifically with reference to the issue of resource 
protection and visitor recreation needs, can you tell me what has 
changed since the current policies were issued that requires such a 
significant revision?
    Answer. In light of the Congressional requests noted above, and 
believing that greater clarity could be developed, we believe that it 
was appropriate to issue the draft policies for comment. On the issue 
of resource protection and visitor recreation needs, some draft changes 
in text reflect an effort to recognize the commitment to resource 
protection and visitor enjoyment contained in the Organic Act. As 
indicated in earlier questions, we do not believe that the draft 
policies represent a fundamental change in the substance of the NPS' 
conservation mission. There are new laws, executive orders, and 
regulations that impact park management since the policies were last 
updated in 2001. NPS has increased responsibilities for homeland 
security, such as protecting national icons against attack. There have 
also been changes in the demographics of visitors, rapid population 
growth around parks, improvements in technology that provide new ways 
to enjoy parks or reduce adverse impacts on resources, and a new focus 
on civic engagement and cooperative conservation. These changes, 
combined with expectations from Members of Congress, prompted the 
review and update of the management policies.
    Question 4. Section 8.2.3 of the current policies states that ``the 
Service will strive to preserve or restore the natural quiet and 
natural sounds associated with the physical and biological resources of 
parks.'' The section further provides that ``[w]here such use is 
necessary and appropriate, the least impacting equipment, vehicles, and 
transportation systems should be used, consistent with public and 
employee safety.'' This language has been removed in the proposed 
revision, which instead states ``there are many forms of motorized 
equipment and mechanized modes of travel, and improved technology has 
increased their frequency of use.'' Please explain the problem with the 
existing motorized equipment language and why the new language is an 
improvement.
    Answer. The language above does not quote the policy at 8.2.3 in 
its entirety. Section 8.2.3 continues with: ``the management of these 
uses requires effective monitoring of resources and visitor experiences 
. . . uses and impacts associated with the use of motorized equipment 
will be addressed in park planning processes.'' In addition, at 8.1.2 
the policies state: ``the Service will consider using the best 
management tool or tools for the particular situation.'' These 
statements are intended to provide managers with the flexibility to 
determine the types of use and levels of use that are appropriate for 
the individual unit. The NPS believes that each park is unique and may 
have particular circumstances that need consideration. The draft 
policies give managers a variety of management tools, including but not 
limited to; monitoring, adaptive management and the incorporation of 
best available technologies to determine what uses might be appropriate 
and at what levels. The draft policies improve the park manager's 
ability to decide what mitigating requirements or use restrictions 
might provide the best protection for an individual park's resources 
and values.
    Question 5. The draft policies remove a provision in the existing 
policies dealing with potential wilderness (6.2.2.1). Why?
    Answer. The discussion of ``potential wilderness'' was moved to 
section 6.2.5. We will carefully consider whether the subject of 
potential wilderness can be addressed more clearly.
    Question 6. As I understand it, the Park Service and the 
Solicitor's Office have long interpreted the Organic Act as not 
permitting National Park Service employees to solicit donations from 
corporations and other prospective donors. In fact, the Director issued 
an order less than a year ago stating ``it should be emphasized that 
neither the NPS nor its employees has authority to solicit donations.'' 
I also understand there is a May 1996 Solicitor's Opinion to that same 
effect. Has the Solicitor's Office withdrawn its earlier opinion and 
advised you that the proposed policy change is legal?
    Answer. The question contains several incorrect statements. First, 
the general NPS authority to accept donations, found at 16 U.S.C. 6, is 
not technically a part of the Organic Act. Moreover, the May 21, 1996 
document to which the question refers was not a legal opinion, but 
established ``Donation Policy Guidelines'' for the Department and was 
signed by the Solicitor and the Assistant Secretary, Policy, Management 
and Budget. The Solicitor did guidelines on May 21, 1996 and an opinion 
for the Departmental Chief of Staff on July 19, 1994, which address the 
issue of ``National Park Service Fund Raising.'' [See Attachments 4 and 
5] In that opinion, the Solicitor recognized the authority under 
Section 6 to accept donations for the benefit of the System, and went 
on to simply state that ``[t]here is, however, no express generic 
authority of the Secretary or other Departmental officials to solicit 
such donations.'' The opinion further provided:

          I find this authority in an amalgam of the Secretary's 
        statutory role as Chair of the Foundation, the statutory 
        authorization for the Department to provide facilities and 
        services to the Foundation on a non-reimbursable basis, and the 
        Secretary's generic authority to accept donations for the 
        National Park System, which can be read to imply some authority 
        to solicit donations, at least in these circumstances 
        [incidental to a National Park Foundation fundraising campaign 
        regardless of whether the donations were received by the 
        Foundation or directly by the Service].

    The 1994 opinion only found that the authority to solicit was not 
expressed on the face of the statute and concluded that at least some 
authority to solicit donations did exist with respect to the 
Foundation. In publishing Director's Order 21 in 1998, NPS was 
following the May 1996 Departmental policy guidance, not making an 
independent interpretation of its laws as the question states.
    The Office of Legal Counsel (OLC) within the Department of Justice 
issued an opinion in January 2001 in which it concluded that the 
``express authority to accept gifts, contained in section 403(b)(1) of 
the Office of Government Ethics (OGE) Authorization Act of 1996, 
includes the implied authority to solicit gifts''. Separate from the 
Director's Order 21 process, earlier this year the Department reviewed 
and circulated proposed new donation guidelines to replace those from 
1996. In view of the 2001 opinion from OLC, the Office of the Solicitor 
has concluded that because the NPS statutory authority is essentially 
the same as that of OGE, and the 1994 reference that the authority to 
solicit was not expressed on the face of the statute merely created an 
inference that the authority to accept doesn't imply the authority to 
solicit, the 1994 opinion has now been superseded.
    The NPS incorporated the language from the Department's then draft 
donation policy guidelines in its proposed revisions to Director's 
Order #21. This Departmental policy has now been finalized in the 
Departmental Manual, and a copy of the Departmental policy at 374 DM 6 
is also attached. [See Attachment 6]
    Question 7. The National Park Foundation was specifically 
established by Congress to solicit donations on behalf of the National 
Park Service. The legislative history indicates that one of the reasons 
for establishing the Foundation was serious concerns about having Park 
Service employees doing so. Why is it necessary for Park Service 
employees to solicit donations when that is the legislatively-chartered 
purpose of the Foundation?
    Answer. The National Park Foundation (NPF) is charged with raising 
funds for the NPS to further the conservation of natural, scenic, 
historic, scientific, educational, inspirational, or recreational 
resources for future generations of Americans. In addition to this 
national fundraising partner of the NPS, there exist some 150 other 
non-profit fundraising partners of National Parks. These fundraising 
partners focus on one or a related group of parks and raise funds and 
in-kind support for their partner parks. The NPF generally focuses its 
efforts on system-wide fundraising while the park specific fundraising 
partners focus on their partner parks.
    In many cases (indeed this is the ideal) our park specific 
fundraising partners and superintendents work very closely together. 
Superintendents are often encouraged to accompany the partner 
organization's executive director or volunteer campaign chairman on a 
fundraising call or other fundraising function in order to reinforce 
the nature of the partnership to the donor and to focus potential 
donations to best meet park needs. As the proposed policy clearly 
states, NPS will authorize direct solicitations by NPS employees to 
such third parties only in limited circumstances. It is not the intent 
of the revised Director's Order #21 to imply that NPS employees should 
regularly solicit donations as part of their job. Rather, it gives them 
the latitude to work in partnership with our friends organizations when 
and if the need arises. Moreover, the proposed revision to Director's 
Order #21 provides that the authority to solicit can only be delegated 
to a superintendent under very strict guidelines requiring review and 
approval by not only the Regional Director but also a bureau senior 
manager and the Office of the Solicitor. In addition, please see our 
answer to question 54.
    Question 8. The draft Director's Order #21 would allow for greater 
recognition of donors in national parks, including for the first time, 
permanent recognition such as the naming of rooms in park facilities 
and other permanent features? Why is this necessary and why is it good 
public policy?
    Answer. While the old Director's Order prohibited permanent naming 
as a form of donor recognition, it did allow the Director to approve 
such naming on an exception basis. As many as 90 of our parks have some 
type of donor recognition within them.
    The proposed revision to Director's Order #21 notes that ``there is 
no one size fits all approach when working with partners.'' Donor 
recognition is one of the areas where a ``one size fits all approach'' 
is inadequate, particularly given that park partners are competing for 
philanthropic contributions in communities where naming is commonly 
provided as recognition for gifts to universities and museums. Giving 
Park Superintendents the opportunity to recognize donors by naming 
rooms in park facilities as part of an approved donor recognition plan 
is a way to meet the desires and expectations of donors without 
compromising the integrity of a park or the National Park System.
    Question 9. The proposal would appear to allow recognition of 
corporate sponsors at special events similar to what occurred a few 
years ago on the National Mall. In fact, the proposed language appears 
to allow greater flexibility to recognize donors than the amendment 
Congress adopted in response to the Mall event. Please explain why you 
believe the proposed standards are consistent with the amendment 
adopted by Congress for special events on the Mall. In addition, please 
explain why you believe the proposed standards are appropriate for 
special events in other units of the National Park System.
    Answer. Our intention was not to allow an inappropriate recognition 
on the National Mall or other units. The language for this section had 
been drafted with the referenced amendment in mind. The difference 
between the language of the amendment and the Director's Order was 
brought to our attention during our briefing for the staff of the 
Senate Committee on Energy and Natural Resources Subcommittee on 
National Parks. During that briefing we indicated we would revise the 
language to better reflect the amendment, while recognizing, as 
Congress does, that the more stringent policies under which the 
National Mall operates are not necessarily appropriate for all units of 
the National Park System.
    Question 10. Last month Director Mainella revised the procedures 
for hiring Park Superintendents and other managers at the GS-13 grade 
and above. Under the new procedures, all job candidates must now be 
vetted with the Washington Office, and candidates must be assessed in 
their ``ability to lead employees in achieving'' the NPS Legacy Goals 
(which I understand is a document developed by the Director), Secretary 
Norton's ``4Cs'' slogan, and the President's Management Agenda. It 
appears the Director is trying to add new politically-oriented criteria 
to civil service job descriptions. Please explain why this is 
necessary.
    Answer. Please see response to question 53.
    Question 11. Are the three criteria referenced in the previous 
question part of the official job descriptions for the referenced civil 
service jobs?
    Answer. Please see response to question 53
    Question 12. The President's Management Agenda includes a provision 
on faith-based initiatives. How does the Park Service evaluate its 
employees ``on their ability to lead employees in achieving'' this 
agenda?
    Answer. The NPS does not evaluate employees based on any faith-
based initiatives, nor is the Department of the Interior a participant 
in the faith-based management scorecard. Please see the response to 
question 53.
 Responses of the National Park Service to Questions From Senator Akaka
    Question 1. On October 12, 2005, in response to my inquiry into the 
status of the unsigned collective bargaining agreement between the 
National Treasury Employees Union and the National Park Service (NPS), 
I was advised by the Park Service that it had identified issues in the 
collective bargaining agreement that may be inconsistent with 
applicable law. My understanding is that the Park Service concluded 
bargaining by tentatively agreeing to the language in each article of 
the agreement and initialing each article on June 7, 2005. I further 
understand that on June 23, 2005, the Park Service agreed that 
negotiations on the collective bargaining agreement were complete and 
that following ratification by the union, the Park Service would sign 
the agreement and submit it to the Department of the Interior for 
agency review. It appears that there was sufficient time to raise 
concerns during the bargaining process. I would appreciate knowing why 
these issues of illegality were raised only after this process was 
concluded?
    Answer. The NPS has consistently stated throughout bargaining that 
many provisions of the proposals put forth by the National Treasury 
Employees Union (NTEU) were inconsistent with law, rule and regulation. 
These positions were consistently rejected by NTEU. In addition to 
these inconsistencies, the proposed contract put forth for signature 
contains errors in grammar and spelling, references to agencies and 
parties other than NPS and/or the Department of the Interior, and 
internal references within the contract to other sections of the 
contract that do not exist or are in error.
    The Service remains open to resolving these issues through 
negotiations and discussions between the parties. NTEU has elected to 
abandon bargaining and to litigate these issues through arbitration.
    Question 2. As you know, there is an established procedure in the 
Federal Service Labor Management Relations Statute for dealing with 
illegal provisions in a negotiated agreement. Under the statute, the 
Agency head has the opportunity to review a collective bargaining 
agreement's compliance with law, rule, or regulation (unless the agency 
has granted an exception to the provision) and reject any illegal 
provisions. Since the claim of illegality may be asserted through the 
agency head review process (and the agency neither loses nor waives its 
rights), why has the NPS not signed the agreement and let the 
Department of the Interior exercise its right of Agency head review, as 
Congress intended when it crafted the statute?
    Answer. For the reasons stated in the previous answer, the contract 
put forth for signature has numerous errors beyond inconsistencies with 
law, rule and regulation. Assuming these other matters were resolved, 
and NTEU has thus far refused to even discuss them, the position of the 
NPS is that the parties would be best served by attempting to resolve 
these inconsistencies with law, rule and regulation outside litigation. 
While the Statute provides for addressing these matters through agency 
head review, the Statute clearly states that its purpose and intent is 
for the ``amicable settlement of disputes between employees and their 
employers involving conditions of employment'' and establishes 
litigation as a last resort. The Federal Labor Relations Authority has 
established several alternative dispute resolution programs and 
supports ADR as an alternative to litigation. Additionally, the Statute 
establishes specific roles for the Federal Mediation and Conciliation 
Service as a means to resolve bargaining issues. The NPS has 
consistently sought to resolve issues without litigation.
    Question 3. Was there any guidance from the political employees in 
the Department of the Interior to re-write the management policies? If 
so, please describe it for me. Did the guidance prescribe a focus, like 
public access or visitor services?
    Answer. Please see the response to question 1 on page 1 of this 
document.
    Question 4. Was there a report, analysis, or evidence that the 
direction of the parks, and guidance to mangers and superintendents, 
needed to be adjusted? Can you provide that evidence?
    Answer. We are not aware of a specific report or written analysis. 
Please see the response to questions 1 and 3 at the beginning of this 
document for why adjustments are deemed important and timely.
    Question 5. During the hearing I asked several questions about the 
October 11, 2005, memo from the Director, and how it would be 
implemented. One of my questions was whether other bureaus in the 
Department of the Interior have similar policies and memos regarding 
hiring policies, reaching into the career managerial levels of the 
civil service to determine their adherence to the President's 
Management Agenda--such as the Fish and Wildlife Service and the Bureau 
of Reclamation? I also asked about other federal agencies. As I 
understand it, you responded you would provide this information for the 
record. Thank you very much for your assistance on this.
    Answer. The memo in question was never intended to direct or convey 
that the National Park Service would select employees based on their 
adherence to the President's Management Agenda. Neither the NPS or 
other bureaus have policies regarding hiring practices that address 
adherence to the President's Management Agenda. It is important to 
understand that within the Department of the Interior the management 
goals that are included in the President's Management Agenda are an 
area of emphasis for performance. All of the performance plans for the 
Senior Executive Service members reference the priority of the 
President's Management Agenda along with other management excellence 
goals, management laws and regulations. These are areas of emphasis for 
management and for the evaluation of performance, but not for hiring 
decisions.
    The memo was developed to provide guidance considering the hiring 
review process for key leadership positions in the NPS. As all of the 
Regional Directors have been appointed since the last similar guidance 
was distributed, the timing of such a memo was appropriate. Upon 
review, we believed that the memo could have been more clearly written. 
A new memo, prepared in consultation with the National Leadership 
Council, has been distributed. A copy of the new memo is attached which 
reflects the types of positions that are covered and the expectations 
that are necessary for those in leadership positions. [See Attachment 
3]

   Responses of the National Park Service to Questions From Senator 
                                Salazar

    Question 1. Colorado's national parks are popular destinations, 
which people from all over the world visit for their natural and 
historic wonders and qualities. Recent surveys at Rocky Mountain 
National Park, Mesa Verde National Park, and the Grand Sand Dunes 
National Park confirm that visitors are very pleased with their 
experiences at these units when they visit. As this chart demonstrates, 
those trends are typical.
    If over 90% of visitors are satisfied with their experiences at our 
nation's parks, why is this revision necessary? Are you trying to fix 
something that isn't broken?
    Answer. Please see response to questions 1 and 11 at the beginning 
of the document.
    Question 2. According to a June 2002 visitor survey at what was 
then known as the Great Sand Dunes National Monument & Preserve, the 
most popular activities in the Great Sand Dunes includes climbing the 
dunes, photography, and wildlife viewing. But as you and other 
witnesses have acknowledged, language that would be deleted from the 
2001 Management Policies contributes toward enhancing and supporting 
the favored activities in the Dunes.
    For example, this sentence is deleted from Section 4.9 (Soundscape 
Management): ``The National Park Service will preserve, to the greatest 
extent possible, the natural soundscapes of parks.''
    And this sentence is deleted from Section 8.2 (Visitor Use): ``The 
Service will not allow visitors to conduct activities that unreasonably 
interfere with . . . the atmosphere of peace and tranquility, or the 
natural soundscape maintained in wilderness and natural, historic, or 
commemorative locations within the park.''
    Why has the Department proposed deleting language that reinforces 
the importance of scenic vistas, natural sounds, and other qualities 
that draw people to the Great Sand Dunes and other National Parks?
    Answer. The proposed policies do nothing to diminish the importance 
of scenic vistas, natural sounds, and other qualities that draw people 
to the Great Sand Dunes and other national parks. The draft policies 
fully recognize scenic vistas, sounds, and natural soundscapes as 
either a natural resource or an associated characteristic that draw 
people to national parks and which we will do our best to protect.
    The policy direction is to prevent the intrusion of noises caused 
by humans that either would disrupt the natural processes mediated by 
the natural soundscape or reduce the levels of enjoyment experienced by 
park visitors. The soundscape policy has been modified to better 
reflect the diversity of the NPS system which in addition to many great 
natural parks includes sites such as the New Orleans Jazz National 
Historical Park, the George Washington Memorial Parkway, and numerous 
urban sites for which it would be virtually impossible to minimize or 
eliminate human caused sounds. The proposed policies therefore 
recognize that a park-by-park decision must be made as to when, where, 
and to what extent we must maintain or restore natural sound. To help 
accomplish this, a standard has been added to prevent impacts that 
would unreasonably interfere with the attainment of a park's desired 
conditions, as identified through the park's planning process. If the 
planning process identifies an atmosphere of peace and tranquility or a 
natural soundscape as a desired condition, then the park would be 
required to meet that standard and manage the area accordingly.
    Furthermore, although the language referred to was deleted, 
similar, or more appropriate, language remains or was inserted 
elsewhere. For example:
    Section 1.4.6: The ``park resources'' that are subject to the no 
impairment standard include . . . the park's scenery, scenic features; 
natural visibility, both in daytime and at night; natural landscapes; 
natural soundscapes and smells. . . .
    Section 4.7.1: [T]he Service will seek to perpetuate the best 
possible air quality in parks to protect (1) natural resources and 
systems; (2) cultural resources; and (3) public enjoyment, human 
health, and scenic vistas.
    Section 4.9: Using appropriate management planning, superintendents 
will identify what level of noise is consistent with the park's 
enabling legislation or proclamation and the management objectives of 
the park.
    Section 4.9: The Service, through cooperation, consultation, and 
communication, will take action to prevent or minimize all noise that, 
through frequency, magnitude, or duration, unacceptably impacts the 
natural soundscape or other park resources or values.
    Section 8.1.2: An ``unacceptable impact'' is an impact that would . 
. . degrade resource conditions so as to preclude future generations 
from enjoying the resource in as good, or better, condition.
    Section 8.2: [T]he experience the Service provides for visitors' 
enjoyment is one of ``authenticity.'' Examples of this authenticity 
include . . . scenic vistas presented via access that is light on the 
land and secondary to the natural landscapes.
    Question 3. Because this specific resource-based language is 
deleted from several sections of the management policies, a park 
superintendent would find it necessary to refer to the fundamental 
purpose of the national park service established in the 1916 Organic 
Act, namely to protect and conserve park resources and values over all 
uses. But many of Mr. Hoffman's proposed revisions of those basic 
principles have survived in this draft. For example, the extensive 
deletions and changes to section 1.4.3 would undermine the Park 
Service's primary purpose, namely to protect and conserve park 
resources.
    Why are those changes necessary?
    Answer. We do not feel that the changes to section 1.4.3 would 
undermine the NPS's primary purpose. These changes are intended to 
ensure that NPS decision makers (whether at the park, regional, or 
headquarters level) give thoughtful consideration to proposed new 
activities and be prepared to explain why an activity would, or would 
not, be allowed. This change is a reflection of our goal to improve on 
what some readers have considered a ``negative tone,'' and also of our 
goal to more constructively communicate with all those who would find 
the parks a source of enjoyment.
    The draft policies continue to apply the conservation mandate that 
has long been at the heart of the NPS's interpretation of the Organic 
Act. When a conflict arises between conserving park resources and 
values and providing for their enjoyment, the process for determining 
what are appropriate uses and the mandate that unacceptable impacts not 
be allowed ensures that protection of park resources is maintained. The 
draft policies contain detailed definitions and processes which enable 
park managers to more readily determine how resources can best be 
conserved while providing a positive visitor experience. There is no 
change in the fundamental policies underlying the Organic Act, but an 
improved way to ensure that its objectives are, in fact, achieved. 
Thus, conservation is predominant.
    Question 4. After the 2001 Management Policies were adopted, 
Director Fran Mainella testified before the House Subcommittee on 
National Parks, Recreation and Public Lands that ``there can be no 
outdoor recreation without protection of the resource first, and if you 
are going to err, you will err on the side of the resource.''
    a. Does the Park Service still hold to that view? If so, can you 
show me where in the proposed management policies that view is 
reflected?
    Answer. Yes. As a key tenet of the Organic Act of 1916 that is 
reaffirmed by the General Authorities Act of 1970, as amended, the 
draft management policies repeatedly embrace the fundamental concept 
that when there is a conflict between enjoyment and conservation, 
conservation of the resources will prevail. The following statements 
are a few of the many examples from the draft policies that reinforce 
that important and guiding principle:

          Introduction: ``When proposed park uses and the protection of 
        park resources come into conflict, park managers are obligated 
        to ensure that the resources and values for which the park was 
        created are not diminished.''
          Introduction: Conserve, Preserve and Protect: ``The choice of 
        any one of these words, within these policies, is not intended 
        to, and should not be construed to imply a greater or lesser 
        restriction on opportunities for visitor enjoyment or level of 
        care for park resources and values.''
          Section 1.4.3: ``when there are concerns as to whether an 
        activity or action will cause impairment, the Service will 
        protect the resources . . .''
          Section 1.4.3: ``. . . Congress established the overarching 
        mission for national parks, which is to protect park resources 
        and values to ensure that these resources are maintained in as 
        good, or better, condition for the enjoyment of future 
        generations.''
          Section 4.1: ``In cases of uncertainty as to the impacts of 
        activities on park natural resources, the Service will protect 
        the natural resources . . . and strive to reduce uncertainty by 
        facilitating and building a science-based understanding.''
          Section 1.10: Letter from Secretary of the Interior, Franklin 
        K. Lane to the first Director of the National Park Service, 
        Stephen T. Mather, `` `. . . that the national parks must be 
        maintained in absolutely unimpaired form for the use of future 
        generations as well as those of our own time. . .' ''.
          Section 1.4.1: 1978 amendment to the 1970 General Authorities 
        Act, ``Congress further reaffirms, declares, and directs that 
        the promotion and regulation of the various areas of the 
        National Park System, as defined in section 1c of this title, 
        shall be consistent with and founded in the purpose of section 
        1 of this title (the Organic Act) to the common benefit of all 
        the people of the United States. The authorization of 
        activities shall be construed and the protection, management, 
        and administration of these areas shell be conducted in light 
        of the high public value and integrity of the National Park 
        System and shall not be exercised in derogation of the values 
        and purposes for which these various areas have been 
        established, as may have been or shall be directly and 
        specifically provided by Congress.''

    Question 5. In your proposed new definition of impairment, you 
require that an impact be ``significant'' to constitute impairment. 
Previously, impairment was considered to be any impact which, in the 
professional judgment of the responsible National Park Service manager, 
would harm the integrity of park resources or values.
    a. How do you explain the addition of the requirement that the 
impact be ``significant'' if it is not intended to reduce protection 
for resources and values?
    b. What is the difference between ``significant'' and ``adverse?'' 
The revised management policies appear to require both an adverse 
impact and one that is significant. Is that correct? Why does an impact 
have to be significant if it is adverse? Can you give me examples of 
adverse impacts that would not be significant?
    Answer. Please see the response to question 29 for question 5a.
    ``Adverse'' means unfavorable, undesirable, negative, or harmful. 
``Significant'' means important or of consequence. As used in the 
context of the Management Policies, adverse impacts are a sometimes 
inevitable result of visitor activities or park management activities. 
For example, creating a trail, clearing a scenic overlook, or allowing 
visitors to consume wild berries would produce adverse impacts on park 
resources. But we often pursue or allow these types of activities 
because they help us achieve our broader goals and, relatively 
speaking, the impacts are not of great consequence. However, given 
different circumstances the impacts could be much greater. For example, 
if the trail were created through highly erodable soils, or if the 
vegetation cleared from the overlook exposed a sensitive archeological 
site, or if the wild berries were an important food source for a 
particular bird species, then the impacts might be significant and we 
would look for ways to avoid or mitigate the impacts, or refrain from 
undertaking the activity. These nuances are sometimes difficult to 
discern and to articulate. That is one reason why the draft revisions 
call for a determination by park managers whether ``unacceptable 
impacts'' will result from an action rather than simply the existence 
of ``adverse impacts''.
    Question 6. I've been told that the policies are being updated to 
improve their clarity, yet important sections that guide management of 
off-road vehicle use seem to have been muddied. For example, the 2001 
Management Policies (in Section 8.2.3.1) explicitly reference President 
Nixon's executive order on off-road vehicle management, which makes 
clear that public land managers must consider resource protection, 
public safety and user conflicts when deciding whether to allow off-
road vehicle use. And the language of that section reinforces these 
principles. Instead of resting on public safety, minimizing user 
conflicts, and resource protection, the new policy with respect to off-
road vehicle use appears to prod managers to allow off-road vehicle 
use.
    Why do the revised management policies delete the language that 
reinforces the Nixon executive order and add a new definition of 
``appropriate use,'' which is both confusing and overly permissive?
    Answer. The draft policies do not change or alter the direction 
given in the Executive Order. The Executive Order and our existing 
regulations continue to govern off-road vehicles. The definition of 
appropriate use establishes a process by which park managers can make a 
determination about whether any particular use would be appropriate in 
a park. In determining whether off-road vehicle use might be 
appropriate managers are directed to engage the public and use the best 
scientific information. This concept is further clarified by setting 
forth a list of criteria that park managers must apply, using their 
professional judgment, to determine what uses are appropriate in a 
particular park. Such criteria include, among others, ensuring that 
uses do not cause unacceptable impacts, create an unsafe or unhealthful 
environment for visitors or employees, or result in significant 
conflict with other appropriate uses.
    The intent of the revisions is to provide managers with the 
flexibility to determine the types of use and levels of use that are 
appropriate for the individual unit. The NPS believes that each park is 
unique and that a one size fits all policy is not an effective 
management tool. The NPS also believes that Management Policies do more 
than simply restate law or regulation: they offer guidance to help park 
managers solve real world issues on the ground. The draft policies 
direct managers to utilize the best available science and a variety of 
management tools, including but not limited to; park planning, 
monitoring, adaptive management and the incorporation of best available 
technologies, to determine what uses and what levels of use might be 
appropriate. The draft policies are intended to give the park manager 
the ability to decide what mitigating requirements or use restrictions 
might provide the best protection for an individual park's resources 
and values, while providing for appropriate visitor activities.
    Question 7. For instance, the off-road vehicle language no longer 
mentions visitor safety or resource protection. And when considering 
whether off-road vehicle use would be an ``appropriate use,'' the 
revised draft states, ``The Service may allow other visitor uses that 
do not meet all the above criteria (including uses that have occurred 
historically and uses that represent new technology).'' The criteria in 
sections 8.1.1 and 8.2 largely cancel each other out, and a park 
manager is left with historic use and new technology as the primary 
standards.
    The Park Service has to ensure visitor safety and resource 
protection--why is that language deleted? Why is it replaced with a new 
definition that appears to prod park managers into considering new 
standards? How would a park manager choose between the fundamental 
principles derived from the Organic Act and almost one hundred years of 
management principles based on that Act, on the one hand, and the new 
management policies on the other?
    Answer. Please also refer to the response to question 6 above. The 
NPS disagrees with the premise that the criteria in section 8.1.1 and 
8.2 largely cancel each other out. In the example given, the other 
visitor uses (including historic uses) would be subject to the criteria 
in 8.1. The NPS also disagrees with the premise that implementation of 
the Organic Act and the implementation of the draft management policies 
are mutually exclusive. The draft policies must be and are fully 
consistent with the Organic Act. The Management Policies do not carry 
the force of law; and the Executive Orders that limit off-road vehicle 
use on federal lands cannot be, and are in no way, diminished by the 
draft policies. With specific regard to visitor safety and resource 
protection, off-road vehicle use would be subject to the new (and more 
comprehensive) standards for ``appropriate use'' and ``unacceptable 
impacts'' rather than the less comprehensive standards in section 
8.2.3.1 of the 2001 edition. Under the new standards, if an activity 
created an unsafe or unhealthful environment for visitors or employees, 
it would not be allowed. Also, if it was inconsistent with park 
purposes or values, diminished opportunities for current or future 
generations to enjoy park resources, or degraded park resources, it 
would not be allowed.
    Question 8. The attached National Park Service 10 year analysis of 
air quality monitoring data from 1994-2003 depicts worsening air 
quality for a number of airborne contaminants at national parks in 
Colorado where monitoring data is available. Ozone is worsening at 
Rocky Mountain and Mesa Verde national parks. The haziest days are 
getting hazier at Mesa Verde, Rocky Mountain and Great Sand Dunes 
national parks. Great Sand Dunes has the unfortunate distinction of 
being the only national park in the country where scenic vistas are 
becoming more polluted both on the clean and dirty days. Nitrate 
concentrations in precipitation are worsening at Rocky Mountain NP and 
ammonium concentrations in precipitation are worsening at both Rocky 
Mountain and Mesa Verde NPs. Nitrogen pollution has a common role in 
creating or exacerbating many of these problems.
    Why is the Department seeking to weaken its internal policies that 
guide its decision making in protecting air quality in our national 
parks at the time that its own data shows air quality at national parks 
across Colorado are worsening? Shouldn't we be strengthening and re-
doubling our resolve to protect the crown jewels of Colorado? These 
crown jewels not only inspire millions of American families but they 
are also the foundation of Colorado's tourist economy.
    Answer. The draft policies are intended to maintain visitor 
enjoyment of the parks by ensuring park resources are protected and 
park values are sustained. The Department is not seeking to weaken its 
internal policies. Please see the answers to questions 31 through 34 
earlier in this document. Management Policies provide appropriate 
actions for NPS to take to encourage relevant decision-makers in other 
organizations to take necessary steps to protect scenic views in parks. 
Specifically, in Colorado the NPS is working closely with the State of 
Colorado to address the issues you have identified in order to improve 
the air quality at the NPS units in Colorado. For additional 
information regarding air quality please see the responses to questions 
38 through 41 earlier in this document.
    Question 9. The revised management policies would relegate scenic 
vistas and clear skies at national parks to an ``associated 
characteristic.'' See Ch. 4, p. 3, line 23. But national park visitors 
consistently list scenic vistas and clean air as one of the central 
features that they highly value. Moreover, since 1977, the Clean Air 
Act has included a special program to protect the scenic vistas in the 
country's premier national parks. See Clean Air Act Sec. 169A. Congress 
pointedly adopted the visibility program to protect the ``intrinsic 
beauty and historical and archeological treasures'' of certain federal 
lands, observing that ``areas such as the Grand Canyon and Yellowstone 
Park are areas of breathtaking panorama; millions of tourists each year 
are attracted to enjoy the scenic vistas.'' H.R. Rep. No. 294, 95th 
Cong., 1st Sess., at 203-04 (1977). Further, section 165 of the Clean 
Air Act defines ``visibility'' as one of the core ``air quality related 
values'' of national parks that deserve heightened protection under the 
laws program to prevent significant deterioration of air quality.
    Why are you relegating the protection of scenic vistas to an 
``associated characteristic'' when the Clean Air Act identifies 
protection of scenic vistas as a core value and Congress has carefully 
crafted a program to protect the vistas at our premier national parks? 
Will you remedy this in the final manual and clearly identify scenic 
vistas and clean air as a core, integral value to be fully protected?
    Answer. Scenic vistas receive the same high standard of protection 
as all other natural resources and values. The draft policy revisions 
indicate that the ``associated characteristics'' will be preserved as 
part of the natural resources, processes, systems, and values of parks. 
Achieving pollution free air, however, requires cooperation among a 
large number of entities. Clearly, the Management Policies need to 
mention both clear air as a resource and clear skies as an associated 
characteristic. See answer to Question 39.
    Question 10. The revised manual would substantially alter the 
definition of ``natural condition'' ``to describe the condition of 
resources that would occur in the absence of human dominance over the 
landscape but not necessarily the absence of humans.'' See Ch. 4, p. 3, 
lines 26-28. This change conflicts with the national visibility goal 
declared and codified by Congress in 1977: ``the prevention of any 
future, and the remedying of any existing, impairment of visibility in 
mandatory class I Federal areas which impairment results from manmade 
air pollution.'' Clean Air Act Sec. 169A(a)(1). The goal to restore 
scenic vistas to their natural conditions, to remedy manmade air 
pollution, was carried out as a central feature of EPA's 1999 final 
rules to cut regional haze in national parks and these provisions were 
affirmed by the DC Circuit in the face of vigorous industry challenge.
    What does it mean to have a definition of natural conditions that 
is offended only by human dominance over the landscape? This is 
contrary to the Federal Land Managers' affirmative responsibility under 
the Clean Air Act and the national visibility protection goal 
enunciated by Congress over a quarter century ago. The Clean Air Act 
and its implementing rules are manifest that addressing manmade 
impairment is a genuine goal, and that we must make incremental 
stepwise process toward that end. A standard that supplants natural 
conditions with conditions tolerating dominance over the landscape is 
doomed to failure and contrary to law.
    Answer. Please see the answer to question 41.
    Question 11. Over the past 30 years, NPS has repeatedly 
acknowledged and admitted its failure to comply with statutory and 
regulatory mandates to review and recommend wilderness. In 1993 a NPS 
Task Force concluded that ``past agency leadership has not met its 
responsibilities for wilderness management'' and that ``many NPS 
wilderness studies and recommendations have languished for as long as 
20 years.'' In August 2000, the Acting Associate Director noted that a 
review of NPS Wilderness Program files ``revealed the extent of the 
workload remaining for [NPS] with respect to Wilderness Studies and 
Designation'' and admitted that ``[i]t is apparent that in many 
instances this is not even recognized as a workload.'' In response to 
these admitted failures, the 2001 Policies ambiguously stated that all 
lands would be reviewed and such reviews would be done in a timely 
manner. The proposed revisions eliminate the clear mandate to study all 
lands and to do so in a timely manner.
    What assurances can you give that the proposed revisions will keep 
NPS from again slipping into a pattern of disregard of statutory and 
regulatory deadlines?
    Answer. Eighty-four percent of the acreage of the National Park 
System is currently either Congressionally designated wilderness, or in 
the process of being considered for designation. The vast bulk of NPS 
lands have already been reviewed. There are a few remaining parks that 
were in existence on September 3, 1964, for which there is a clear 
mandate to conduct a wilderness review, that have failed to do so. The 
Director's Wilderness Action Plan calls for those parks to complete the 
wilderness eligibility determination, and we are committed to 
completing that task.
    Question 12. The Wilderness Act states that certain uses, such a 
commercial enterprises and permanent roads, are prohibited in 
designated wilderness ``except as necessary to meet minimum 
requirements for the administration of the area for the purposes of 
[wilderness].'' 16 USC Sec. 1133(c) (emphasis added). This is known as 
the ``minimum requirement analysis'' and is a documented process used 
to determine if proposed administrative activities affecting wilderness 
are in fact necessary and, if so, how any impacts might be minimized. 
The existing Management Policies set forth a two-step process that 
tracks directly the Wilderness Act's mandate. See 6.3.5. In contrast, 
the proposed revision eliminates the key phrase ``for the purposes of 
wilderness.'' As a result the two-step process asks managers to 
consider only if the proposed action ``is appropriate or necessary for 
administration of the area.''
    Was it your intent to alter the Wilderness Act's mandate? If not, 
why change the existing two-step process, which clearly articulates the 
distinction between wilderness and non-wilderness lands?
    Answer. The draft Management Policies would not and could not 
change the Wilderness Act mandate. We intend only to clarify how we 
implement the Wilderness Act's mandate. Section 4(c) does not state 
``for the purposes of wilderness.'' Rather, it states ``for the purpose 
of this Act''. In Section 4(a), the purposes of this Act were declared 
to be within and supplemental to the purposes for which the areas were 
originally created. Some of the activities managers are required to do 
in wilderness have nothing to do with the Wilderness Act per se (such 
as administering valid existing rights to subsurface minerals, or 
restoring historic structures), but these activities, too, need to be 
evaluated through the minimum requirement process. Also, of the Section 
4(c) prohibitions, permanent roads and commercial enterprises are the 
two that are not subject to the minimum requirement provision. They are 
prohibited unless specifically provided for in the Act.

       Responses of the National Park Service to Questions From 
                           Senator Feinstein

    Question 1. The National Park Service (NPS), in contrast to other 
federal land management units, has always strived to preserve the 
natural environment in the parks. Given this mission, why do the draft 
management policies remove the stipulation that when motorized 
equipment is used in the parks, only the ``least impacting equipment, 
vehicles and transportation systems should be used''?
    Answer. The NPS believes that each park is unique and that a one 
size fits all policy is not always an effective management tool. The 
draft policies direct mangers to utilize sound science and a variety of 
management tools, including but not limited to, planning, monitoring, 
adaptive management and the incorporation of best available 
technologies to determine what uses, as well as what levels of use, 
might be appropriate for a park unit. The draft policies would give 
park managers the ability to decide what mitigating requirements or use 
restrictions might provide the best protection for an individual park's 
resources and values.
    With that in mind, the language quoted in the question above does 
not quote the proposed policy at 8.2.3 in its entirety. The proposed 
section 8.2.3 continues with: ``The management of these uses requires 
effective monitoring of resources and visitor experiences. Uses and 
impacts associated with the use of motorized equipment will be 
addressed in park planning processes.'' In addition, the following 
policy statements provide managers with flexibility to apply any 
necessary limitations or conditions appropriate to protect the 
resources and values of a particular park unit:
    Introduction: ``[T]he responsible manager will use good judgment to 
ensure that uses will not . . . cause an ``unacceptable impact.''
    Section 8.1.2: ``The Service will consider using the best 
management tool or tools for the particular situation. . . .''
    Section 8.1.2: ``When a use is authorized by law, . . . and when it 
is reasonably anticipated to cause unacceptable impacts to park 
resources or values, the Service will minimize or mitigate the impacts 
to the point where there will be no unacceptable impacts; or, if 
necessary, the Service will not allow a proposed activity or eliminate 
an existing activity.''
    Section 8.2: ``If a superintendent has a reasonable basis for 
believing that an ongoing or proposed public use would cause 
unacceptable impacts to park resources or values, the superintendent 
must manage the activity so as to prevent or eliminate the unacceptable 
impacts, or reduce them to acceptable levels. As appropriate, the 
superintendent may . . . require the use of best available technology 
and improved techniques. . . .''
    Section 8.2.1: ``In general, carrying capacity should not be 
defined in static numeric terms, but rather should (1) describe desired 
resource and social conditions, and (2) identify the kinds of policies, 
actions, and best available technology that could be implemented to 
achieve the desired conditions.''
    Question 2. The new draft policies would remove language in older 
policies designed to protect air quality and soundscapes in national 
parks. What is the removal of this language attempting to accomplish?
    Answer. The draft revisions on air quality and soundscapes are not 
intended to reduce protection of these park resources and values. 
Please see the answers to questions 15 and 38 through 42 earlier in 
this document.
    Question 3. What is the risk that these new management policies, in 
combination with the new rules about fundraising, could lead to 
pressure on park administrators to push the boundaries of what 
constitutes ``acceptable impacts''? For example, there exists the 
possibility that a desire by park managers to raise money from private 
sources, plus potential corporate donors who ask for access in return 
for donations, could lead to activities in the parks that run contrary 
the long-term conservation goals of NPS. What do the new rules do to 
prevent this type of scenario?
    Answer. We do not believe this will happen. The revised draft 
Director's Order on Donations and Fundraising incorporates requirements 
from the Department-wide donation policies that all donations accepted 
should maintain the integrity, the impartiality, and public confidence 
of the Service and the Department. This guidance, in combination with 
the other legislative and policy mandates, ensures that decisions by 
NPS employees must be directed to promote the long-term conservation 
goals of NPS. NPS employees are encouraged to contact their Regional 
Partnership Coordinators or the National Partnership Office in the 
event that they have any concern about the application of these 
policies. NPS would return a donation if, in subsequent conversations 
with a donor, it becomes evident that there is an expectation of 
special treatment or considerations.


</pre></body></html>
